Report No. DODIG-2012-028                  December 9, 2011




               Special Plans and Operations


    Assessment of U.S. Government and Coalition Efforts
   to Develop the Logistics Sustainment Capability of the
                   Afghan National Army
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                               December 9, 2011

MEMORANDUM FOR SECRETARY OF DEFENSE
               DEPUTY SECRETARY OF DEFENSE
               COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                  FORCE/UNITED STATES FORCES-AFGHANISTAN
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                  FORCE JOINT COMMAND
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                  TRAINING MISSION--AFGHANISTAN/ COMBINED
                  SECURITY TRANSITION COMMAND-AFGHANISTAN
               COMMANDER, JOINT THEATER SUPPORT CONTRACTING
                  COMMAND
               DIRECTOR, JOINT CENTER FOR INTERNATIONAL SECURITY
                  FORCE ASSISTANCE

SUBJECT: Assessment of U.S. Government and Coalition Efforts to Develop the Logistics
         Sustainment Capability of the Afghan National Army (Report No.
         DODIG-2012-028)

    We are providing this final report for review and comment. This is the twelfth in a series of
reports published by the Office of Inspector General’s Special Plans and Operations Directorate
that focus on the train and equip missions in Iraq, Afghanistan, and Pakistan. We considered
client comments on a draft of this report when preparing the final report.

   We request additional comments and information by January 11, 2012, as follows:
   •   Commander, International Security Assistance Force/U.S. Forces-Afghanistan-
       Recommendations 1, 3.
   •   Commander, NATO Training Mission-Afghanistan/Combined Security Transition
       Command-Afghanistan-Recommendations 2.a, 4.b, 5.a, 6, 9.a, 10.a, 10.b, 12.b, 12.e,
       13.a, 13.b, 14, 15.a, 15.b, 16, 18.a, 18.c, 18.d, 19, 21.b, 24, 28.d.
   •   Commander, Joint Theater Support Contracting Command-Recommendation 8.
   •   Director, Joint Center for International Security Force Assistance-Recommendation 12.g.
    If possible, please send your comments in electronic format (Adobe Acrobat file only) to
spo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the / Signed / symbol in place of the
actual signature. If you arrange to send classified documents electronically, they must be sent
over the SECRET Internet Protocol Router Network (SIPR).
                    Executive Summary – Assessment of
                    U.S. Government and Coalition Efforts
                    to Develop the Logistics Sustainment
                    Capability of the Afghan National Army

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command (USCENTCOM) and its subordinate commands in Afghanistan, the Military
Departments, and Agencies responsible for and engaged in training, mentoring, equipping, and
other aspects of the logistical development of the Afghan National Army (ANA) should read this
report.

Synopsis
Both North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A) and the International Security Assistance
Force (ISAF) Joint Command (IJC) have important responsibilities and capabilities with respect
to the logistical development of the ANA. NTM-A/CSTC-A has the lead responsibility for
managing the use of Title 10, U.S.C., fiscal resources, training and equipping the ANA, and
Ministry of Defense (MoD) capacity building. IJC is responsible for improving the effectiveness
of the ANA through partnering with ANA organizations at Corps and below (operational and
tactical units). ISAF has the responsibility to plan, direct, and integrate the contributions of these
two commands in support of ANA logistical development.

Previously, the Coalition’s primary focus had been on recruiting, training, and fielding the
combat units of the ANA. As of July 2011, NTM-A/CSTC-A had exceeded the force generation
milestones set for expanding the ANA. However, the Coalition has only recently been able to
focus on fielding ANA enabling organizations, to include logistics/maintenance units and
supporting structure/infrastructure. The ANA logistics system is therefore at a nascent stage of
development. It will take an intensive effort by the Coalition and the Afghan Ministry of
Defense/General Staff (MoD/GS) to build an independent and sustainable ANA logistics
capability, a complex challenge made even more difficult given that the country’s security forces
are at war. To succeed in this endeavor will take time, sufficient resources, and strategic
patience.

ISAF has taken initiative across a broad front to close the gap between ANA operational support
needs and the ANA logistical system’s capacity to meet them. These Coalition actions include
ANA logistical system planning and design, training, infrastructure, and equipping, as well as
accountability and control over necessary contracting, equipment, and services. Specifically,
NTM-A/CSTC-A has been constructing supply depots across the regional commands closer to
forward deployed ANA Corps and Brigades. A new Army Logistics Command, being
established this year under the General Staff, will integrate parts of logistics organizations/
functions from the Logistics Support Operations Center’s (LSOC’s) Forward Support Group,




                                                  i
along with the Forward Support Depots (FSDs), and Corps Logistics Kandaks 1. This new
command, and its subordinate Regional Logistics Support Commands, will better support the
transport and maintenance needs of ANA combat brigades. With NTM-A/CSTC-A support, the
MoD has progressed in its capacity to plan, program and successfully expend annual budgets to
provide for ANA logistical requirements. Ministerial functions in the areas of logistics
management are being fortified. In addition, IJC has deployed its Support Battalions and the
Joint Sustainment Command-Afghanistan (JSC-A) has deployed its Sustainment Brigades as
partners supporting ANA logistical development, an undertaking comparable to a successful
effort in Iraq that achieved impressive results.

Nonetheless, there are significant vulnerabilities and weaknesses in the logistical system, which
are identified in the report observations. Among them remains the challenge of establishing a
more effective system of oversight with respect to ANA equipment, supplies, and installations.
The ability of the ANA to provide this oversight is fundamental to being able to sustain the
operational readiness of its forces, prevent fraud, waste, and abuse of ANA materiel and
infrastructure; and reduce corruption. Such a system would also contribute to instilling a new
cultural ethos of stewardship within the ANA.

Recognizing the need to achieve that goal, ISAF has taken proactive measures, such as an
initiative underway to establish a base line inventory of vehicles, weapons, and communications
equipment provided the ANA by the Coalition. Efforts to strengthen the capacity of the
MoD/GS and ANA to maintain accountability and control over its logistics enterprise are
proceeding. ISAF has also identified a parallel need to improve its own internal oversight
capability with respect to U.S. appropriated funds used to supply equipment and supplies to the
ANA, and is in the process of obtaining additional qualified personnel and establishing programs
to do so.

Notable Progress
Although much work remains to be done, there are many noteworthy areas of progress identified
in this report under seven distinct focus areas, discussed in detail in Part I. Those areas were:

      •   High Level Logistics Reviews,
      •   Contract Oversight,
      •   Planning, Programming, Budgeting, and Execution,
      •   Logistical Training,
      •   Ministry of Defense/Ministry of Interior Cooperation,
      •   Tactical Logistics Operations, and
      •   Literacy.




1
    A kandak is the Afghan equivalent to a U.S. Army battalion.



                                                          ii
Challenges—Areas of Concern

Planning
ISAF lacks a plan that integrates the efforts of the IJC and NTM-A/CSTC-A, in partnership with
the MoD/GS, and ANA, to address the complexities of timely development of a core ANA
logistics capability, according to a determined timeline and defined end state. There is a
significant gap between the growing ANA personnel strength and ANA logistical ability to
support its field operations. The ANA still primarily relies on U.S./Coalition Force (CF)
logistics support.

This occurred because the U.S./CF previously focused primarily on recruiting, training, and
fielding ANA combat units to conduct kinetic operations and support governmental development
in key operational areas of the country. The recent emphasis by the U.S./CF, in conjunction with
the MoD/GS, to build a sustainable ANA logistics capability presents an extremely complex
organizational challenge, especially for a country at war. This has created a growing need for a
well-coordinated plan to build this capability while U.S./CF resources are available.

Among other things, this has led to:

   •   Failure to effectively communicate goals/objectives/timelines/processes throughout the
       MoD/General Staff (GS), ANA, and CF chains of commands responsible for the
       development and execution of logistics support operations,
   •   Inadequate consideration of the impact of planning for drawdown of U.S. forces on ANA
       logistical development,
   •   An immature MoD/GS Planning, Programming, Budgeting, and Execution (PPBE)
       process incapable of developing the requirements and acquiring the equipment/ materials
       necessary to sustain the ANAs maintenance and logistics systems, and
   •   Coalition Regional Support Commands (RSCs) being undermanned for the scope of their
       mission and responsibilities.

Contracting
ISAF and its subordinate commands, NTM-A/CSTC-A and IJC, do not have an integrated
planning and execution approach, in concert with DoD contracting authorities, that effectively
links contract requirements and performance to the accomplishment of ISAF operational goals
and objectives, while also ensuring effective contract oversight.

The sheer magnitude and complexity of the countrywide roles played by contractors in support
of the NTM-A/CSTC-A and IJC missions confounds the effects of these contracted services in
support of the operational campaign plan. The challenge of coordinating the respective roles and
responsibilities of contracting and operational commands further complicates delivery of desired
contract effect.

Without well-focused and integrated operational and contracting command joint planning, there
has not been a clearly understood common operating picture that ensured contract requirements
and performance were well-synchronized with ISAF operational goals and objectives. It has
therefore been difficult to maintain appropriate contract oversight and to measure overall


                                               iii
progress generated from the execution of contract services delivered to the various ISAF
commands and subordinate units across the Combined Joint Operational Area –Afghanistan.

Training
Kabul-centric combat service support (CSS) logistics training is unlikely to meet requirements or
to be fully supported by Corps and below ANA commands and needs to be made more
accessible. NTM-A/CSTC-A and MoD/GS have attempted to mitigate this issue by forming
Logistics Mobile Training Teams (MTTs), but ANA commanders and logistics staff officers, as
well as U.S./CF trainers, were largely unaware of the MTTs, their capabilities, or how to request
their support.

Logistics Process and Procedure
The “push” supply process, associated with fielding equipment and supplies to new units or
providing ASL materiel to FSDs and Combat Service Support Kandaks (CSSKs), has led to
confusion among ANA logisticians and U.S./CF trainers at FSDs and Corps.

This has occurred because:

   •   There is a significant lack of understanding among ANA logisticians, as well as U.S./CF
       trainers, about when, why, and how to rely on the push system vice the standard MoD 14
       resupply request process (pull system).
   •   ANA depots and units have become dependent on the Coalition to push supplies to them,
       so do not see the need to forecast or request supplies (pull) with a MoD 14.
   •   ANA Commanders, logisticians, and U.S./CF trainers view the MoD 14 process as
       unreliable and unresponsive.
   •   There is no MoD 14 feedback/reconciliation process that provides status of a supply item
       to requesting units.

Other process and procedure issues include:

   •   MoD 14 supply requests from fielded units are addressed on a “first come, first served”
       basis, if they are responded to at all; thus operational considerations within the Corps
       commands are not prioritized and responded to first.
   •   Copies of MoD Form 9 (issuance documentation) reportedly do not accompany the unit
       property books, in accordance with (IAW) MoD Decree 4.2, when a fielding unit deploys
       to its assigned field command location. Nor are the Form 9s made available to Afghan
       officials at the MoD.
   •   The ANA procedures for reporting supply discrepancies are confusing and ineffective.
   •   The process for turning in vehicles destroyed in combat/accidents and removing them
       from the unit property books is inefficient, confusing, and time-consuming.




                                               iv
Accountability
Issues with accountability include:

      •   Internal controls for fuel accountability and management are inadequate at some FSDs.
      •   No one was held accountable when ANA vehicles and equipment were wrecked/damaged
          due to command/operator negligence.
      •   Unusable medical supplies were on hand at the 2nd and 5th FSD Class VIII warehouses
          and loss of accountability for supplies/equipment at the 2nd FSD Class VIII warehouse.

Maintenance
Issues with maintenance include:

      •   Some ANA Commanders and G4/S4 officers in the Corps and below were not aware of
          the state of equipment readiness in their subordinate organizations.
      •   A shortage of Class IX (spare/repair) parts caused a significant vehicle maintenance
          backlog that negatively affected ANA operational readiness and impeded implementation
          of the new A-TEMP ANA maintenance contract.
      •   Difficulty retaining trained ANA mechanics and other skilled logistical professionals who
          come to the end of their ANA enlistment contract.
      •   Lack of a long-term capability to operate and maintain a wide variety of gas or diesel-
          powered generators that supply power to their operational units, particularly away from
          industrialized areas.

Personnel and Equipment Authorization (Tashkil)2
The Tashkils for the LSOC and the General Support Units (GSUs) do not support the current
mission requirements of those organizations. The LSOC’s manning shortfalls were having an
adverse effect on the command and control over the MoD/GS supply chain, impacting all classes
of supply, as well as weapons systems management. At the brigade level, the GSUs were not
capable of planning and executing their core installation support functions due to insufficient
authorization of personnel and critical equipment.

Commanders’ Unit Assessment Tool (CUAT)
There is a lack of feedback from IJC to the Afghan National Security Forces (ANSF)
Development Directorates in the Regional Commands (RCs) on Commander’s Unit Assessment
Tool (CUAT) trend analysis/data/ recommendations. The result is that the ANSF Directorates in
each RC may not be able to monitor effectively the output and eventual outcome of CUAT-
related guidance and resource decisions made at IJC, nor would they have visibility of trends
across the other RCs that might be of value in their RC. Additionally, the CUAT does not
capture the actual capability/ effectiveness of ANA logistics/maintenance systems at corps and
below. IJC is unable to measure with sufficient detail progress toward development of an
enduring logistics/maintenance capability in ANA corps/brigades/kandaks. This could delay
transition from ISAF-led to ANA-led logistics/maintenance operations.

2
    The Afghan document that authorizes personnel and equipment for an organization—similar to a U.S. Modified
    Table of Organization and Equipment (MTOE).




                                                        v
Recommendations Table
Office of Primary              Recommendations                 No Additional Comments
Responsibility                 Requiring Additional            Required at This Time
                               Comment/Information
Commander, ISAF/U.S.           1, 3                            2.b
Forces-Afghanistan
Commander, ISAF Joint
                                                               11, 12.f, 22.b,29, 30
Command
                                                            4.a, 5.b., 7.a, 7.b, 9.b, 12.a,
                        2.a., 4.b, 5.a, 6, 9.a, 10.a, 10.b,
                                                            12.c, 12.d, 17, 18.b, 20, 21.a,
                        12.b, 12.e, 13.a, 13.b, 14, 15.a,
Commander, NTM-A/CSTC-A                                     21.c, 22.a, 23.a, 23.b, 25,
                        15.b, 16, 18.a, 18.c, 18.d, 19,
                                                            26.a, 26.b, 27.a, 27.b, 28.a,
                        21.b, 24, 28.d
                                                            28.b, 28.c
Commander, Joint Theater
                            8
Support Contracting Command
Director, Joint Center for
International Security Force   12.g
Assistance

Please provide comments by January 11, 2012.




                                            vi
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................................ I
INTRODUCTION....................................................................................................................................... 1
    Background .............................................................................................................................................. 1
    Public Laws ............................................................................................................................................. 1
    Objectives ................................................................................................................................................ 1
PART I – NOTABLE PROGRESS ........................................................................................................... 3
PART II –PLANNING ............................................................................................................................... 9
    Observation 1. An Integrated Plan to Develop Afghan National Army Logistics Capability .............. 11
    Observation 2. Effective Communication of Afghan National Army Logistic Goals, Priorities, Plans,
    Processes, and Procedures ..................................................................................................................... 17
    Observation 3. Partnering with ANA Logistics Units at Corps and Below.......................................... 21
    Observation 4: Ministry of Defense/General Staff Planning, Programming, Budgeting, and Execution
    Process ................................................................................................................................................... 25
    Observation 5. Ammunition Supply Point—215th Corps ..................................................................... 31
    Observation 6. Personnel Strength in Regional Support Commands ................................................... 33
PART III – CONTRACTING.................................................................................................................. 37
    Observation 7. Managing Contract Requirements and Performance to Support International
    Security Assistance Force Operational Goals and Objectives and to Provide Effective Oversight ..... 39
    Observation 8. Coalition Contracting Representatives ......................................................................... 45
PART IV – TRAINING ............................................................................................................................ 49
    Observation 9. Logistics Specialty Training......................................................................................... 51
    Observation 10. Logistics Mobile Training Teams ............................................................................. 55
    Observation 11. Embedded Logistics Training Teams in Combat Service Support Kandaks and Corps
    Logistics Kandaks .................................................................................................................................. 57
PART V – LOGISTICS PROCESS AND PROCEDURE..................................................................... 59
    Observation 12. Afghan National Army Supply Processes .................................................................. 61
    Observation 13. Priority of Supply ....................................................................................................... 69
    Observation 14. Ministry of Defense Form 9 and Unit Property Books .............................................. 71
    Observation 15. Reporting Supply Discrepancies ................................................................................ 75
    Observation 16. Expendable Supplies and Material ............................................................................. 77
    Observation 17. Vehicles and Equipment Destroyed in Combat/Accidents ........................................ 81
PART VI - ACCOUNTABILITY ............................................................................................................ 85
    Observation 18. Fuel Accountability .................................................................................................... 87
    Observation 19. Unusable High Explosive Artillery Shells ................................................................. 93
    Observation 20. Accountability for Damaged, Destroyed, Lost, or Stolen Vehicles and Equipment .. 95
    Observation 21. Class VIII Warehouses at the 2nd and 5th Forward Support Depots ........................... 99
PART VII – MAINTENANCE .............................................................................................................. 103
    Observation 22. Equipment Readiness Reporting .............................................................................. 105
    Observation 23. Shortage of Class IX Parts ....................................................................................... 109
    Observation 24. Loss of Afghan National Army Skilled Professionals to the Private Economy ....... 115
    Observation 25. Maintenance of Computers, Printers, and Copiers ................................................... 119
    Observation 26. Technical Manuals .................................................................................................. 123
    Observation 27. Power Generation ..................................................................................................... 125
PART VIII - PERSONNEL AND EQUIPMENT AUTHORIZATION (TASHKIL)....................... 129
    Observation 28. The Logistics Support Operations Center and the Garrison Support Units ............. 131
PART IX - COMMANDER’S UNIT ASSESSMENT TOOL ............................................................. 137
    Observation 29. Commander’s Unit Assessment Tool Analysis ........................................................ 139
    Observation 30. Capturing ANA Logistics/Maintenance Capability in the Commander’s Unit
    Assessment Tool .................................................................................................................................. 141
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS.................................................... 143
APPENDIX B. SUMMARY OF PRIOR COVERAGE...................................................................... 147
APPENDIX C. CRITERIA—U.S. LAW AND MINISTRY OF DEFENSE/AFGHAN
NATIONAL ARMY/U.S. DEPARTMENT OF DEFENSE POLICY/DOCTRINE ......................... 151
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED ............................................... 159
APPENDIX E. MANAGEMENT COMMENTS ............................................................................... 161
APPENDIX F. REPORT DISTRIBUTION ........................................................................................ 185
Introduction
Background
This is the twelfth in a series of reports published by the Office of Inspector General’s Special
Plans and Operations Directorate that focus on the train and equip missions in Iraq, Afghanistan,
and Pakistan. General areas discussed in these reports include:

   •   Accountability of weapons transferred to the Iraq and Afghan Security Forces,
   •   Accountability of night vision devices transferred to the Iraq Security Forces,
   •   Effectiveness/responsiveness of the Foreign Military Sales system in support of the Iraq
       and Afghan Security Forces,
   •   Logistics development of the Iraq and Afghan Security Forces,
   •   Effectiveness of U.S. and Coalition efforts to develop the Iraq and Afghan Security
       Forces, and
   •   Review of the Coalition Support Fund Program and other DOD security
       assistance/cooperation programs with Pakistan.

Previous reports on these subjects may be viewed at http://www.dodig.mil/spo/reports.html.

Public Laws
Congress appropriated $38.46 billion to the Afghanistan Security Forces Fund in Public Laws
109-13, 109-234, 109-289, 110-28, 110-161, 110-252, 111-32, 111-118, and 112-10. These
Public Laws define the “train and equip” mission performed in Afghanistan. The laws specify
use of the funds in support of the security forces of Afghanistan.

Objectives
On February 14, 2011, the DODIG announced the “Assessment of U.S. Government and
Coalition Efforts to Develop the Logistics Sustainment Capability of the Afghan National
Army,” (Project No. D2011-D00SPO-0172-000). The objectives of this assessment were to
determine whether:

   •   Planning and operational implementation of efforts by U.S./Coalition Forces (U.S./CF) to
       train, advise, and assist in the development of an enduring logistics sustainability
       capability for the Afghan National Army (ANA) were effective. This included
       evaluating output/outcome in ANA logistical and operational organizations resulting
       from U.S./CF involvement in developing Ministry of Defense (MoD)/General Staff
       (GS)/ANA logistics support processes.

   •   Plans, training, preparation, and designated missions of International Security Assistance
       Force (ISAF)/U.S. Forces-Afghanistan (USFOR-A), North Atlantic Treaty Organization
       (NATO) Training Mission-Afghanistan/Combined Security Transition Command-
       Afghanistan (NTM-A/CSTC-A), and ISAF Joint Command (IJC) to train, advise, and




                                                1
          assist in the development of an enduring logistics sustainability capability for the ANA
          were integrated across all levels of U.S./CF commands/staffs, as well as with the MoD,
          and address ANA operational needs.

      This report consists of nine separate sections.

          •   Notable Progress,
          •   Planning,
          •   Contracting,
          •   Training,
          •   Logistics Process and Procedure,
          •   Accountability,
          •   Maintenance,
          •   Personnel and Equipment authorization (Tashkil) 3, and
          •   Commander’s Unit Assessment Tool (CUAT).




3
    The Afghan document that authorizes personnel and equipment for an organization—similar to a U.S. Modified
    Table of Organization and Equipment.


                                                        2
PART I – NOTABLE PROGRESS




            3
Working Towards Transition
An important goal of the International Security Assistance Force (ISAF) in Afghanistan is to
successfully transition security responsibility to the Government of the Islamic Republic of
Afghanistan (GIRoA). Through the efforts and leadership of ISAF, IJC, and NTM-A/CSTC-A
working at all levels of the MoD, General Staff (GS), and ANA, progress has been made in the
area of developing an independent logistical capability to support ANA military operations.

High Level Logistics Reviews
ISAF established a joint IJC/NTM-A/CSTC-A Logistics Council of Colonels and Logistics 2-
Star Steering Committee that have been maintaining a dialogue, identifying and recommending
actions regarding significant MoD/ANA logistics challenges and issues. These venues combine
both the U.S./Coalition trainers and operators in a forum to address logistics problems and issues
that are then coordinated with their MoD and Afghan GS G4 counterparts.

The Afghan GS G4 hosted a two-day logistics and maintenance seminar in Kabul on 12 and 13
June 2011. The corps G4s, brigade S4s, property book officers, maintenance officers, and other
key leaders were required to attend the seminar. The GS G4 planned and executed this seminar,
with very little Coalition assistance. The seminar focused on the:

      •    Newly issued MoD Manual for Organization and Functions that defined logistics
           organizational roles and responsibilities carried out by ministry offices, the MoD
           Logistics Command and Acquisition Agency, ANA General Staff, and ANA units at
           corps and below.
      •    Recently issued MoD decrees that cover core ANA logistical system requirements for
           maintenance, transportation, supply, and accountability functions.

The seminar also provided clarification regarding the Coalition/MoD “push process” versus the
“pull process.” The push process sends down the supply chain authorized equipment, repair
parts, and other supplies not yet provided to recently fielded ANA units. It is also being used to
establish repair/spare parts Authorized Stockage Lists (ASLs) at Forward Supply Depots (FSDs).
The “pull process” requisitions re-supply to sustain already-fielded ANA units using the MoD
Form 14 request process.

Regional Command (RC)-Southwest has established a logistics-focused Council of Colonels and
is working to gain a common operating picture 4 of the logistics issues facing the ANA.

The 209th Corps Command Sergeant Major organized a 3-day leadership seminar for all
Command Sergeants Major within the Corps that was intended to enhance their understanding of
the importance of the non-commissioned officer (NCO) mission and to underscore the value of
the NCO role in the life of the Afghan soldier to the command. Logistical issues were at the
forefront of his message to his NCOs.


4
    A single identical display of relevant information shared by more than one command. A common operational
    picture facilitates collaborative planning and assists all echelons to achieve situational awareness. Also called
    COP.


                                                            5
Contract Oversight
The recently established Training Program Support Office (TPSO) of NTM-A/CSTC-A,
supported by the Office of the Secretary of Defense, Acquisition, Technology, and Logistics
(OSD AT&L), Department of the Army AT&L, and the Defense Contract Management Agency,
will integrate management and oversight of key contracts to train and mentor MoD/ANA and
Ministry of Interior (MoI)/Afghan National Police (ANP) personnel. This will help to ensure
that the collective impact of over 700 of these contracts enables NTM-A/CSTC-A and IJC
mission accomplishment and enhances fiscal resource stewardship.

On a related note, IJC/Task Force 101 has further developed a database that provides
comprehensive oversight of all contracts and contractors supporting the train, equip, and mentor
mission in its RC-East area of operations, a project initiated by its predecessor, Task Force 82.

NTM-A/CSTC-A also is working to allow the MoD/GS/ANA to manage some of their own
logistics sustainment contracts, providing training on these processes, while further developing
the Afghan ability to sustain their infrastructure, equipment and operations.


Planning, Programming, Budgeting, and Execution
NTM-A/CSTC-A has begun an intensive training program to address the critical importance of
developing the MoD/GS capabilities to execute the planning, programming, budgeting, and
execution processes so that the ministry and army command and staff have the capability to
support their logistical functions and sustainment needs. Currently, 15 MoD/GS departments are
participating in this process. The U.S. Ministry of Defense Advisors program provides the
primary trainers.


Logistical Training
Formal training in
logistical/maintenance specialties
has increased and is improving.
Examples include:

   •   Certified Afghan military
       trainers – “Afghans
       training Afghans” -
       present many of the
       logistics training courses
       at the Combat Service
       Support School in                   Figure 1. Combat Service Support School in Kabul
       Kabul.
   •   The IJC/Combat Logistics Battalion 8 of the Marine Corps Logistics Command,
       RC-Southwest (RC-SW), has organized and is administering a logistics training school




                                                6
          for the 5th Combat Service Support Kandak 5 (CSSK), 2nd Brigade, 215th Corps of the
          ANA.
      •   The ANA is transitioning to lead responsibility, with NTM-A/CSTC-A-contracted
          training support, for performing tactical-level vehicle maintenance at all CSSKs organic
          to ANA combat brigades.
      •   The U.S. Sustainment Brigade in RC-East and NTM-A/CSTC-A has trained seventy
          ANA personnel of the 203rd Corps on vehicle operator maintenance.
      •   By restructuring and redistributing trainer capability, the Afghan National Security Force
          (ANSF) Development Section in RC-North developed and implemented a plan that
          ensures all the ANA 209th Corps kandaks have Coalition teams assigned to provide them
          logistics support/training.


Ministry of Defense/Ministry of Interior Cooperation
                                                                      MoD cooperation with the MoI
                                                                      now includes support from the
                                                                      MoD Logistics Command
                                                                      Weapons Repair Facility at the
                                                                      Central Workshop, which is
                                                                      conducting technical inspections,
                                                                      malfunction checks, and limited
                                                                      repair for 10,000 Afghan
                                                                      National Police AK-47 rifles.
                                                                      Reports from the field indicate
                                                                      that trust and cooperation
                                                                      between the ANA and ANP is
                                                                      improving, albeit slowly. As
                                                                      violence has subsided in some
                                                                      areas, the ANP has been able to
                                                                      assume primary security
     Figure 2. Before and After: MoI Weapons Refurbished by the MoD
                                                                      responsibility from the ANA.



Tactical Logistics Operations
ISAF has prioritized the development, by 2014, of the sustainable and functional logistics
capability required to support the ANSF. Progress has occurred. Examples include:

      •   The ANA 201st Corps effectively planned and executed a logistical support operation in
          Nuristan province that provided additional capability necessary to fortify the
          operationally vulnerable Afghan Border Police (ABP)/Afghan Uniformed Police (AUP)
          base at Barg-e-Metal along the northeastern border with Pakistan.
      •   Convoy training conducted by IJC/RC-South’s 1225th Combat Service Support
          Battalion, 7th Sustainment Brigade, and a Bulgarian Operational Mentor and Liaison

5
    A kandak is the Afghan equivalent to a U.S. Army battalion.


                                                          7
       Team (OMLT), partnered with the Tennessee National Guard, enabled the ANA 205th
       Corps Logistics Kandak (CLK) to execute its first logistic resupply convoy operation.

Literacy
Developing a sustainable ANA logistics capability requires soldiers with effective literacy skills.
Arguably, literacy is some of the most important ANSF training conducted today. In the past
year, literacy training provided by NTM-A/CSTC-A, utilizing over 2,000 contracted Afghan
instructors, has increased the number of ANA soldiers qualified to read and write at the 1st grade
level from 4,294 to 14,047. Currently a requirement in basic and advanced ANA training
courses, ANA leaders and soldiers are uniformly committed to the literacy program. “My eyes
are now wide open,” said one ANA soldier in RC-SW, after completing his initial literacy
training course.




                                                 8
PART II –PLANNING




        9
Observation 1. An Integrated Plan to Develop Afghan
National Army Logistics Capability
ISAF lacks a plan that integrates the efforts of the IJC and NTM-A/CSTC-A, in partnership with
the MoD, GS, and ANA, to address the complexities of achieving timely development of an
essential core ANA logistics capability, according to a determined timeline and defined end
state. There is a significant gap between the growing ANA personnel strength and ANA
logistical ability to support its field operations. The ANA still primarily relies on U.S./Coalition
logistics support.

This occurred because the U.S./Coalition previously focused primarily on recruiting, training,
and fielding ANA combat units to conduct kinetic operations and support governmental
development in key operational areas of the country. The recent emphasis by the U.S./Coalition,
in conjunction with the MoD/GS, to build a sustainable ANA logistics capability presents an
extremely complex organizational challenge, especially for a country at war. This has created a
growing need for a well-coordinated plan to build this capability while U.S./Coalition resources
are available.

Past and current efforts of U.S./Coalition logistics partner units, mentors, and trainers, operating
in commands with distinct but overlapping roles and responsibilities, have been periodically
divergent and insufficiently leveraged. Mentors at all levels of the NTM-A/CSTC-A and IJC
have not sufficiently synchronized their various efforts to build ANA logistical capability, which
has created gaps in coordination and execution of the logistics development mission. Without an
integrated and well-executed plan for developing essential ANA logistical functions, ISAF risks
prolonging dependency on U.S./CF support. This could delay development of an ANA that can
provide logistical support sufficient to sustain independent ANA operations.

Applicable Criteria (See Appendix C, Numbers 5, 7, 25, 27, 32, and 34, for additional
details.)

    •   Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
        “Counterinsurgency,” December 2006.
    •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
        Logistics Capabilities,” November 2009.
    •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
    •   DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,” May 23, 2003.
    • IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
        Afghanistan” –Annex R: Logistics, October 9, 2010.
    •   Joint Publication 3-07.1, “Joint Tactics, Techniques, and Procedures for Foreign Internal
        Defense,” April 30, 2004.

Discussion
While there is an increased emphasis on development of ANA logistics and maintenance




                                                 11
capability during the current "year of the enabler,” 6 ISAF does not have an integrated plan to
ensure unity of effort regarding development of an enduring ANA logistics capability that will
meet current and future operational support requirements of its growing ANA combat forces.
Such a plan is necessary to ensure a successful transition to Afghan security forces lead by 2014.
U.S./CF efforts to build ANA logistics capacity were largely deferred until recent years due to
the strategic emphasis placed on fielding additional ANA combat units. The U.S./Coalition
continues to play a prominent role in providing logistical support to the ANA.

IJC and NTM-A/CSTC-A each have responsibilities for development of certain components of
the development of the overall ANA logistics capability, but these responsibilities also overlap in
terms of training and mentoring a range of ANA logistical functions. The absence of an ISAF
plan, which ensures that the two commands jointly align and synchronize between themselves
and with the ANA to achieve the most efficient implementation of resources, has periodically
created gaps or redundancies in the overall effort.

Recent logistical development incidents have occurred which underscore the need for a well
designed logistical plan. For example, the MoD/GS, with assistance from NTM-A/CSTC-A,
recently decided to organize an Army Support Command (ASC), with subordinate Regional
Logistics Support Commands (RLSCs), incorporating the existing CLKs, now assigned to each
corps, and different lines of MoD and GS/ANA command and control that would phase in over
the course of 2011. (See Figure 3 and 4 below.)




Figure 3. Current ANA Logistics Structure                                  Source: NTM-A/CSTC-A, 9 March 2011




6
    NTM-A/CSTC-A is now fielding combat enabling units, such as engineer, transportation, and maintenance units.


                                                        12
Figure 4. Proposed ANA Logistics Structure                       Source: NTM-A/CSTC-A, 9 March 2011

This was likely to be a challenging realignment under any circumstances. But, because of the
lack of a well-understood logistical development plan, with defined goals, objectives and
timelines, and efficiencies to be gained by the organizational changes, implementation of the
new logistics organizational structure was initially not sufficiently understood and coordinated
between ISAF, NTM-A/CSTC-A, IJC, MoD, and GS. Well-synchronized implementation
guidance was not jointly agreed and conveyed to ANA units and their mentors, with resulting
confusion and initial failure to execute.

A comparable circumstance occurred in the recent initial phase of the implementation of the
NTM-A/CSTC-A “Afghanistan-Technical Equipment Maintenance Program” (A-TEMP)
contract intended to transfer lead responsibility for vehicle maintenance at the ANA brigades to
their assigned CSSKs, with contract mentoring back-up support. This represents a significant
shift towards the ANA beginning to take the logistical lead. However, without sufficient
advance preparation based on guidance flowing from a well-understood logistical plan, the
implementation of A-TEMP was initially problematic and not well understood by the ANA or its
logistical field mentors.

For their part, U.S./CF and MoD/GS leaders and staffs recognized the confusion and concern
over recent steps to improve the ANA logistical organization structure and maintenance
capability. Among other things, the Afghan MoD and GS, supported by ISAF and its
subordinate NTM-A/CSTC-A and IJC commands, hosted a two-day logistics/maintenance
seminar in Kabul on June 12 and 13, 2011. The corps G4s, brigade S4s, property book officers


                                                13
(PBOs), maintenance officers, and other key leaders were required to attend the seminar, which
focused on the logistical restructuring of the ANA and A-TEMP maintenance contract purposes
and execution issues.

The development and implementation of an integrated ANA logistics development plan would
focus the efforts of ISAF, IJC, NTM-A/CSTC-A, and the MoD/GS more efficiently and
effectively to meet predefined, minimum essential ANA logistical capabilities. The plan would
also clearly define the related organizational structures required at strategic, operational, and
tactical levels by 2014. U.S. Army doctrine in FM 3-24, “Counterinsurgency,” notes that
logisticians must prepare to provide support across all lines of operations (LLOs) visualized and
articulated by the commander. They are often no longer the tail, but the nose, of the COIN force.
The continuing logistical transformation of the ANA would benefit from a cohesive joint
U.S./Coalition and ANA logistics planning strategy developed on this analytical foundation.

Having such a plan becomes even more imperative given that developing a logistical system is a
complex mission requiring the complementary but parallel formation and execution countrywide
of many interrelated functions--equipment procurement and acquisition, management of supply
depots, transportation of materiel, and vehicle and other equipment maintenance. These logistics
functions have to be effectively linked from ministerial to infantry brigade level and below in
order to provide sustained support to the ANA forces countrywide consistent with their war-time
operational requirements. In addition, time becomes an increasingly diminishing resource
between now and 2014, as do the U.S./Coalition forces available to train/mentor/partner the
ANA in developing this capability.

Careful planning and execution will be key to leveraging the U.S./Coalition use of resources and
the momentum now being generated towards building the necessary ANA logistical system.

Recommendation
1. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command, the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan and the Ministry of Defense/General Staff, develop an integrated
Afghan National Army logistics development plan that defines minimum essential
logistics/maintenance capabilities required through 2014 and beyond.


Management Comments
ISAF concurred with this recommendation. As part of the ongoing review and revision of the
ISAF Campaign Plan, the development of the Afghan National Security Forces Plan of Record
addresses Recommendation 1. Annex 2 to Annex A, which relates to ANSF development
(including logistics sustainment), is still being staffed with a suspense of 15 December 2011.
The Annex will provide guidance that defines the minimum essential capabilities for operations
and logistics/maintenance of the ANSF out to 2017. The plan includes a method for measuring
the overall effectiveness of the ANSF as a fighting force and whether it is capable of sustaining
itself.




                                                14
Our Response
ISAF comments were responsive. We request a copy of those sections of the Afghan National
Security Forces Plan of Record applicable to Recommendation 1.




                                            15
Observation 2. Effective Communication of Afghan National
Army Logistic Goals, Priorities, Plans, Processes, and
Procedures
Communication of the current/future logistics development goals and priorities to develop the
ANA logistical system was not consistent and effective throughout the MoD/GS, ANA, and CF
chains of commands.

The communication void has occurred because ISAF and the MoD/GS have not developed and
executed a communication strategy for ensuring that significant changes in the concept and
operations of the logistical system of the MoD/GS/ANA are thoroughly explained and
understood by responsible ANA leaders and staff, and U.S./Coalition Forces sufficiently in
advance of their being implemented.

Ineffective communication of the new ANA logistic organizational strategy created confusion
and disruption in implementation in what already promised to be a challenging set of changes in
ANA logistical system operations. It also contributed to a lack of confidence among ANA field
commanders and logisticians as to the purpose and value of the intended new organizational
structure.

Applicable Criteria (See Appendix C, Numbers 7, 18, 19, 25, and 32, for additional
details.)

    •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
        Logistics Capabilities,” November 2009.
    •   Decree 467, “Organizational Structure,” October 2010.
    •   Decree 5001, “Ministry of Defense Organization and Functions Manual,”
        March 29, 2011.
    •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
    •   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
        Afghanistan” – Annex R: Logistics, October 9, 2010.


Discussion
There was a general lack of understanding by both ANA commanders and logisticians at corps
and below, and their U.S./CF partners/mentors/trainers, regarding current and anticipated
equipment fielding and other key ANA logistical development actions. This resulted in:

    •   Confusion over what equipment/supplies would be “pushed”, and for what purpose,
        rather than “pulled” (field requested for resupply/sustainment),
    •   Concerns about equipment going to fielding units when units already in the fight were
        short the same equipment,
    •   Failure to identify/understand the implications of the new A-TEMP contract transferring
        maintenance responsibilities to the ANA,
    •   Corps commanders diverting pushed equipment to units other than those intended, and


                                               17
   •   Confusion over what constituted acceptable issue documentation—push letters or MoD
       Form 9, original forms/signatures or copies, etc.

The pending logistics structure reorganization, a critical planning objective for the MoD/GS and
ANA that would realign ANA logistical functions under the new Army Support Command
(ASC) and subordinate Regional Logistics Support Commands (RLSCs), was not effectively
communicated to relevant ANA and U.S./CF stakeholders. Key ANA officers in the Logistics
Command, along with their U.S./CF trainers, expressed concern about this pending logistical
reorganization and did not understand its timing or affect on their operations.

According to the Commander, Logistics Command, pending logistics structure reorganization
would re-align current Forward Support Group (FSG) functions under the ASC. The FSG
Commander stated that he was concerned about orders received from MoD/AT&L that directed
FSGs to stand-down before the new ASC was operational and able to assume functions
previously performed by the FSG. He was also worried about how to avoid potential equipment
and supply accountability problems as the command functions consolidated.

Another gap in communication to field level units involved the new A-TEMP maintenance
contract that transferred maintenance responsibility at brigade and below from RM-Asia, the
previous contractor to ANA mechanics at the CSSKs. The A-TEMP would provide contracted
trainers for the ANA mechanics at the CSSK level as mentors but they would not actually
perform the vehicle maintenance. NTM-A/CSTC-A, with the agreement of the MoD/GS, had let
the new contract and initiated an implementation plan.

However, there was a delay with the transfer from the previous vehicle maintenance contractor,
RM-Asia, to the MPRI contractor. ANA officers, to include corps commanders, were unaware
that their contracted direct maintenance support was being withdrawn and that the responsibility
would fall immediately on their brigade-level CSSK mechanics. Several corps commanders
expressed concern that there was significant risk in the implementation of the program, given the
scarcity of qualified ANA mechanics, including those with a sufficient level of literacy, to
assume new maintenance responsibilities. In the course of the review, NTM-A/CSTC-A briefed
the OIG team on the mitigation strategies that MoD/GS had put in place, with NTM-A/CSTC-A
assistance, to reduce this risk and keep readiness levels manageable. ANA commanders and
logisticians at corps and below, and their U.S./CF trainers, did not understand these mitigation
strategies very well.

In summary, developing a strategic communication plan to explain the new MoD/GS logistics
command structure, logistics goals, current fielding plans and procedures, timing, roles, and
responsibilities to ANA commanders and staff, and their supporting U.S./CF personnel, will
contribute to better coordination and execution of those plans.




                                               18
Recommendations
2.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, mentor the Ministry of Defense/
General Staff to establish and implement a strategic communication plan to explain current/
future logistics development goals, priorities, plans, processes and procedures to responsible
Afghan National Army commanders and staff.
2b. Commander, International Security Assistance Force/U.S. Forces-Afghanistan, in
coordination with the International Security Assistance Force Joint Command and the North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, establish and implement a strategic communication plan to explain
current and future Afghan National Army logistics development goals, priorities, plans,
processes and procedures to responsible U.S./Coalition personnel.


Management Comments
NTM-A/CSTC-A concurred with comment with Recommendation 2.a, noting that effective
communication is the core element for a significant improvement to the logistical sustainment of
the ANA. A joint planning team (JPT) was formed called "The Phoenix Group" to build a
logistics system that the Afghans want and will use in the post-coalition era. The Phoenix Group
is led by ISAF CJ-4, with representation from Deputy Commander–Army (DCOM-A), DCOM-
Programs, NTM-A CJ4, CJ7, CJ ENG, IJC Coalition CJ4, USFOR-A, and Joint Sustainment
Command-Afghanistan (JSC-A). They meet on a weekly basis. The Phoenix General Officer
Steering Committee met on July 9, 2011 to provide the planning guidance to the Phoenix JPT.
The next meeting is scheduled for October 1, 2011 and will include MoD General Officers
involved in ANA logistics.

ISAF concurred with Recommendation 2.b, noting that, although there had been a fairly
comprehensive attempt to communicate logistical development plans for the ANSF to both
internal and external audiences, the lack of detail in the plan itself challenges the ability to
communicate in a detailed, proactive way. The Afghan National Security Forces Plan of Record,
approved in October 2011, will improve the content and therefore the value of those strategic
communications.

Our Response
The NTM-A/CSTC-A comments to Recommendation 2.a were responsive. We request a copy
of the minutes from the 1 October 2011 General Officer Steering Committee meeting,
documenting the involvement of MoD General Officers in the ANA logistics development
process.

ISAF comments to Recommendation 2.b were responsive. No further action is required.




                                                19
Observation 3. Partnering with Afghan National Army
Logistics Units at Corps and Below
JSC-A and Brigade Combat Team (BCT) Brigade Support Battalions (BSBs) perform a critical
ANA logistics partnering role at corps and below in maintenance, supply, and transportation.
However, the ability to perform this critical function may be lost in the initial phases of the
pending drawdown of U.S. forces.

At the time of the assessment, ISAF had no written order directing the JSC-A to perform the
logistics partnering mission, putting the critical logistics partnering function at risk.
Furthermore, the importance of the role U.S./CF units perform in the partnering/mentoring of the
development of vital ANA logistic functions at ANA corps and below levels may not be
sufficiently recognized, leading to the precipitous withdrawal of the logistical partnering/
mentoring units from Afghanistan.

The loss of Coalition logistical units, mainly U.S. Sustainment Brigades and BSBs, to partner
with ANA logistics organizations at corps and below when the ANA is in the early stage of
developing its logistical system could lead to a failure to institutionalize concepts, processes, and
procedures promulgated in MoD logistics decrees. This could impede development of an
enduring, independent ANA logistics sustainment capability.

Applicable Criteria (See Appendix C, Number 31, for additional details.)

   •   Headquarters, ISAF, “Partnering Directive,” (NATO/ISAF UNCLASSIFIED),
       August 29, 2009.

Discussion
There is an increased emphasis on development of ANA logistics/maintenance capability during
the current “Year of the Enabler” to build this critical ANA capability, which has lagged
development of combat units and led to dependency on U.S./CF logistical support.

Only about 50 percent of the ANA soldiers who require logistics/maintenance specialties have
had formal training. On-the-job training, primarily by partnered U.S. Sustainment Brigades and
BSBs, with some contractor support, will supposedly overcome this shortfall in capability.

While progress is being made in developing ANA corps and subordinate units’ logistics
performance, IJC staff and operational and tactical officers shared their perceptions regarding
partnering with the ANA at the tactical level and below. They maintained that the keys to
success for corps and below were:

   •   Ensuring partner/trainer commitment and qualifications,
   •   Extent to which ANA units receive logistical partnering/mentoring/training,
   •   Developing standardized partnering/mentoring/training of ANA logistical functions,
   •   Developing an ANA logistical culture that understands its importance at all unit levels,
       and



                                                 21
   •   Defining clear roles and responsibilities for ANA logistical partnering, training, and
       development at IJC and RCs.

A senior TF 101 commander stated that “Coalition partnering is key to progress in establishing a
sustainable ANA logistics capability and therefore to a successful transition strategy.” While the
101st Sustainment Brigade has played a key role in logistics partnering/mentoring of the ANA
corps in the RC-E area of operations, it lacks the personnel resources to assume additional
responsibility for the newly formed ANA CLK logistical unit deploying to the 203rd Corps.

The Commander of NTM-A/CSTC-A’s Regional Support Command-East (RSC-E) stated that
RC-E did not have the resources to cover additional logistics partnering responsibilities while the
U.S Sustainment Brigades were already performing three major missions:

   •   Supporting the CF,
   •   Supporting the ANSF, and
   •   Partnering with the ANSF.

Given the state of ANA logistical capability, an inability to partner with newly deployed ANA
logistics units intended to perform a core logistics function presented a significant problem.

According to RC-E senior officers, ANA brigade commanders do not, in general, take
responsibility for or systematically address logistics development and support issues. Moreover,
there is little confidence within ANA units in the current ANA log supply, infrastructure, and
maintenance support system, which has not proven sufficiently responsive and reliable. It is
essential for now that the Coalition/regional commands provide a parallel ANA logistics
partnering system to build ANA understanding, capability, and confidence until the system
becomes self-reliant.

There was significant command awareness of the critical relationship between mission success
and the successful partnering by IJC and JSC-A at corps and below. However, at the time of the
assessment, there was no written ISAF or IJC order specifically directing the JSC-A or
subordinate Sustainment Brigades to perform logistical partnering with the ANA. These
organizations had recognized the importance of doing so and incorporated this requirement into
their internal mission statement. IJC has since published a FRAGO directing JSC-A to partner
with ANA logistics organizations at corps and below.

Both Commander, IJC, and the Deputy Commanding General, (DCG)-Support, USFOR-A,
commented on options being developed for Commander, ISAF and USFOR-A, regarding the
“optimization of the force” (drawdown) later this year. Some of those options included
reduction in the BSBs and the Sustainment Brigades, which could negatively affect partnering
with ANA logistics units and logistics development. Additionally, the reduction in JSC-A
structure impacting the Sustainment Brigades will have a negative effect on the on-going effort
to partner with ANA logistics/maintenance organizations and slow, if not stop, the development
of a sustainable ANA logistics system. This could have a mid-to-long term impact on the
viability of ANA combat formations and jeopardize the overall success of U.S./CF efforts in
Afghanistan.



                                                22
Recommendations
 3. Commander, International Security Assistance Force/United States Forces-Afghanistan, in
 coordination with the International Security Assistance Force Joint Command and
 Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
 Security Transition Command-Afghanistan, ensure the integrated Afghan National Army
 logistics development plan (Recommendation 1) identifies primary and alternative options for
 Coalition resources required over time to accomplish the mission of building a self-sustaining
 ANA logistical system at all levels of the Ministry of Defense/General Staff and Afghan
 National Army.


Management Comments
ISAF concurred with Recommendation 3. The Afghan National Security Forces Plan of Record,
approved in October 2011, identifies desired and alternative options for resources provided by
coalition members to meet the goals of the campaign plan and the development of a self
sufficient ANSF. Annex 2 to Annex A, which relates to ANSF development (including
logistics sustainment), is still being staffed with a suspense of 15 December 2011.

Our Response
ISAF comments were responsive. We request a copy of those sections of the Afghan National
Security Forces Plan of Record applicable to Recommendation 3.




                                               23
Observation 4: Ministry of Defense/General Staff Planning,
Programming, Budgeting, and Execution Process
Due to the immature MoD/GS Planning, Programming, Budgeting, and Execution (PPBE)
process, MoD/GS personnel are incapable of developing the requirements and acquiring the
equipment/materials necessary to sustain the ANA maintenance and logistics system.

This has occurred because:

       •   NTM-A/CSTC-A only recently began to focus on developing the PPBE process within
           the MoD and the MoD/GS became dependent on U.S./Coalition expertise.
       •   Most of the senior leaders and primary staff officers in the MoD/GS do not yet
           sufficiently understand the PPBE process or appreciate its importance.
       •   A lack of training and resources, especially computer hardware and software, and a
           financial database, along with a shortage of qualified personnel sufficiently familiar with
           budget planning, programming and budgeting among key MoD/GS personnel impede
           PPBE development.
       •   MoD Finance (MoD-F) and the MoD Programs and Analysis Directorate (P&A) have an
           ongoing, 3-year dispute which hinders P&A’s effectiveness and attainment of self-
           sufficiency.

The inability of the MoD/GS to execute the PPBE process that identifies requirements and
acquires equipment and materials necessary to sustain the ANA’s maintenance and logistics
systems could delay the transition of these functions from the Coalition to the MoD/GS.

Applicable Criteria (See Appendix C, Numbers 19, 22, 36, and 38, for additional details.)

       •   Decree 5001, “Ministry of Defense Organization and Functions Manual,”
           March 29, 2011.
       •   DOD Directive No. 7045.14, “The Planning, Programming, and Budgeting System
           (PPBS),” November 21, 2003.
       •   NTM-A/CSTC-A’s “Afghan Ministry of Defense Programming & Analysis Department
           Strategic Plan for Self-Sufficiency,” December 23, 2010.
       •   NTM-A/CSTC-A’s “Ministerial Development Plan for the Assistant Ministry of Defense
           for Strategy and Policy,” March 2011.

Discussion
                   The PPBES is a cyclic process containing three distinct but interrelated phases:
                   planning, programming, and budgeting. The ultimate objective of PPBE is to
                   provide the operational commanders the best mix of forces, equipment, and
                   support attainable within fiscal constraints. The purpose of the PPBE system is
                   to produce a plan, a program, and finally a budget. 7

7
    DOD Directive No. 7045.14, The Planning, Programming, and Budgeting System (PPBS), pages 1-2.


                                                          25
NTM-A/CSTC-A has recognized the importance of developing the MoD/GS capabilities to
execute the PPBE process and begun an intensive training effort to rectify this shortcoming.
While the MoD/GS/MoD-F can execute a budget to a limited extent, they have not developed a
planning and programming capability that links these functions to the sustainment of ANA
logistical functions and needs.

The Afghan Minister of Defense has issued Defense Capabilities Planning Guidance (DCPG) to
the ministerial departments and the GS. The DCPG states:

                 Defense Planning Guidance (DPG) enables future military operations by
                 identifying those required operational capabilities necessary to conduct the
                 entire spectrum of operations. In this regard, MoD takes measures to supply
                 personnel, equipment, resources, vehicles, and achieve required capabilities to
                 fight against current and contingency threats in coordination with the donor
                 countries. 8

The Assistant Minister of Defense for Strategy and Policy (AMoD S&P), MoD-Finance, and the
GS Budget and Finance Directorate (GS-G8) are the primary MoD/GS organizational entities
responsible for developing, planning and implementing budgetary strategy and policy and the
Minister’s program planning objectives. However, they are incapable of developing the
requirements and acquiring the equipment/materials necessary to sustain ANA maintenance and
logistics systems.

The NTM-A/CSTC-A CJ-5 Ministerial Development Plan for AMoD S&P states that AMoD’s
S&P department “acts as the principal advisor to the Minister of Defense for all matters
concerning defense policy and planning, and the integration and oversight of MoD policy and
plans to achieve national security objectives”. The plan goes on to state that, “The end state for
the development of the AMoD S&P will be attained once it demonstrates the ability to complete
its core tasks of defense policy, planning, programming, force management, and international
relations that are self sustaining without reliance on coalition partners.”

The AMoD S&P’s Core Competency #5, Program and Analysis, is the function of the
Programming and Analysis Directorate. NTM-A/CSTC-A defines the Measure of Effectiveness
(MOE) for this Competency as being able to “conduct the budget programming process
supported by the MoD and GS, culminating with the Final Program Position (the point at which
the MoD Department of Finance begins the budget process) 9.” The Directorate’s mission is to:

                 Annually develop and coordinate the most comprehensive, cost-effective, and
                 executable three-year Final Program Position (MoD/ANA end result of the
                 PPBE Process) that matches limited resources to the strategic priorities of the
                 Ministry of Defense and the GIRoA as outlined in the DCPG. 10

However, NTM-A/CSTC-A’s AMoD S&P mentors have assessed that most responsible
personnel in the MoD do not understand programming or its essential importance. Furthermore,
lack of training and resources, especially computer hardware, software, and a financial database,


8
  Afghan Minister of Defense issued Defense Planning Guidance (DPG), May 2, 2011
9
  Ministerial Development Plan for the Assistant Ministry of Defense for Strategy and Policy, pages 13-14.
10
   Afghan Ministry of Defense Programming & Analysis Department Strategic Plan for Self-Sufficiency.


                                                        26
hampers performance of this function. There is also a shortage of qualified MoD/GS personnel
who understand programming. 11

The revised MoD Decree 5001, dated 29 March 2011, states MoD-F:

                 …is directly responsible to the Minister of Defense through the First Deputy as
                 the Budgetary Unit for the Ministry of Defense (MoD). In this capacity, MoD-
                 Finance receives and allocates funds from the Ministry of Finance (MoF),
                 develops and submits Ordinary and Developmental Budgets with input from the
                 Program and Analysis Directorate of AMoD (S&P), monitors current year
                 budget execution and publishes budget guidance for the Ministry of Defense
                 (MoD). 12

NTM-A/CSTC-A CJ8 mentors commented that the MoD-F is currently executing 20 percent of
their actual budget, responsible for Budget Lines 21-Salary and Food, 22-Services, and
25-Construction. For the first time, the MoD fully executed these budget lines in the most
recently concluded Solar Year 13, ending March 30, 2011. However, they are just now
developing a capability to identify budget requirements and develop budget plans and programs.

The GS-G8 also plays a role in the MoD/ANA budgetary process. Its mission definition states:

                 Under the direction of the Chief of Staff and Vice Chief of Staff and as the
                 Army’s senior financial officer, the Chief of the Budget and Finance Office for
                 the General Staff is responsible to the Chief of the General Staff for all financial
                 matters affecting the ANA for budget and execution, and pay and evaluation of
                 the General Staff and military budgets. 14

The NTM-A/CSTC-A mentors, in conjunction with their ANA counterparts, have determined
that the “End State for GS Budget and Finance as the ability to develop a requirements based
integrated program budget for GSBF annually following the MoD Budget and Development
timeline.” 15

Another impediment to institutional developmental progress in PPBE is the dispute over
authority, roles, and responsibilities between AMoD Finance (AMoD-F) and the Plans &
Analysis (P&A) Division in AMoD S&P. The AMoD-F leadership reportedly believes that all
budgetary matters reside with the AMoD-F and do not want to work with or send proposed
policies through AMoD S&P. This problem may have its origin in the broad interpretation of the
wording used in delineating the AMoD-F’s responsibilities in the Organization and Functions
Manual, which states, “MoD-F….is directly responsible to the Minister of Defense through the First
Deputy as the Budgetary Unit for the Ministry of Defense (MoD)…..” Additionally, AMoD-F’s
leadership supposedly think that both the P&A Division from AMoD S&P and the GS G8 should

11
   Afghan Ministry of Defense Programming & Analysis Department Strategic Plan for Self-Sufficiency.
12
   Ministry of Defense Organization and Functions Manual, Revised Draft 2011 (President GIRoA Approved).
13
   http://www.answers.com/topic/tropical-year--a SY is the period of time required for the earth to make one
complete revolution around the sun, measured from one vernal equinox to the next and equal to 365 days, 5 hours,
48 minutes, 45.51 seconds. http://scienceworld.wolfram.com/astronomy/VernalEquinox.html--the SY begins on the
vernal equinox date (near March 21 in the northern hemisphere) when night and day are nearly the same length and
the sun crosses the celestial equator.
14
   Development Plan For Afghan National Army General Staff Department of Budget and Finance.
15
   Development Plan For Afghan National Army General Staff Department of Budget and Finance.


                                                         27
work for AMoD-F because, in AMoD-F’s view, these departments do not have the personnel
with the professional skills required to perform the programs, planning, and budget functions.
NTM-A/CSTC-A advisors see this ongoing dispute as the most serious obstacle hindering
P&A’s effectiveness and attainment of self-sufficiency. Their inability to cooperate has even
disrupted their joint participation in NTM-A/CSTC-A PPBE training.

                                                                   As previously stated, NTM-
                                                                   A/CSTC-A have recognized the
                                                                   criticality of the dysfunctional PPBE
                                                                   capability within the MoD/GS and
                                                                   are engaging the shortcomings. The
                                                                   Command has published, in
                                                                   coordination with its MoD/GS
                                                                   counterparts, developmental plans
                                                                   for each of the applicable entities to
                                                                   correct their deficiencies. Training
                                                                   is ongoing, with assistance from the
                                                                   OSD Ministry of Defense Advisors
Figure 5. MOD/GS Planning, Programming, Budgeting, and Execution   (MODA) Program.
                            Training



While it is conceivable the MoD/GS will be able to execute the full range of tasks associated
with PPBE by 2014, without continued command emphasis by MoD/GS senior officers based on
their understanding of the importance of this capability, this may not occur. Weaknesses in the
PPBE processes would severely hamper efforts by the MoD/GS to sustain the readiness of its
forces logistically. Ongoing direct mentoring by qualified NTM-A/CSTC-A advisors, including
those provided by the OSD/MoDA program, is required.

Recommendations
4. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, mentor the Minister of Defense to:
   a. Emphasize the necessity for Ministry of Defense/General Staff leaders and staff officers
to commit to a program of continued Planning, Programming, Budgeting, and Execution
training, coordination, and implementation.
  b. Direct resolution of the dispute between Ministry of Defense-Finance and the Ministry of
Defense-Programs and Analysis Directorate so that integration of these key functions in
Planning, Programming, Budgeting, and Execution development can occur.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 4.a, providing comments noting that the U.S.
PPBE system is not an exact match to the Afghan system, due to Afghan law and procedures.
For example, the Afghan financial planning system builds a program covering 3 years, vice the 5
year U.S. PPBE system. MoD-F is responsible for financial planning and MoD Strategy



                                                    28
and Plans (S&P) for strategic planning. They are notably separate in the MoD. NTM-A/CSTC-A
advisors will ensure that both MoD-F and MoD- S&P work together, ensuring equal
participation in the Afghan PPBE process, within the constraints of Afghan law.

NTM-A/CSTC-A non-concurred with Recommendation 4.b. The Afghan Minister of Finance
has decreed that only one office in each government ministry can have authorized access to
information management systems used in executing budget and programming within each
ministry. Currently, the office within the MoD that has this responsibility is the MoD-F.
Furthermore, the Afghan Minister of Finance selects the office in each Ministry that will plan
resource allocation, which we refer to as programming. Again, the Minister of Finance selected
MoD-F for that function. NTM-A/CSTC-A will propose/coordinate with the appropriate offices
in the MoD for a change to the MoD Organization and Function Manual that will align that
document with the requirements of Afghan law, policy, and procedure.

Our Response
NTM-A/CSTC-A comments to Recommendation 4.a were responsive. No further action is
required.

We recognize the restrictions imposed by Afghan law and their impact on Recommendation 4.b,
as outlined in the NTM-A/CSTC-A response. We request a copy of the proposed change to the
MoD Organization and Function Manual that will align that document with the requirements of
Afghan law, policy, and procedure. Beyond that, no further action is required.




                                              29
Observation 5. Ammunition Supply Point—215th Corps
There is a shortage of ammunition storage capability at the 5th Forward Support Depot (FSD)
Ammunition Supply Point (ASP) supporting the ANA 215th Corps and ammunition resupply is
unreliable.

This occurred because the ASP storage facilities built consistent with the anticipated needs of its
original brigade-sized organizational structure must now support a force that consists of multiple
brigades. Long lead-time for ammunition resupply also limits sustained support for ANA
operations, reflecting the general inefficiency of the ANA supply system.

The result has been periodic shortages of ammunition sufficient to support ANA operations in
the 215th Corps area of responsibility (AOR), leading to cancellation or delay of some ANA/CF
combat operations, causing CF to deploy without their ANA partner units.

Applicable Criteria (See Appendix C, Numbers 6, 10, 23, and 31, for additional details.)

   •   Army Field Manual 3-24.2, “Tactics in Counterinsurgency,” April 21, 2009.
   •   Combined Security Transition Command – Afghanistan, “Campaign Plan for the
       Development of Afghan National Security Forces,” September 20, 2008.
   •   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
   •   Headquarters, ISAF, “Partnering Directive,” (NATO/ISAF UNCLASSIFIED),
       August 29, 2009.

Discussion
Coalition trainers supporting ANA units in the 215th Corps reported periodic shortages of
ammunition for the ANA (mainly small arms), causing cancellation or delay of ANA
participation in joint Coalition combat operations. ANA commanders and logistics officers in
the 215th Corps confirmed this problem in interviews. Coalition units in RC-SW reportedly had
to proceed at times without an ANA partner unit, contrary to guidance in the ISAF, “Partnering
Directive,” paragraph 4a, which states, “All operations will be embedded partner operations with
the ANSF.”

The causes of this ammunition shortage were:

   •   The FSD 5 ASP depot facility, built to support a brigade-sized unit, is too small to meet
       the operational needs of the ANA 215th Corps.
   •   Re-supply of ammunition from the ANA 22 Bunkers ASP in Kabul takes an average of 4
       months, according to ANA logistics officers and Coalition trainers in the 215th Corps and
       the FSD.

NTM-A/CSTC-A and IJC representatives agreed that the FSD 5 ASP supporting the 215th Corps
appeared to be insufficient to support Corps operations, but were unable to confirm if there was a
plan coordinated with the MoD to expand the storage facility. Both ANA logistics officers and
Coalition trainers agreed that the long lead-time required for ammunition resupply was part of


                                                31
the larger issue associated with the lack of responsiveness of the ANA logistics supply system,
an issue discussed in more detail in another section of this report.

ANA logistics personnel in the 203d Corps also reported shortages of ammunition based on
delayed resupply that affected training range firing, but did not confirm any delay in combat
operations as a result. An ASP designed to support a corps-sized unit exists there.

Logistics personnel in the 205th and 209th Corps did not report ammunition shortages, where
corps-sized ASPs also exist.

Recommendations
5. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan:
   a. In coordination with the Ministry of Defense/General Staff, verify the existence of, or
establish, a plan for the timely expansion of the 5th Forward Support Depot Ammunition
Supply Point adequate to maintain sufficient supply in support of 215th Corps operations,
communicate this plan to the Corps and its U.S./Coalition Force trainers, and monitor its
implementation.
  b. Assist the Ministry of Defense/General Staff to develop a plan to provide an adequate
and timely supply of ammunition to support combat operations in the 215th Corps.


Management Comments
NTM-A/CSTC-A concurred with Recommendations 5.a and 5.b, providing comments noting
that additional ammunition storage bunkers would be constructed at the 5th FSD to support 215th
Corps operations, which would decrease the frequency of required ammunition resupply. They
will also continue their efforts to improve the responsiveness of the Afghan ammunition resupply
system.

Our Response
NTM-A/CSTC-A comments to Recommendation 5.a were partially responsive. We request a
projected timeline for completion of the additional ammunition bunkers at the 5th FSD, as well a
description of how this planning was communicated to the appropriate logistics personnel in the
215th Corps and their U.S./Coalition Force trainers.

The comments to Recommendation 5.b were responsive and no further action is required.




                                                32
Observation 6. Personnel Strength in Regional Support
Commands
Coalition Regional Support Commands (RSCs) are not sufficiently staffed to meet their
increasing mission responsibilities.

The growing ANA force has created new, and increased existing, RSC mission requirements that
exceed the capabilities of current RSC personnel authorizations. These include supporting
expanded institutional training, logistics and maintenance requirements, as well as increased
contract oversight responsibilities.

Failure to meet RSC personnel requirements will constrain their ability to perform their multiple
roles important to the development of the ANA logistical system. This will impede timely
efforts to create an effective, independent military force.

Applicable Criteria (See Appendix C, Number 39, for additional details.)

   •   NTM-A/CSTC-A Training Requirements: Request for Forces Plan Y, Titled: “Analysis
       of Unfilled Requirements”, March 2011. (Classified Document).

Discussion
Regional Support Command Role
There is one RSC in each RC area of operation, for a total of six. RSCs serve as forward
coordination and integration cells between NTM-A/CSTC-A, the RCs, and the ANSF,
identifying and addressing requirements and issues within their regions. Each RSC is
responsible for overseeing over $100 million in projects to support ANSF development.

Regional Support Command Key Tasks
   • Train Afghan Trainers,
   • Accelerate Leader Development,
   • Build Literacy and “Vocational Skills,”
   • Inculcate an ethos of Stewardship,
   • Develop Enduring Institutions, Systems, and Enablers,
   • Exercise command and control of NTM-A/CSTC-A personnel assigned throughout
      Afghanistan,
   • Integrate Army and Police trainers as well as medical logistics and
      infrastructure/engineer advisors,
   • Directly oversee and manage construction of tactical infrastructure,
   • Support major build construction, in coordination with NTM-A/CSTC-A and Afghan
      Engineer District engineers,
   • Coordinate the support of the ANSF as it develops its logistics capabilities,
   • Training Role/Output: Provide oversight to all ANSF training and integration which
      includes coordination with the following elements:



                                               33
           o   ANSF Training Units
           o   Fielded ANSF Units,
           o   Operational/Police Mentor Liaison Teams, Regional Commands, and
           o   Contractors.

The Deputy Director for Afghan Development in RC-N related that, when he arrived in February
2011, he had five personnel assigned. In May 2011, he had 11 personnel, but stated that he
needed 19 in order to track contracts and accumulate data.

Representatives from RSC-E stated that, as part of their responsibilities, they monitor over 200
Afghan Security Forces Fund-financed contracts.

Future of the Regional Support Commands
NTM-A/CSTC-A anticipates that the RSCs will assume an increasingly important role
supporting ANSF development, providing primary legal oversight for spending of U.S. dollars
on projects as the IJC and RCs transition security lead to the ANSF.

As IJC force structure adjusts in the coming months, NTM-A/CSTC-A force capability will
reportedly have to grow to make up for the loss of enabler training capability, to include in the
areas of logistics and maintenance. As U.S./CF combat presence decreases, RSC Commanders
in RC-W and RC-N will likely need their own internal security units.

Personnel Resourcing
NTM-A/CSTC-A has three options to request/source additional required personnel for the RSCs:

   1. Joint Manning Document (JMD) (U.S. military process),
   2. Request for Forces (RFF) (U.S. military process), and
   3. Crisis Establishment (CE) (NATO manpower document).

Current Personnel Situation
NTM-A/CSTC-A does not have sufficient personnel assigned to the Regional Support
Commands to discharge current requirements, including monitoring contractual efforts, in order
to keep pace with ANA growth.

The current total number of authorizations and fills for JMD/RFF/CE are as follows:


                                             Source                       Total
                                   JMD        CE         RFF
                                    115       100         24               239
               Authorized
                Assigned            90         8           0                98

                                    78%       8%          0%               41%

           Table 1: Regional Support Command Authorized and Assigned Strength-June 2011
                                                               Source: NTM-A/CSTC-A




                                                34
The RSCs have 28 JMD and RFF officer and non-commissioned officer positions directly
supporting the logistics functions in the RSCs throughout Afghanistan. In June 2011, only 12 of
these positions were filled (43 percent). We understand that NTM-A/CSTC-A only expects to
receive an additional six JMD fills for RSCs in August 2011 that directly support ANA logistics
developmental efforts.

NTM-A/CSTC-A reported that they are still short 81 personnel of the 277 authorized in RFF
1216, a number of whom will be assigned to RSCs to assist in carrying out their mission. (RFF
1216 is often referred to as the Stewardship RFF—designed to give NTM-A/CSTC-A sufficient
personnel/skill sets to provide effective contract/accountability oversight.)

Summary
Commander, NTM-A/CSTC-A has identified the RSCs as his lead regional organizational
capability for oversight execution of unit fielding, training, construction of logistics and training
infrastructure, contract oversight, and other key activities necessary to transition progressively to
Afghan security lead. The ongoing efforts to expand ANA combat forces, along with the rapid
development of related enabling combat support and service support institutions, has strained
RSC resources. Demands on the RSCs will only continue to increase in the future as
responsibilities shift from IJC to NTM-A/CSTC-A. The current RSC fill rate (41 percent) does
not support the current requirements of the RSCs and their personnel needs are increasing along
with their responsibilities. Additional planning is required to meet RSC personnel requirements.
Failure to do so will have a negative effect on ANA developmental efforts at the regional level.
As a result, the Coalition and MoD/GS may not be able to develop an effective and sustainable
ANA logistics capability within established timeframes.

Recommendation
6. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan, evaluate the personnel requirements of the
Regional Support Commands, considering current and likely future requirements, and seek
sourcing solutions.

Management Comments
NTM-A/CSTC-A concurred with comment. They note that RSC manpower requirements for
Contracting Officer Representative (COR) coverage of current RSC local service and
construction contracts was at 84 percent fill. Additionally, the Training Program and Support
Office (TPSO) was established for direct program management of specific high visibility
contracts that are critical to the self sustainability of the Afghan National Security Forces—the
training, mentoring and advising of MOD/ANA Development ($460 million) and the ATEMP
Vehicle and Weapons Maintenance contracts ($207 million). RSC manpower for COR coverage
of those contracts was only at 20 and 26 percent fill, respectively. Looking to future RSC
requirements, NTM-A/CSTC-A provided an example of the soon to be implemented U.S. Army
Corps of Engineers theater EPA clean-up contract. That contract alone is projected to increase RSC
COR manpower requirements by 251 percent over current requirements. The pending drawdown of
U.S./Coalition forces in Afghanistan exacerbates this situation.




                                                 35
Our Response
NTM-A/CSTC-A’s comments were partially responsive. While they have completed a detailed
analysis of RSC requirements now and in the future, their comments did not identify proposed
resourcing solutions to address this shortfall. We request that NTM-A/CSTC-A provide details
of plans to meet the RSC manpower shortfall.




                                             36
PART III – CONTRACTING




          37
Observation 7. Managing Contract Requirements and
Performance to Support International Security Assistance
Force Operational Goals and Objectives and to Provide
Effective Oversight
ISAF and its subordinate commands, NTM-A/CSTC-A and IJC, do not have an integrated
planning and execution approach, in concert with DoD contracting authorities, that effectively
links contract requirements and performance to the accomplishment of ISAF operational goals
and objectives, while also ensuring effective contract oversight.

Multiple DOD contracting agencies (CONUS/OCONUS) are using a myriad of contracted
services (mentors/trainers, maintenance, construction) which make key contributions to
development of the ANA logistical system at the MoD/GS, corps, and brigade levels. The sheer
magnitude and complexity of the countrywide roles played by contractors in support of the
NTM-A/CSTC-A and IJC missions confounds the effects of these contracted services in support
of the operational campaign plan. The challenge of coordinating the respective roles and
responsibilities of contracting and operational commands further complicates delivery of desired
contract effects.

Without well-focused and integrated operational and contracting command joint planning, there
has not been a clearly understood common operating picture that ensured contract requirements
and performance were well-synchronized with ISAF operational goals and objectives. It has
therefore been difficult to identify and track contract discrepancies and maintain appropriate
contract oversight, in order to measure overall progress generated from the execution of contract
services in the various ISAF commands and subordinate units. The force multiplier impact of
contracted services has not been optimal in support of the development of an independent and
sustainable ANA logistical capability.

Applicable Criteria (See Appendix C, Numbers 20, 21 and 35, for additional details.)

   •   Deputy Assistant Secretary of the Navy – Acquisition and Logistics Management,
       “Coordination of Contracting Activities in the USCENTCOM Area of Responsibility
       (AOR),” December 14, 2010.
   •   Director, Defense Procurement and Acquisition Policy, “Defense Contingency
       Contracting Officer Representative Handbook,” June 30, 2010.
   •   Joint Publication 4-10, “Operational Contract Support,” October 17, 2008.

Discussion
The NTM-A/CSTC-A and IJC mission is complex, as are the supporting contract requirements.
Contracts are force multipliers, if used correctly, because the effect is what really matters to the
operational commanders. As NTM-A/CSTC-A and IJC continue to develop the ANSF, the
volume of work and organizational complexity continues to increase.




                                                 39
Throughout the years of contingency operations in Afghanistan, DOD, State, and the U.S.
Agency for International Development have relied significantly on contracted services to
accomplish their respective missions. Contractor services have an important role in support of
ISAF training and mentoring, infrastructure construction, materiel provision, direct maintenance,
and other functions intended to develop the ANA logistics system.

NTM-A/CSTC-A’s estimated total ASFF funding for the 2003 - 2009 period was approximately
$20 billion. An estimated additional $20 billion is projected for 2010 – 2011. The contracts
provided by this funding enabled training, equipping, mentoring, and direct maintenance and
other services provided to the ANSF that supported the operations of 33 troop-contributing
nations at training and operations sites across the CJOA-A.

Coordinating and integrating the sheer magnitude and complexity of contractor support would
demand that operational commanders and Heads of Contracting Activities 16 have a joint plan for
accomplishing their inter-connected mission through the multiplier effect of contracted services.
To most effectively leverage the results of contracted services in support of operational goals and
objectives, this joint planning effort needs to provide, at a minimum, overall contract visibility,
strategic direction, mission alignment, and efficient and effective resource allocation.

               In support of ISAF mission, CSTC-A must create and sustain a security force in
               excess of 305,000 by Oct 2011. …CSTC-A will rely on the assistance of
               contracted qualified and experience training, mentors, technicians and
               maintainers to augment Coalition and US forces. Training and maintenance
               contracts require extensive in country management and oversight to assist the
               CONUS-based contract management teams. 17

The A-TEMP Program is an example of a recent contract force multiplier with critical
operational implications requiring synchronization and coordination with the battle space owner.
This umbrella program consists of three separate contracts:

     •   ANP Vehicle maintenance,
     •   ANA vehicle maintenance and CSSK advisor/train teams, and the
     •   ANSF National Training Program.

Although the A-TEMP’s 90 day transition plan was, in principle, to have been completed by
early May 2011, there were ANA logisticians and maintenance personnel, as well as U.S./CF
trainers, who were still unaware of the program’s fundamental functional objectives and
capabilities. These contracts will have a vital impact on ANA logistics development and
transition, as well as on ongoing combat operations, since many of the previously contracted
maintenance responsibilities shifted to ANA lead responsibility.

“The greatest change we can make is to instill in each of our Afghan partners the importance
accountability and maintenance contribute to their mission to serve and protect the Afghan
people." 18
16
   Joint Theater Support Command, USCENTCOM; contracting activities at USSOCOM and the U.S. Army Corps
   of Engineers.
17
   Acquisition and Contract Management Manpower and Operational Support for the CSTC-A, 9 Feb 2011.
18
    William B. Caldwell, IV, LTGEN, USA, Commander, NTM-A/CSTC-A, 30 November 2010.


                                                     40
During this DoD IG assessment mission, multiple contract personnel commented about the
disjointed implementation of A-TEMP, as well as other contracts they were aware of or for
which they were responsible. Contractor personnel statements, corroborated by those of senior
U.S./CF mentors and trainers, indicated overarching lack of theater and in-country
synchronization and a detrimental lack of communication between down-range contractors,
Regional Commanders, and Regional Support Commanders with responsibilities for operational
success in their battle space. As with U.S./CF military trainers, contract trainers did not have a
standardized guide establishing the standards and procedures for developing ANA logistics
capabilities.

In both RC-N and RC-S, contractors described friction points within the RCs, particularly with
the CF Operational Mentor and Liaison Teams (OMLTs). Coalition trainers to CLKs, CSSKs,
and FSDs also reported concerns regarding the disjointedness of the command and control
relationships with contractors also supporting these ANA units, and the Coalition trainer’s
uncertainty regarding who worked for whom. These collective contractor and trainer responses
underscore the pressing need to define the supporting role and responsibilities of logistics
contractors, not just to their contract supervisors in Kabul, but also with the Coalition forces,
including Procurement Contracting Officers and Administrative Contracting Officers. They
should form a cohesive team, working together in partnership with clearly defined roles,
responsibilities, and mutually supporting objectives. The contractor’s role should be deliberately
integrated into field command lines of operations and the effects of contractor services related to
ANA logistical system development be made visible to and monitored by logistics trainers and
mentors to ensure they support and achieve a uniformly defined and understood logistical
development plan and process.

                   Agencies’ differing management structures in the field also impede integrated
                   contractor oversight and management. Without structural and resource
                   rationalization, it will be difficult to obtain the unity of effort required to achieve
                   U.S. strategic goals of stabilization, diplomacy, and development simultaneously
                   with combat operations. 19




                                                                 Commanders have no command and control authority over
                                                                 contractor personnel or the duties a Contracting Officer
                                                                 Representative performs in support of a contract; contractor
                                                                 personnel cannot be “commanded.” The contract’s terms and
                                                                 conditions govern the relationship between contractor personnel
                                                                 and the government. Only the Contracting Officer has the
                                                                 authority to direct contractor personnel.



                                Figure 6. Command Authority versus Contract Authority




19
     Commission on Wartime Contracting-Interim Report, Feb 2011, p. 3.


                                                            41
The complex and inefficient command and control relationship between ISAF and its
subordinate commands and their supporting contractors contributes to the disjointedness of the
overall process. The organizational reporting system can hamper the quick and effective
communication of critical issues of common concern to the commands and their contractors.

Contractors report performance concerns through their company’s reporting chain, which does
not align well with the NTM-A/CSTC-A and IJC operational chain of command. For example,
we noted that contractor personnel in RCs reported local issues/challenges in the execution of
their training contracts to their supervisors in Kabul. The appropriate personnel in NTM-
A/CSTC-A headquarters in Kabul did not necessarily receive these reports in a quick and
effective manner. In any event, if received by NTM-A/CSTC-A command and staff, they, in
turn, had to relay the information back to the relevant RSC commanders, who are located in the
same area of operation as the contractor personnel who made the initial report.

This command-contractor communication process does not ensure that an effective dialogue
occurs between the RSCs and the contractors performing services in the regional areas of
operation for which each RSC is responsible. In such a dynamic operational environment, the
information may be of less, if any, use by the time it gets to the RSC. Moreover, at least one RSC
commander noted that he did not have effective visibility with respect to which contractors were
operating in his region, since they did not report directly to him, and he did not have a clear
picture of the full range of services they were performing. Therefore, he could not confidently
confirm that the execution of contracts was in alignment with ISAF operational and tactical goals
and objectives.


               Down-range            Contractors’         NTM-A                RSC              Action
Event          Contractors           Supervisors                            Commander



                             Figure 7. Current Contractor Reporting Chain

NTM-A/CSTC-A command and staff, and its Security Assistance Office (SAO) Contracting
Organizational Process Team, recognized that there existed a definite need to establish unity of
effort with contract service support of field operations by synchronizing contract functional
requirements and deliverables (national, operational and tactical levels). The objective would be
to assure the alignment of contract requirements and execution with ISAF desired end state goals
and objectives for ANA logistics development. The OIG team recognized that NTM-A/CSTC-
A’s establishment of the Training Program Support Office (TPSO) would help foster greater
structural and resource rationalization by managing the vital training contract as a program rather
than stand-alone contract. In addition to TPSO, IJC is attempting to synchronize and align its
operations at the corps and below level by standing up a contracts management cell. In addition
to these efforts, there needs to be a deliberate ISAF-contractor plan with the means/mechanism
to consolidate oversight of contractor support initiatives in line with building the ANA logistical
system at tactical, operational, and strategic/national levels.




                                                    42
Recommendations
7. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan, in coordination with the International Security
Assistance Force Joint Command, structure contracts under a program umbrella with life cycle
focus by:

   a. Ensuring that Regional Commands, Regional Support Commands, United States Army
Corps of Engineers, Operational Mentor Liaison Teams, Defense Contracting Management
Agency, Heads of Contracting Activities, and military mentors/advisors/trainers are assisting
in the management of contractor execution and validating contractor performance.
  b. Identifying and addressing systemic performance in periodically hosted in-country
contracting conferences, interim program reviews, or other appropriate forums.


Management Comments
NTM-A/CSTC-A concurred with comment on Recommendation 7.a. Under direction of
DCOM-Programs, the SAO directorate is engaging in coordination efforts at the 0-6 level and
below to assist with the management of contractor execution and validating contractor
performance. SAO maintains a database supporting all entities under NTM-A/CSTC-A that own
ASFF contracts to capture the contract oversight. Every contract is required to have an
appointed contracting officer representative (COR) that conducts audits in accordance with the
contract specified quality assurance support plan and/or measures of performance and
effectiveness.

   a. These COR findings are captured in weekly meetings to DCOM-Programs on a rotational
basis as determined by a cyclic directorate schedule. Requirements owners brief DCOM-
Programs locally and highlight any outstanding issues that may require GO level support or
impact overall mission success.

   b. COR findings are also captured into an overall spreadsheet that is reported to the Chief of
Staff level and Senior Leadership weekly during Commander update briefings.

   c. COR findings are also provided to the Defense Contract Management Agency (DCMA)
and the Regional Contracting Commands so files may be maintained on contractor performance.

   d. SAO continues to work through DCOM-Programs to provide outreach assistance to the
contract requirements owners to be more vocal about their satisfaction or dissatisfaction of the
contract execution. CORs should be providing that intermediary course correction to prevent
major contract performance issues, but CORs do not have the same authority contracting officers
do to penalize, incentivize, or terminate contractors.

   e. SAO, DCMA, and IJC have weekly meetings to discuss contract oversight status to ensure
max coverage. Since July, meetings have been ongoing and progress is moving forward. SAO
also supports the weekly DCMA/TPSO/IJC meeting to DCOM-Programs covering the same
high-visibility contracts.




                                                43
   f. SAO supports now biweekly DCOM-Regional Support VTCs to ensure receipt of up to
date issues and contracting needs for the RSCs that can be handled at the NTM-A/CSTC-A level.

NTM-A/CSTC-A concurred with comment on Recommendation 7.b, noting that:

    a. Since May 2011, TPSO and DCMA have been conducting 30-day contractor performance
reviews of significantly high visibility contracts to DCOM-Programs and supporting directorates
to include CJ4, SAO, and the Assistant Commanding General-Army Development.

   b. Additionally, SAO provides weekly ASFF contract updates to DCOM-Programs covering
local and Foreign Military Sale/pseudo Foreign Military Sale contracts (service and construction)
that can capture trends, issues that recur throughout particular regions, services provided,
facilities constructed, etc.

   c. DCOM-Programs also hosts a biweekly review that is more of a deep dive contract status
of contracts that are being managed by the TPSO office. Contract requirements owners are
present for the meeting, along with representatives from SAO and DCMA.

Our Response
NTM-A/CSTC-A comments to Recommendations 7.a and 7.b were responsive. No further
action is required.




                                               44
Observation 8. Coalition Contracting Representatives
Implementation of the recent Defense Federal Acquisition Regulation (DFAR)/Class Deviation
changes, allowing foreign nationals to act as CORs for Afghanistan Security Force Fund
contracts/projects, has been problematic.

This is because the Joint Theater Support Command, USCENTCOM, has not yet issued
guidance to implement these changes, addressing areas such as:

      •   Training,
      •   Language barriers,
      •   Liability, and
      •   Restrictions in national caveats on use of CF.

Without additional guidance to implement the Class Deviation to the DFAR, U.S./CF ability to
provide effective oversight by holding the responsible foreign nationals accountable for
managing and documenting contractor performance will be problematic and difficult to enforce.
This could increase the risk that the contractor will not meet the terms and conditions of the
contract, and could result in fraud, waste, and abuse.

Applicable Criteria (See Appendix C, Number 21, for additional details.)

      •   Director, Defense Procurement and Acquisition Policy, Defense Contingency Contracting
          Officer Representative Handbook, June 30, 2010.

Discussion
“We risk the war and its funding if we don’t provide adequate oversight…a shared
responsibility.” 20

DoD Contracting officers in Afghanistan perform contract oversight and surveillance to ensure
that the delivery of supplies or services conform to contract requirements. CORs, who serve as
an essential link between the contracting communities and operational/kinetic commands, are
responsible to assess and document contractor performance. Since commanders have no
command and control authority over contractor personnel or the duties a COR performs in
support of a contract, the relationship with the Contracting Officer is critical, especially with
respect to monitoring contractor performance.

Providing adequate contractor oversight in Afghanistan has been an enduring challenge requiring
new oversight initiatives to bridge the voids created by limited resources. Failure to monitor
contracts effectively can result in critical supplies and support services being late, deficient,
and/or outside the scope of contract requirements. Therefore, battle space commanders need to
develop sufficient capability to assure that contractors meet the contract requirements.



20
     Statement from an officer assigned to NTM-A/CSTC-A’s Security Assistance Office, 4 March 11.


                                                       45
                  Government oversight of contractors is difficult under the best of circumstances.
                  In a contingency operation, mission risks and cost risks are particularly high.
                  Because fewer management controls are in place at the beginning of operations,
                  enforcement mechanisms must be available and active to deter inappropriate
                  behavior and bolster accountability. 21

In a recent effort to ensure necessary oversight of NTM-A/CSTC-A ASFF-resourced contracts
across the Combined Joint Operating Area-Afghanistan, IJC issued FRAGO/156-2011 to assume
greater oversight responsibility and implement additional oversight structure to monitor
contractor performance in its Regional Commands.

                  In support of the ISAF mission, CSTC-A must create and sustain a security
                  force in excess of 305,000 by Oct 2011. CSTC-A will rely on the assistance of
                  contracted qualified and experience training, mentors, technicians and
                  maintainers to augment Coalition and US forces. Training and maintenance
                  contracts require extensive in country management and oversight to assist the
                  CONUS-based contract management teams. 22

IJC and NTM-A/CSTC-A leadership explained that this FRAGO stems from IJC’s dependency
on NTM-A/CSTC-A’s contract vehicles to carry out its mission with respect to developing the
ANA logistical system, and personnel limitations that prevent NTM-A/CSTC-A from providing
countrywide oversight itself. The effectiveness of previous NTM-A/CSTC-A contracts in
delivering logistic services and training has been variable, frequently because of inadequate
oversight by both contractors and CORs. ANA commanders also expressed concern about
shortcomings in some of the contracts dedicated to their logistics capability development.

IJC recognized that an effective contract is a force multiplier for the command, with the benefit
delivered to IJC battle space owners. However, they also observed that a poorly executed
contract could be worse than no contract at all. U.S./CF trainers reiterated this point during
multiple interviews, reporting that, in their opinion, some contractors were simply “incompetent
at performing their job and the CORs were not visibly engaged at taking corrective action.”
Examples reported to the OIG team include:

      •   U.S. contractors at the Depots not following procedures in the MoD decrees,
      •   Tools and other equipment disappearing from supply convoys operated by Afghan
          contractors,
      •   New fuel point inoperable because pumps improperly installed—neither the contractor or
          the COR identified the problem in a timely manner, and
      •   Work stoppage on a construction project, undetected by the COR for an extended period.

As the ANSF grows in size - along with the program of supporting contracted services - so will
the need for in-country contractor oversight. In addition, a number of U.S. funded contracts are
performed in non-U.S. controlled battle space, e.g. RC-N and RC-W, in which Coalition units
physically there provided the only possible oversight, but without sufficient authority or
guidance.



21
     Commission on Wartime Contracting-Interim Report, February 24, 2011, p. 49.
22
     Acquisition and Contract Management Manpower and Operational Support for the CSTC-A, 9 Feb 2011.


                                                         46
OSD, AT&L, has sought to expand the limited resources available in country that can provide
contract oversight by signing a DFAR Class Deviation, signed March 21, 2011, which authorizes
foreign government and NATO/Coalition partners to serve as CORs. 23 With the proper
guidance, this could improve the ability of IJC to provide U.S. contract oversight and contribute
to resource stewardship in geographic areas previously lacking on-the-ground CORs to validate
contractor performance.

Notwithstanding progress that has been made by the military commands to strengthen their
contract oversight capacity, the oversight benefit of the DFAR waiver/Class Deviation authority
is necessary to standardize procedures and fill the current oversight gaps across the Combined
Joint Operating Area-Afghanistan. At a minimum, the implementation guidance must be
reconciled with the national caveats or operating instructions that apply to each Coalition partner
country and provide clarity on issues concerning foreign national CORs, including:

      •   Training,
      •   Language barriers,
      •   Liability.

Recommendation
8. Commander, Joint Theater Support Contracting Command, United States Central
Command, in coordination with Commander, International Security Assistance Force, issue
implementing instructions for subject Defense Federal Acquisition Regulation change/Class
Deviation.



Management Comments
Commander, Joint Theater Support Contracting Command, United States Central Command
(C-JTSCC) concurred with the recommendation. On May 11, 2011, the Senior Contracting
Official-Afghanistan issued “Implementing Guidance for Class Deviation for Designation of
CORs” to address the DFAR change/Class Deviation. The implementing guidance mitigates
liability risk associated with NATO/Coalition Partner Government employees who are appointed
as a COR. In addition to minimum requirements for all CORs regardless of status,
NATO/Coalition Partner Government employees must be able to read, write, and speak fluent
English and complete additional COR training. As of September 22, 2011, C-JTSCC has trained
15 NATO/Coalition Partner Government employees (military); however, only seven have been
appointed as CORs. C-JTSCC has not received any negative reports concerning their
performance as CORs.

Our Response
C-JTSCC’s comments were partially responsive. The Deputy Secretary of Defense Memo,
“Coordinating of Contracting Activities in USCENTCOM AOR,” dated November 22, 2010,
states "the Assistant Secretary of the Army has appointed the Commander, (C-JTSCC) as the
Head of Contracting Activity (HCA), within the Combined/Joint Operations Areas (CJOA) in

23
     DFAR Class Deviation – Designation of Contracting Officer’s Representative, 21 March 2011.


                                                        47
Iraq and Afghanistan." It goes on to say the C-JTSCC will exercise contract coordinating
authority to ensure synchronization of resources, effective contract planning, and compliance
with USCENTCOM policies. This contract coordinating authority includes all DOD Contracting
Activities within Afghan CJOA, including U.S. Special Operations Command, USACE, Defense
Logistics Agency, Army Material Command, U.S. Transportation Command, General Service
Administration, and any others with contracting activity in Afghanistan. The 11 May 2011
implementation guidance published by the Senior Contracting Official-Afghanistan, an
organizational tier below C-JTSCC, covers a large portion of contract activity in the Afghan
CJOA. However, it is not clear that this memo establishes implementing guidance from the
C-JTSCC as the Head of Contracting Activity for the Afghan CJOA, which would be applicable
to external contracting activities with performance or delivery in Afghanistan, such as U.S.
Special Operations Command, USACE, Defense Logistics Agency, Army Material Command,
U.S. Transportation Command, and General Services Administration. We request clarification
on this issue.




                                             48
PART IV – TRAINING




        49
Observation 9. Logistics Specialty Training
Kabul-centric combat service support logistics training is unlikely to meet requirements or to
gain full support by ANA commanders at corps and below and needs to be made more
accessible.

This has occurred because the capacity of the school to meet the logistics specialty training
requirements of fielding and fielded forces, although improving, has historically been
insufficient. Furthermore, ANA commanders are not confident, often with good reason, that
soldiers sent to the logistics school in Kabul will return to their units, and coordinating secure
transportation to and from Kabul from their unit locations can be difficult.

As the force continues to grow in size, this combination of factors has led to a general shortage
of ANA soldiers trained in logistics specialties that is unlikely to be remedied quickly enough to
provide the support required for an Army fighting an active insurgency. This could also delay
development of the sustainable logistics capability required to support the ANA as Coalition
forces withdraw.

Applicable Criteria (See Appendix C, Numbers 28 and 41, for additional details)

   •   German Armed Forces Technical Advisory Group – Power Point Brief, “Combat Service
       Support School (CSS) of the Afghan National Army,” April 21, 2011.
   •   Updated Afghan National Army Training Command Course Catalogue
       (2010/2011), as of March 9, 2011.

Discussion
Between 2002 and 2005, the only in-country logistics training for the ANA was provided at the
Drivers and Mechanics School in Kabul. It trained drivers, driver’s instructors, and vehicle
mechanics. On September 10, 2007, the Afghan MoD made the decision to establish a logistics
school for the ANA in Kabul. The French President and the German Chancellor agreed to
support the development of the ANA Logistics School as a joint project under German
leadership through a bilateral agreement. In the middle of 2010, the school was renamed the
Combat Service Support (CSS) School. The student capacity has since grown from 300 to over
900 and will soon be over 1000.

Coalition trainers informed the OIG team that the school had only 60 percent of the required
training personnel and only about 55 percent of necessary training materials. Although the
trainers rated the quality of the courses currently taught as “very good,” they reported that the
additional international resources necessary for further expansion of the curriculum or
infrastructure were not likely to be available.

In any event, based on our review, the Kabul-centric CSS logistics training is unlikely to be fully
supported by corps and below ANA commands in the near to mid-term. A number of senior
ANA commanders and staff officers in different regions commented on the following problems:

   •   Some ANA commanders and staff officers seemed to be unaware of the
       logistics/maintenance training opportunities offered by the CSS School in Kabul.


                                                 51
   •   Without Coalition assistance, the security situation and transportation issues make it
       difficult and dangerous to get soldiers to the school.
   •   Although ANA commanders and logisticians of units in the field see training at the CSS
       School as worthwhile, several commanders reported that soldiers they send there were
       reassigned to other units upon graduation.
   •   An S4 logistics officer in the 209th said the Corps Commander would no longer approve
       sending his logistics/maintenance soldier to the Kabul CSS School, because all of the
       soldiers they had previously sent had been reassigned to fielding units upon graduation.
   •   The 215th Corps Commander stated that his logistics/maintenance soldiers needed
       training, but he was hesitant to send them to the CSS School in Kabul, preferring training
       at the local level, where Corps leadership could remain in direct contact with them.

However, there is evidence that ANA corps and brigade commanders, recognizing that trained
logistics/maintenance soldiers improve combat readiness and morale, are devising local
solutions, often with Coalition assistance. During our assessment, we found some logistics
training initiatives already in use in the ANA corps located in RCs-East, South, and Southwest.

Examples included:

   •   Expansion of an apparently successful in-house logistics and maintenance training
       program in the 203d Corps.
   •   A successful and effective 24-week plan to train Afghan trainers to train Afghan drivers
       in RC-South, developed by the MPRI team at the 205th CLK Distribution Company.
   •   A portable generator repair course, established by the U.S. Marine Expeditionary Force,
       at the 215th Corps Training Center—a local solution to a problem that exists
       countrywide. There are multiple models of portable generators, few repair parts, and a
       lack of trained generator maintainers across the ANA, as well as in the 215th Corps.
       Portable generators are required to provide a significant percentage of ANA electrical
       power.

Furthermore, some Coalition trainers believed that decentralization of ANA logistics and
maintenance is required to meet immediate requirements, although quality control and
standardization could become an issue, if not built into the training programs. Partnered trainers
from the U.S. 7th Sustainment Brigade in RC-South recommended that logistics/maintenance
training be decentralized to, and co-located with, the Regional Military Training Centers, where
standardization could be monitored by the ANA Training Command, with assistance from
NTM-A/CSTC-A and its RSCs.

While the CSS School in Kabul should retain a primary role in support of ANA
logistics/maintenance training, especially for training Afghan trainers, there are distinct
advantages to a systematic decentralization of some aspects of logistics specialty training to meet
critical near-term needs for mechanics, supply specialists, and drivers.




                                                52
Recommendations
9. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan, in coordination with International Security
Assistance Force Joint Command and the Ministry of Defense/General Staff:

   a. Decentralize logistics training to Regional Military Training Centers in a manner
consistent with the parameters of the German/Afghan bilateral agreement regarding the Kabul
Combat Service Support School, while ensuring a standardized logistics training program of
instruction at all locations.

  b. Consider adopting logistics training initiatives already in use in Regional Commands-
East, South, and Southwest.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 9.a, providing comments. However, in the
comments, NTM-A/CSTC-A’s Combined Training Advisory Group – Army (CTAG-A) and the
German Armed Forces Training Advisory Group (GAFTAG) non-concurred with
Recommendation 9.a, as originally written. Decentralization of logistics training would
undermine the bilateral agreement between Germany and the GIRoA to develop a CSS School
capability in the Kabul area. The consistent implementation of logistics training provided by the
CSS School is important to building an enduring logistics system in Afghanistan.

NTM-A/CSTC-A concurred with comment on Recommendation 9.b. Having evaluated logistics
training initiatives in use in some of the RCs, they think the Mobile Training Team (MTT)
Concept of Operations constitutes the best short-term solution to the field shortage of trained
logisticians and mechanics. However, they do not support expanding civilian contracts to
provide additional MTTs. The CSS School has 24 slots to build MTTs, beginning with the 1391
Tashkil, and, in conjunction with NTM-A CJ4, will be able to provide logistics MTTs to the
corps areas. Using this capability will require significantly less Coalition funds, allow for
standardized training brought to the customer, and be led by Afghan soldiers from the CSS
School. By having this initiative be Afghan led, they are allowing Logistics training to develop
as an Afghan Army capability.

Our Response
Given CTAG-A and GAFTAG non-concurrence, we are uncertain if NTM-A/CSTC-A meant to
concur with Recommendation 9.a or not. However, given the shortage of qualified trainers and
training equipment at the CSS School in May 2011 and the reluctance of Afghan Commanders to
send assigned soldiers to the CSS School in Kabul, we do not see how the significant shortage of
trained logisticians and mechanics at corps and below can be addressed by the end of 2014,
relying solely on the CSS School and the current/proposed MTT capabilities. Recognizing the
significance of the German and Afghan bilateral agreement regarding the Kabul CSS School, we
chose to modify the recommendation as written above. We ask that NTM-A/CSTC-A provide
details on how they and the MoD plan to alleviate the shortfall of trained logisticians and
mechanics by 2014, within the parameters of the German/Afghan bilateral agreement.



                                               53
Observation 10. Logistics Mobile Training Teams
ANA logistics/maintenance commanders and Coalition trainers are generally unaware of
capabilities of the logistics Mobile Training Teams (MTTs) that NTM-A/CSTC-A, the GS/G-4,
and the Afghan CSS School can provide. Furthermore, they did not know how to request this
support.

This occurred because of a lack of effective communication up and down the MoD/GS/ANA and
CF logistics chains of command.

This has resulted in the failure to use the capability of the available logistics MTTs effectively to
more quickly develop a sustainable logistics/maintenance system in ANA units at corps and
below.

Applicable Criteria (See Appendix C, Number 37, for additional details.)

      •    NTM-A/CSTC-A’s, “ANA Logistics Deep Dive” briefing for DOD IG team, Director
           CJ4, April 28, 2011.

Discussion
During our assessment, we found instances where the ANA log/maintenance commanders and
Coalition trainers were unaware of the MTT capability that can be provided by NTM-A/
CSTC-A, the MPRI contractor, the General Staff, and the Afghan CSS School. If they knew
about the capability, many did not know how to request this support.

There were several logistics/maintenance MTTs developed to support ANA units:

      •    The CSS School has one MTT consisting of four Portuguese officers and four ANA
           officers that can train ANA soldiers on logistics/maintenance processes and procedures.
           They plan to expand this capability to six MTTs next year.
      •    NTM-A/CSTC-A CJ4 has one MTT that can teach ANA logistics doctrine and
           procedures.
      •    MPRI has 11 logistics/maintenance MTTs (six contractors each) that embed with the
           ANA CLKs and CSSKs during and after fielding, remaining until the unit reaches
           Capability Milestone 2 24—usually about a year. These MPRI MTTs teach and conduct
           maintenance. However, only the last seven of the 22 CSSKs fielded have had the MPRI
           MTT embedded with them. (The new A-TEMP contract will provide logistics/
           maintenance trainers to all of the CSSKs.)
      •    The ANA GS G4 was assisting fielded units by sending Afghan logisticians to train
           Afghan army logistics personnel. The Afghan GS G4 MTT trained at the Logistics
           Support Operations Center (LSOC) in Kabul, with the support of the NTM-A/CSTC-A



24
     Capable of conducting primary operational mission(s) with routine assistance from, or reliance on, international
     community support (NTM-A/CSTC-A evaluation system). Roughly equivalent to the IJC Readiness Definition
     Level “Effective with Advisors”.


                                                           55
          CJ-4. At the time of the OIG Team assessment, the Afghan GS G4 MTT was traveling
          and teaching MoD logistics decrees. 25 The MTT is composed of GS-G4 and LSOC
          Colonels. They use the Train-the-Trainer model to teach Afghan corps personnel, who in
          turn teach the brigades and their CSSK personnel.

Recommendations
10. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with International
Security Assistance Force Joint Command:
  a. Mentor logistics/maintenance personnel at the Ministry of Defense/General Staff, corps
commanders, and unit logistics personnel on how to request logistics/maintenance Mobile
Training Team support available from the North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan, the Afghan
Combat Service Support School, and the General Staff G4.
  b. Ensure that Coalition logistics trainers, at all levels, are aware of the capability and
availability of the logistics Mobile Training Teams.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 10.a and 10.b, but did not provide any
details on how they planned to address the intent of the recommendations.

Our Response
We ask that NTM-A/CSTC-A provide a synopsis of steps taken or planned that address the
intent of Recommendations 10.a and 10.b.




25
     They had already taught Decrees 4.1, “Transportation Management Policy and Procedures,” and 4.9,
     “Maintenance Management Policy and Procedures,” and plan to teach 4.5, “Ammunition and Explosive
     Operations Policy and Support Procedures, and 4.6, Petroleum, Oil and Lubricant (POL) Section Organization,
     Responsibilities and Procedures.”


                                                         56
Observation 11. Embedded Logistics Training Teams in
Combat Service Support Kandaks and Corps Logistics
Kandaks
Fifteen of the 22 CSSKs and one of the four CLKs fielded did not have a contracted embedded
logistics training team (LTT) with them during their Consolidated Fielding Center (CFC)
training or during follow-on operations in their geographic area of responsibility.

This occurred because the contract for these teams was not in place early enough in the training
and fielding of new CSSK and CLK units to provide them an embedded LTT

This could delay the CSSKs and CLKs reaching Capability Milestone 2, negatively impacting
operational readiness.

Applicable Criteria (See Appendix C, Numbers 8, 9, and 11, for additional details.)

   •   Coalition Advisory Team Corp G4 Advisor, 205 Corp, Brief, May 1, 2011.
   •   Coalition Training Advisory Group-Army Command Brief, Slide 9, April 28, 2011.
   •   CSSK – Commando Common Operating Picture (COP) Bubble chart, January 31, 2011.

Discussion
The CSSKs, assigned to the ANA combat brigades, provide logistics sustainment, maintenance,
and medical support to the brigades. All 22 of the CSSKs have fielded, but only the last seven
had an embedded, six-person MPRI LTT.

The LTT joined the seven CSSKs during their training at the CFC, then deployed with the unit to
its permanent station. The LTT will remain until the CSSKs reach readiness Capability
Milestone 2. Since trained ANA soldiers with logistics/maintenance specialties were not
available earlier in the fielding process, many of the CSSKs fielded with large numbers of
infantry soldiers. There were also shortages of primary equipment, with some CSSKs fielding
with only 10 percent of their 915/916 series trailers and 20 percent of their 915/916 series trucks.
Although most of the equipment has since arrived, training challenges remain in the CSSKs,
given the significant number of infantry soldiers that need retraining as logisticians/mechanics.
Of the CSSKs that have reached Capability Milestone 2, a significant number had the contractor
LTT with them.

The CLKs provide logistics and maintenance capability (general support) to corps units. To
date, four of six CLKs have been fielded, with the last two scheduled to field in October and
December 2011. One of the four CLKs fielded as of May 2011 did not have an embedded
contractor LTT. Lack of personnel with any logistics training and equipment shortages have also
hampered effective fielding of the CLKs. For example, the 205th CLK that fielded in January
2011 did not receive any of its 915/916 series trailers/tractors before deploying from the CFC,
although most of the tractors had arrived by June 2011. They were also assigned 437 infantry
soldiers out of a total authorization of 458. Despite the increased capability and capacity of the
CSS School in Kabul and the potential support capability that could be provided by the various



                                                57
MTTs, the CLKs face significant training challenges that continue to hamper their ability to
provide logistics support to the corps.

NTM-A/CSTC-A has worked with MoD/GS and IJC to mitigate these issues via the new
A-TEMP maintenance contract, the various logistics MTTs, and the Afghan Integrated Support
Services contractors located at the corps Equipment Maintenance Sites. (These sites will be
disestablished after the CLKs become fully functional.) However, senior officers and trainers at
IJC expressed concern that there will be a window of operational vulnerability caused by ANA
logistics/maintenance shortfalls as the CSSKs and CLKs struggle to overcome issues associated
with their fielding process, particularly the shortage of trained logistics/maintenance personnel.
While the new A-TEMP contract will provide contract maintenance trainers, full-time contractor
LTTs that actually perform maintenance may be needed for about the next 18 months to assist
the 15 CSSKs and one CLK that currently do not have this support.

Recommendation
11. Commander, International Security Assistance Force Joint Command, in coordination with
North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined Security
Transition Command-Afghanistan and the Ministry of Defense/General Staff, evaluate the risk
to operational readiness posed by logistics/maintenance issues at the Combat Service Support
Kandaks and Corps Logistics Kandaks and determine if an embedded logistics training team
should be provided to those units that have not yet reached Readiness Definition Level
Effective With Advisors.

Management Comments
IJC concurred with the recommendation. The response was classified and is available upon
request.

Our Response
IJC has taken significant action to meet the intent of Recommendation 11 and assessment of risk
associated with the capability of certain maintenance organizations is ongoing. We will request
an update in six months.




                                                58
PART V – LOGISTICS PROCESS AND
          PROCEDURE




              59
Observation 12. Afghan National Army Supply Processes
The “push” supply process, associated with fielding equipment and supplies to new units or
providing Authorized Stockage List (ASL) materiel to FSDs and CSSKs, has led to confusion
among ANA logisticians and Coalition trainers at FSDs and corps.

This has occurred because:

   •   There is a significant lack of understanding among ANA logisticians, as well as Coalition
       trainers, about when, why and how to rely on the push system, vice the MoD 14 request
       process.
   •   ANA depots and units have become dependent on the Coalition to push supplies to them,
       so do not see the need to forecast or request supplies (pull) with a MoD 14.
   •   ANA commanders, logisticians, and U.S./CF trainers view the MoD 14 process as
       unreliable and unresponsive.
   •   There is no MoD 14 feedback/reconciliation process that provides the status of a supply
       request.

As a result:

   •   Afghan and U.S./CF personnel continue to rely on the “push” supply system, whenever
       able, resisting the transition to the MoD 14 supply request process.
   •   The ANA lack confidence in the MoD 14 supply request process and do not trust it to
       meet their requirements.
   •   Military operations have been delayed and, in at least one instance, cancelled for lack of
       essential supplies.

Applicable Criteria (See Appendix C, Numbers 7, 12, 30, and 33, for additional details.)

   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
       January 2009.
   •   Headquarters ISAF Joint Command Kabul Afghanistan, Standard Operating Procedure
       430, “ANSF Logistics Development – Corps and Below,” March 2011.
   •   Joint Center for International Security Force Assistance “Afghan National Army Mentor
       Guide,” March 25, 2011.

Discussion
Two Supply Processes
According to ANA and Coalition personnel the OIG team interviewed during the assessment,
there is general lack of knowledge and understanding of when, why, and how the two ANA
supply systems, push and pull (MoD 14 request), are applied, which has led to confusion and


                                               61
uncertainty regarding the supply system among both ANA and coalition trainer personnel
throughout the country.

Force generation has been and remains the first priority for NTM-A/CSTC-A. The “push”
system supplies the ANA units with their “shoot, move, and communicate” equipment and
supplies at the CFC in Kabul before they are fielded and, once they are deployed, makes up for
supply/equipment shortfalls from the CFC. If new ANA organizations field without all of their
Tashkil-authorized equipment or supplies, that equipment, in principle, will continue to be
“pushed” to them as it becomes available, without the unit submitting a MoD 14 request,
although this is not well understood. The “push” system also provides the initial fill of Class
VIII medical supplies/equipment and Class IX repair parts up to the ASL at FSDs and CSSKs.

Coalition personnel have primarily run the push system, and, since almost all ANA organizations
are relatively new, many ANA logisticians have become accustomed to receiving the majority of
their equipment, vehicles, and supplies via the “push” system. They have not had to concern
themselves with filling out supply requisitions, forecasting future requirements, tracking usage
rates, all elements of the MoD 14 request (demand-pull) system.

Ministry of Defense Form 14 Supply Request Process as the Basis of the
“Demand-Pull” Supply System
The MoD 14 form, when submitted by ANA units and supply depots, is supposed to initiate
routine resupply of equipment, repair parts, and other items as part of the “demand-pull” logistics
system.

Decree 4.0, “Afghan Ministry of National Defense, Office of the Assistant Minister of
Acquisition, Technology, Logistics,” describes the use of and provides directions for filling out
the MoD 14. All logistics trainers and ANA logistics personnel are supposed to follow Decree
4.0 to ensure the process works properly. In some instances, U.S./CF trainers and contractors
responsible for mentoring the ANA in logistics had not read the document and did not
understand how to use it. Furthermore, some U.S./CF trainers and their ANA counterparts did
not recommend using the MoD 14 system, as described in Decree 4.0, because they did not
believe it worked.

Generally, ANA logistics personnel lacked confidence in the MoD 14 demand-pull process and
did not understand when and how to use it. While the process has demonstrated some success
with requisition/resupply of Class I and III (food, firewood for cooking, fuel), most ANA
commanders and logisticians believed it to be insufficiently reliable or responsive, and ANA
logisticians at corps and below did not trust it to support their materiel requirements in a timely
manner, if at all.

Problems identified by Afghan logistics personnel at all levels of the supply chain with the MoD
14 process were numerous and included:

   •   Forms not being filled out correctly,
   •   Improper signatures,
   •   Forms filled out in English instead of Dari,


                                                 62
      •   Forms lost at the Forward Support Group/Logistics Support Operations Center,
      •   More than one class of supply on one MoD 14 form, which is not in accordance with the
          decree,
      •   Signatures are not original (copies are not accepted),
      •   Electronically generated MoD 14’s were not the same design as the hard copy MoD 14s,
      •   Requested items, especially repair parts, not available in the ANA logistics system, and
      •   No feedback that provides a status/reconciliation process for submitted requests.

Ultimately, ANA logistics personnel have failed to act on MoD 14 requests for any of these, and
other, reasons. However, since there was no functional status reconciliation process, the
requesting unit or depot usually never knew what happened to their request. There was simply
no response. Furthermore, many ANA logisticians and U.S./CF trainers did not understand what
items were still due to be “pushed” to them and that they did not need to submit a MoD 14
request for those items. Frustrated ANA logisticians would submit a MoD 14 for the same items
repeatedly, including items designated to be “pushed,” further clogging the already dysfunctional
system.

Many of these supply system development issues occurred because the NTM-A/CSTC-A force
generation process took priority, until recently, over building the ANA logistical system, out of
battlefield necessity and with the concurrence of the MoD/GS. Some new CSSKs and CLKs
fielded mainly with infantry soldiers who had no logistical training or logistics skills,
exacerbating the situation. (The ANA soldiers with logistics skills were not available at the
time.) Nonetheless, establishing a credible and reliable MoD 14 supply request process is
fundamental to the development of an independent and sustainable logistics system to support
the needs of ANA units, many of which are in combat. The MoD 14 process is not currently
working to support the ANA. Immediate action is required to establish functionality and
confidence in the system. 26 (For example, U.S. logistics trainers report that establishing a
reliable supply of 30 to 50 lines of critical repair parts for ANA vehicle maintenance could
significantly improve equipment operational readiness rates.)

Insufficient Training
As the ANA logistical system matures with more repair parts and supplies available in the ANA
system, proper training will alleviate many of these process issues, both for ANA soldiers and
U.S./CF trainers/contractors.

The German-supported CSS School, located in Kabul, is the ANA institutional logistics school
and it continues to improve its training quality and capacity. Most of the students arrive with no
logistical experience, coming directly from their Basic Warrior Training course. Logistics
personnel from ANA deployed units rarely attend. Some ANA corps commanders and
logisticians we interviewed did not know about the CSS School. If they did know about the
school, corps commanders were hesitant to allow personnel to go there because, upon
graduation, their soldiers and officers were often reassigned to fielding units. An ANA S-4
officer told us his corps commander would not approve their requests to attend the CSS School
for that reason.

26
     Issues with the MoD 14 supply request system were previously identified in SPO Report 2009-007, p. 27-30.


                                                         63
In an attempt to provide logistics training to ANA personnel in already fielded logistics units,
both NTM-A/CSTC-A and the MoD/GS have formed MTTs.

An NTM-A/CSTC-A MTT comprised of four U.S. logistics personnel and several Afghan
logistics personnel has been conducting logistics and MoD decree training at ANA corps and
below unit levels. Overall, they reported having a positive effect, but also said that they had
encountered some ANA commanders who were unwilling to allow their personnel to attend. Of
equal concern, they met U.S./CF logistics trainers and contractors who admitted to not reading
the logistics decrees and were also unwilling to attend their training.

A MoD/GS MTT was also performing decree training, with assistance from NTM-A/CSTC-A
CJ4 advisors. They were reportedly having more success, as is usually the case when Afghans
are training Afghans. The OIG assessment team reviewed an after action report for training the
MoD/GS MTT conducted in the 209th Corps which was positive. However, one of the
recommendations noted that U.S./CF trainers should be more familiar with MoD logistics
decrees.

U.S. logistics mentors/trainers do not always have a logistics background, and they receive
minimal logistics training prior to their assignment. ISAF Standard Operating Procedure 430
states, “Other than national pre-deployment training, partners do not receive any mission specific
training to prepare them for working with the ANSF or validation.” (p5). Some U.S. trainers
reported that their pre-deployment training at Fort Polk, Louisiana offered upwards of four hours
of ANA logistics training, but it was voluntary. We spoke with numerous U.S./CF personnel
throughout the theatre and none of them reported having received adequate training for their
assignments as logistics trainers.

Logistics Documents Provided Coalition Trainers
A review of documents available to incoming logistics trainers revealed minor, but important,
discrepancies. U.S./CF logistics trainers rely on these documents to learn their job and perform
their duties.

The NTM-A/CSTC-A “Afghan Logistics 101--The Basics” slide packet incorrectly notes on
slide 12 that the MoD 14 purpose is to, “Initiate a requisition or turn-in items for repair or
disposition,” while slide 51 correctly notes, “The MoD 9 Form is an issue and or turn-in
document.”

The Joint Center for International Security Force Assistance “Afghan National Army Mentor
Guide,” dated 25 March 11, states that logistics documents provided are “Primarily geared for
tactical advisors and partnering units…anyone deploying to Afghanistan.” It goes on to say that,
“an Afghan supply system is in place that should push equipment and supplies down from MoD
warehouses to the corps and individual kandaks…” While that statement is currently accurate
more often than not, it fails to describe the institutional importance of the demand-pull system
that also exists by MoD decree and that will largely replace the push supply initiatives once
ANA force generation is completed and the FSDs and CSSKs receive their ASLs of core supply
items. The guide does not go into any detail about the MoD 14 request process, which will be
the enduring supply procedure to enable logistical sustainment in the ANA.



                                                64
Recommendations
12.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command and the Ministry of Defense/General Staff, identify
and push a core set of “shoot, move, and communicate” supply items necessary for sustainable
logistics in fielded Afghan National Army units into the Central Warehouse and Forward
Support Depots.
12. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command:
  b. Support the Ministry of Defense/General Staff to conduct senior level Afghan National
Army logistics conferences (corps and above) on the MoD 14 “demand-pull” logistics system
versus the “push” system.
  c. Assist the Ministry of Defense/General Staff to establish a tracking mechanism that
provides visibility and accountability for monthly reconciliation of MoD Form 14 requests by
Afghan National Army commanders and Coalition training teams along the entire Afghan
National Army supply system.
  d. Coordinate with Ministry of Defense/General Staff to improve understanding of the MoD
14 process in Afghan National Army fielded organizations at corps and below.
  e. Update the “Afghan Logistics 101—the Basics” slide packet or develop an alternative
quality logistics guide explaining the MoD 14 “demand-pull” system for incoming Afghan
National Army logistics trainers.
12.f. Commander, International Security Assistance Force Joint Command, in coordination
with North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan, conduct training of U.S./Coalition logistics partner
units/trainers/contractors at corps and below on Decree 4.0 and the MoD 14 “demand-pull”
logistics system versus the “push” system, and on the rest of the series 4 Ministry of Defense
Decrees.
12.g. Director, Joint Center for International Security Force Assistance, in coordination with
the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan, update the “Afghan National Army Mentor Guide” to
include the MoD 14 supply request process.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 12.a, commenting that the ANA and
Coalition Forces jointly established an ASL for the National Depots and the FSDs for supply
Classes II, VIII, and IX. The Class II and IX ASLs are partially stocked and the Class VIII ASL
is fully stocked. Coalition Forces are still working hand-in-hand with the ANA to establish an
ASL for the remaining classes of supply. As units are still fielding, there is not an excess amount
of the high-demand items to stock at the FSDs, only enough for the National Depots. In an
attempt to quickly stock the FSDs, the CJ4 Maintenance Class IX section regularly constructed
push letters based on FSD ASL and vehicle deadline requirements. Over 90 percent of Class IX


                                                65
distribution occurred as a result of push letters. As of 1 Sep 11, the CJ4 Class IX/Maintenance
team ceased the use of push letters and is focusing on training with national and FSD level
leaders to identify the MoD 14 choke points and develop solutions for a more efficient Class IX
supply chain.

NTM-A/CSTC-A concurred with Recommendation 12.b, commenting that an ANA planned,
coordinated, and led ANA Logistics Conference was conducted on 12-13 June 2011. This very
successful conference dealt with multiple logistics issues within the ANA, including the MoD 14
process. The ANA are planning to conduct this conference annually. Additionally, a joint
planning team (JPT) was formed called "The Phoenix Group" to build a logistics system that the
Afghans want and will use in the post-coalition era. The Phoenix Group is led by ISAF CJ-4,
with representation from Deputy Commander–Army (DCOM-A), DCOM-Programs, NTM-A
CJ4, CJ7, CJ ENG, IJC Coalition CJ4, USFOR-A, and JSC-A. They meet on a weekly basis.
The Phoenix General Officer Steering Committee met on 9 July 2011 to provide the planning
guidance to the Phoenix JPT. The next meeting is scheduled for 1 October 2011 and will include
MoD General Officers involved in ANA logistics.

NTM-A/CSTC-A concurred with Recommendation 12.c, commenting that establishing a visible
and accountable monthly reconciliation of MoD 14s calls for an implemented and fully
functional MoD 14 process. As a key determinant of this operational reliability, they continue to
emphasize the requirement to teach and follow the Decrees to the mentors and advisors at all
levels. While not currently feasible to track the entire ANA's reconciliation status, they note
action taken by the ANA on this issue. In order to gain visibility of requisitions, the ANA
maintains a MoD 14 Tracker at the LSOC. The FSDs forward copies of all MoD 14s that are
going to the Army Support Command (ASC) to the LSOC so they can be added to the MoD 14
Tracker. Then, when the MoD 14s arrive at LSOC, their status is updated. This is another tool
available to aid in the reconciliation process.

NTM-A/CSTC-A concurred with Recommendation 12.d, commenting that one of the Phoenix
Group's key charters is to develop the understanding of the MoD 14 process in the ANA as a
core element of a successful transition of logistics management to the ANA. Additionally, a
joint ANA/ Coalition Force MoD14 Rehearsal of Concept (ROC) Drill is scheduled for October
2011 with the Phoenix Group/MoD/GS key players to reinforce the Decrees and help
synchronize efforts.

NTM-A/CSTC-A concurred with Recommendation 12.e, commenting that the “Afghan Logistics
101—the Basics” slide packet was updated on 18 Sep 2011. Additionally, the "ANA Logistics
Advisor Training Handbook" was revised 5 Aug 2011, providing a source of 'train the trainer'
information for inbound advisors.

IJC concurred with Recommendation 12.f. The response was classified and is available on
request.

Joint Center for International Security Force Assistance concurred with Recommendation 12.g,
noting that they are in the process of updating the JCISFA ANA Mentors Guide. The update will
include specific techniques and procedures for the supply request process using the MoD-14
form.


                                               66
Our Response
NTM-A/CSTC-A’s comments to Recommendation 12.a were responsive. We will request an
update in six months on the status of fill of ASLs at the FSDs, CLKs, and CSSKs.

NTM-A/CSTC-A’s management comments to Recommendation 12.b were responsive. We
previously received and reviewed the agenda for the ANA Logistics Conference, noting the
considerable time devoted to discussing the MoD 14 process. As with Recommendation 2.a, we
request a copy of the minutes/output of the Phoenix General Officer Steering Committee meeting
scheduled for 1 Oct 2011.

NTM-A/CSTC-A’s comments to Recommendation 12.c and 12.d were responsive. We will
request an update in six months on the status/operability of the MoD 14 system.

NTM-A/CSTC-A’s comments to Recommendation 12.e were responsive. We request copies of
the updated “Afghan Logistics 101—the Basics” slide packet and the "ANA Logistics Advisor
Training Handbook," dated 5 Aug 2011.

IJC comments to Recommendation 12.f were responsive. Recently published IJC FRAGOs,
increased use of the NTM-A/CSTC-A logistics MTT for partners and mentors, and update of
logistics training briefings/materials meets the intent of the recommendation. No further action
is required.

The Joint Center for International Security Force Assistance comments to Recommendation 12.g
were responsive. Once completed, we request a copy of the updated “Afghan National Army
Mentor Guide.”




                                               67
Observation 13. Priority of Supply
MoD 14 supply requests from fielded units are addressed on a “first come, first served” basis, if
they are responded to at all. Operational considerations within the corps commands are not
prioritized and responded to first.

This has occurred because:

   •   The MoD 14 process has not matured enough to support priority requests.
   •   MoD Decree 4.0 does not define priority codes for the MoD 14 form or provide
       authorization to approve priority requests.
   •   There is no concise policy to give priority to MoD 14 requests in accordance with
       operational priorities established by the GS G3.

As a result, there is no assurance that the ANA logistics system will provide supplies to the ANA
corps in a manner that supports operational priorities and requirements, which could impair
operational effectiveness.

Applicable Criteria (See Appendix C, Number 12, for additional details.)

   •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
       January 2009.


Discussion
CF trainers, ANA commanders, and logistics personnel reported that some joint missions with
the ANA were delayed or cancelled because they lacked sufficient supplies. Furthermore, the
OIG team was informed that there was no assurance as to when, if ever, requested supplies
would arrive since there was no system for prioritizing supply requests important for ANA
operational missions. As far as the ANA logisticians and U.S./CF trainers knew, requests were
filled on a “first come first served” basis, if they were filled at all, with no systematic process for
determining and responding to higher-level logistical and operational needs.

Personnel requesting supplies can denote the priority of the request in block 6 on the MoD 14.
However, U.S./CF trainers reported that, in reality, this was ineffective and responses, when they
occurred, did not appear to have been prioritized.

The OIG team was unable to determine by reading the MoD decrees what codes were
appropriate for use in block 6 of the MoD 14 form to indicate priorities. The MoD Decree 4.0
has instructions for filling out the MoD 14 form, and it says to enter a priority number for
requested items in block 6, but it does not have the priority codes listed. Other logistics decrees
directed the reader back to Decree 4.0. A priority table is in Decree 4.0, but it is for the MoD 4
form (document register). The only document the team found which specifically listed the
priority codes for the MoD 14 form was a table in the NTM-A/CSTC-A “Afghan Logistics 101--
The Basics” brief, which did not cite a reference in the MoD logistics decrees.


                                                  69
Although the ANA logistics system is still immature, it is important that policies and procedures
be established and understood by ANA commanders, logisticians, and Coalition trainers so that
logistical support meets operational priorities.

Recommendations
13.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command, engage appropriate senior Ministry of
Defense/General Staff leaders to develop policy and procedures that ensure MoD 14 supply
requests are filled in a manner that supports established operational priorities.
13.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, engage Ministry of Defense
Acquisition, Technology, & Logistics staff to ensure the priority policies/codes for the MoD
14 form are included in Decree 4.0 and effectively promulgated.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 13.a and 13.b, reporting that a Supply
Decree 4.0 working group was established 19 Jul 2011. The working group meets weekly and
MG Abdullah, ATL Director, is the chairman. The working group consists of senior logistics
staff officers from the ATL and GS G4 directorates and an ANA legal department representative.
Recommended changes to Decree 4.0 from ANA logisticians and U.S./Coalition advisors in the
field are presented to the working group for their acceptance or denial into the updated Decree.
One of the topics under consideration for inclusion in the update of Decree 4.0 is priority
policies/codes for the MoD 14 form. The estimated completion date for the working group’s
revision of Supply Decree 4.0 is Dec 2011. At that time, it will be staffed to coalition forces for
their review prior to being submitted to the Minister of Defense for signature.

Our Response
NTM-A/CSTC-A comments to Recommendations 13.a and 13.b were responsive. Once
published, we request a copy of the updated Decree 4.0 for review to determine how priority
policies and codes for the MoD 14 form support operational priorities.




                                                70
Observation 14. Ministry of Defense Form 9 and Unit
Property Books
Although the LSOC receives copies of the MoD Form 9 (issuance documentation) when an ANA
unit is issued equipment at the CFC, copies of the MoD 9s reportedly do not accompany the unit
property books, in accordance with MoD Decree 4.2, when the unit deploys to its assigned field
command location. Nor are the Form 9s made available to Afghan officials at the MoD.

This has occurred because of a failure to communicate between the CFC and LSOC, with
U.S./CF trainers at the CFC assuming that the LSOC would provide copies of the Form 9s to
those MoD organizations/units that needed them, while the LSOC believed the CFC should
distribute copies to those in the MoD logistics chain required to have them.

This has caused MoD officials and gaining commands in the field to report that they cannot
verify the accuracy of the property books that accompany newly fielded units because Form 9
substantiating documentation, as required by MoD Decree 4.2, is not immediately available to
them.

Applicable Criteria (See Appendix C, Numbers 4, 5, 12, 14, and 34, for additional
details.)

    •   Army Field Manual 3-07.1, “Security Force Assistance,” May 2009.
    •   Army Field Manual/MCWP 3-33.5, “Counterinsurgency,” December 2006.
    •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
        Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
        January 2009.
    •   Decree 4.2, MoD, Assistant Minister of Defense for Acquisition, Technology and
        Logistics, “Material Accountability Policy and Procedures,” June 2009.
    •   JP 3-07.1, “Joint Tactics, Techniques, and Procedures for Foreign Internal Defense
        (FID),” April 30, 2004.


Discussion
All MoD/ANA and U.S./CF parties interviewed acknowledged the distribution process for MoD
Form 9s documenting equipment issue from the National Depots for units deploying through the
CFC was not functioning in accordance with MoD Decree 4.2.

A copy of the MoD 9 has not been routinely accompanying the unit property book when the
fielding unit deploys from CFC to its new home station. ANA logistics personnel also reported
that, in cases where the MoD 9s do accompany the property books from CFC, they are
sometimes not filled out correctly, so they reject them. Officials in the MoD also reported that
they do not receive copies of the MoD 9s for equipment issued at the CFC, so they have no
visibility of what equipment fielded units do or do not have.




                                               71
This complicates the decision process at the MoD/GS level when a fielded unit submits a MoD
14 request for equipment that may or may not have been issued to them at the CFC. There is
also confusion in the MoD/GS/ANA logistics chain about whether copies are acceptable because
the Afghans typically require numerous original signatures. Some ANA units have rejected
copies of MoD 9s, maintaining that all copies required original signatures. Furthermore, some
ANA organizations do not believe that Coalition/MoD “push letters,” used to document issue of
equipment still owed to units after the fielding process, are an acceptable substitute for the MoD
9 and reject them, then claiming they do not have the proper issuance documentation.

Since the ANA is fundamentally a paper-based logistics organization, it is critical to ensure all
required and necessary paperwork accompanies issued supplies and equipment, and that it is in
the correct format, in accordance with the MoD Logistics Decree 4.2.

Recommendation
14. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the Ministry of
Defense and the General Staff, develop a procedure to ensure that U.S./Coalition Forces
understand and support the distribution of Ministry of Defense Form 9's prepared at the
National Depots for units deploying through the Consolidated Fielding Center, and subsequent
“push letters,” prepared by the Combined Security Transition Command-Afghanistan CJ4, in a
manner acceptable to the Afghan National Army.


Management Comments
NTM-A/CSTC-A non-concurred with Recommendation 14 as it was written in the draft report
requesting management comments. MoD 9s are not created at the Consolidated Fielding Center
(CFC) and neither are Push Letters, as stated in the draft report. MoD 9s are created at the
National Depots for units deploying through the CFC. The CFC Coalition Mentors and CJ4
Liaison Officer accompany all units in training to the National Depots and ensure the ANA
Signature Card Holder receives the MoD 9s. The ANA unit’s Property Book Officer is
responsible for transporting the Property Book and the MoD 9s to the Corps when the unit
deploys. Due to the fact that not all of the MoD 9s arrive at the unit, the CFC maintains copies
of all MoD 9s for units going through the center. Additionally, to help facilitate transfer of MoD
9s to add equipment to unit property books, NTM-A/CSTC-A recommends Coalition Force
mentors at Corps level ask arriving Kandaks for the Property Book and MoD 9s. Also, CSTC-A
recommends that U.S./Coalition Forces advisors/trainers encourage ANA Commanders to order
a 100 percent inventory of all arriving equipment. Additionally, the CFC Coalition Force
mentors will attempt to send the Property Book with the Escort Convoy vice the main ANA
convoy transporting ANA unit equipment. Copies of all MoD 9s for equipment drawn from the
National Depot are forwarded to the LSOC. An ANA Lieutenant Colonel at LSOC enters the
MoD 9s into the National Asset Visibility (NAV) database to complete the loop. The NAV
serves as the ANA's system of record for what equipment was issued to the ANA.
The Push Letter is not a receipt document, like the MoD 9. It is an issue directive. The Push
Letter is created at CSTC-A CJ4 and routed through the ANA organizations of GS/G4 or GS/G6,
Acquisition Technology and Logistics (AT&L), and LSOC for approval. It is then sent to the



                                                72
National Depots to initiate issue of the equipment. An ANA Cipher 27 delineates the
responsibility of CSTC-A, CJ4 to prepare the Push Letters.

Our Response
We ask the NTM-A/CSTC-A reconsider their non-concur. We have rewritten Observation/
Recommendation 14 to correct the discrepancies noted in NTM-A/CSTC-A’s comments. The
comments outline what appears to be an effective process for preparation of MoD Form 9s and
their distribution to the appropriate ANA organizations/staffs, in accordance with Decree 4.2.
We ask that NTM-A/CSTC-A provide details on how this process is communicated to
U.S./Coalition Forces advisors/trainers at the FSDs, CLKs, CSSKs, and corps/kandak S-4s. We
also ask that NTM-A/CSTC-A clarify whether a Push Letter is the basis for adding equipment to
the Unit Property Book or does the letter generate a MoD Form 9 at some level.




27
     An ANA Cipher is the written equivalent of a U.S./CF written operations plan or order.


                                                          73
Observation 15. Reporting Supply Discrepancies
The ANA procedures for reporting supply discrepancies are confusing and ineffective.

This occurs because the supply discrepancy reporting procedures in MoD Decree 4.0 varies from
that in MoD Decree 4.1, with the latter reportedly being the correct procedure. Furthermore,
even when reported correctly, the reporting unit rarely sees a corrective supply action.

This has led to confusion in ANA logistical units and a general reluctance to report supply
discrepancies since, from the receiving unit’s point of view, no one is held accountable for the
missing items and the shortages must be reordered on a MoD 14 anyway.


Applicable Criteria (See Appendix C, Numbers 12, 14, 24, and 27, for additional details.)

   •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
       January 2009.
   •   Decree 4.1, MoD, Ministry of Defense, Office of the Assistant Minister of Acquisition,
       Technology, Logistics, “Transportation Management Policy and Procedures,”
       August 2010.
   •   DODI 5000.64, “Accountability and Management of DOD Equipment and Other
       Accountable Property,” May 19, 2011.
   •   DOD 4140.1-R, “DOD Supply Chain Materiel Management Regulation,” May 23, 2003.


Discussion
ANA units routinely receive equipment with missing parts/ancillary equipment and supplies with
quantity shortages. However, ANA logisticians and Coalition trainers reported that the
procedures for reporting such discrepancies are confusing and seem to be ineffective.

The OIG team received numerous reports from ANA logisticians and Coalition trainers that:

   •   Fuel tankers arrived with less fuel on-board than documented (or with documentation
       missing),
   •   Vehicles and other equipment arrived with missing parts/ancillary equipment, and
   •   Repair parts issued from depots that never arrived (or arrived in quantities less than
       issued).

MoD Decrees 4.0 and 4.1 discusses reporting supply discrepancies. However, the procedures
specified in each decree are not the same.

MoD Decree 4.0 (Supply), published in January 2009, mentions MoD Form 65 (Shipping
Discrepancy), a form that does not appear to exist. It does not provide any other instructions
regarding how to report discrepancies back up the chain of supply. The decree does discuss


                                                75
reporting a discrepancy concerning equipment received on a Form 8 (Materiel Receiving and
Explanation of Items) in paragraph 4-12.e.21. However, there is no direction provided on what
to do with the form once it is filled out.

MoD Decree 4.1 (Transportation), published in August 2010, requires the use of MoD Form 84
(Shipment Discrepancy Report) to report supply discrepancies and provides a copy of the form.
Para 7-5 provides a detailed discussion on discrepancy reporting using the Form 84 and the
process used to report and then reorder supplies using a new MoD 14, with the MoD 84 attached.
The procedure outlined in this decree is more recent and appears to be the correct procedure.

However, even when Form 84 is filled out and submitted, all feedback the OIG team received
from ANA logisticians and U.S./CF trainers indicated the process is ineffective and does not
result in corrective action. Items still arrive with missing parts and units have to re-requisition
them.

This has led to confusion and frustration in fielded ANA logistics organizations. Additionally, it
fuels the perception among ANA logistics personnel and Coalition trainers that no one at higher
levels of the logistics chain is held accountable for inefficient or corrupt practices.

Recommendations
15. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan mentor logistics personnel in the
Ministry of Defense and the General Staff to:

  a. Update/synchronize the supply discrepancy reporting procedures in Ministry of Defense
Decrees 4.0 and 4.1 and communicate the correct procedures to ANA logistics personnel at
corps and below.

  b. Develop a procedure to reconcile supply discrepancy reports and to establish
accountability for unresolved discrepancies.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 15.a and 15.b, but did provide any details on
how they planned to address the intent of the recommendations.

Our Response
We ask that NTM-A/CSTC-A provide a synopsis of steps taken or planned that address the
intent of Recommendations 15.a and 15.b.




                                                 76
Observation 16. Expendable Supplies and Material
ANA units are unable to request and receive expendable supplies and material 28 not specifically
listed on the Tashkil.

This occurs because there is no Afghan equivalent to the U.S./NATO Common Table of
Allowances that effectively addresses the expendable supply needs of units in combat and that
enables a military unit to request and receive expendable supplies and equipment not specifically
listed on the Tashkil.

This leads to unit personnel repeatedly requisitioning expendable supplies or items of equipment,
only to have the requisition disapproved because the Tashkil did not authorize the item in
question, further burdening the already dysfunctional MoD Form 14 supply requisition system.




                                           Figure 8. Afghan Army Tool Kits 1



Applicable Criteria (See Appendix C, Number 10, for additional details.)

      •    Combined Security Transition Command – Afghanistan, “Campaign Plan for the
           Development of the Afghan National Security Forces,” September 20, 2008.


Discussion
The Tashkil authorizes a unit to have certain items of equipment, in addition to establishing
personnel authorizations.

Some of these equipment items contain sub-parts/assemblies that contribute to the functionality
of equipment as a whole, but which are not listed separately on the Tashkil. For example, while

28
     Supplies/material/equipment that are consumed in use, such as ammunition, paint, fuel, cleaning and preserving
     materials, surgical dressings, drugs, medicines, etc., or that lose their identity, such as spare parts, tools,
     components of a kit or tool set etc. Also called consumable supplies and materiel.


                                                          77
the Tashkil authorizes a tool kit, it does not list the approximate 100 individual tools in the kit.
While authorizing a welding set/kit, it does not list separately the helmet and individual
expendable items (welding rods, etc.) required to make the kit functional. Authorized vehicles
require items like jacks, tire tools, and spare tires, again not specifically listed on the Tashkil.
However, in all of these examples, the entire kit/piece of equipment will not function effectively
without these individual components.

Likewise, daily operations require expendable items of equipment and supply not listed on the
Tashkil. Examples include:

   •   Boots,
   •   Uniforms,
   •   Kevlar helmets,
   •   Repair/spare parts, and
   •   Other expendable supplies (copier paper, etc).

There is some guidance from the MoD/GS regarding issue of some types of expendable supplies,
but this guidance often does not sufficiently address they reality of units and personnel in
combat. Examples include:

   •   Two battle dress uniforms per soldier per year, and
   •   One pair of boots per soldier per year.

Past quality issues with battle dress uniforms and boots exacerbated the issue, a situation
reportedly since corrected. Regardless, ANA soldiers in combat in the rugged Afghan terrain
will wear out more than two battle dress uniforms and one pair of boots per year.

Generally, ANA Tashkils, like U.S. Army MTOEs, authorize major items of equipment, like
vehicles, weapons, sets, and kits. The Tashkils usually do not list the individual components of
the sets and kits, or items like jacks, spare tires, and expendable supplies required to make the
sets and kits functional. However, ANA logistics personnel at corps and below, and their
U.S./CF trainers, report that MoD 14 requests for these types of items and expendable supplies
are often disapproved because they are not authorized on the Tashkil.

Establishing an ANA Common Table of Allowances (or the Afghan equivalent) that effectively
addresses the expendable supply requirements of units in combat and that authorizes the
requisition of such supplies is a necessary requirement for a functional ANA logistics system.

Recommendation
16. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, assist the Ministry of Defense and the
General Staff to develop a Common Table of Allowances-like document to address the
expendable supply issue.




                                                 78
Management Comments
NTM-A/CSTC-A concurred with Recommendation 16, but did provide any details on how they
planned to address the intent of the recommendation.

Our Response
We ask that NTM-A/CSTC-A provide a synopsis of steps taken or planned that address the
intent of Recommendation 16.




                                            79
Observation 17. Vehicles and Equipment Destroyed in
Combat/Accidents
The process for turning in vehicles destroyed in combat/accidents and removing them from the
unit property books is inefficient, confusing, and time-consuming.

This occurred because:

   •   The processes outlined in Decrees 4.2 and 4.9 for disposal/removal from the property
       book of vehicles destroyed in combat/accidents are overly-centralized and time
       consuming, and
   •   The processes in the two decrees are slightly different.

This leads to:

   •   An increasing inventory of destroyed vehicles/equipment at ANA motor pools that have
       little or no combat or other military value, but still require accountability,
   •   Theft/diversion of serviceable parts from destroyed vehicles/equipment that could be
       utilized in the ANA supply system, and
   •   An inability to requisition replacement vehicles/equipment, because the
       damage/destruction of the originals had not been documented.

Applicable Criteria (See Appendix C, Number 14, 17, 24, and 27, for additional details.)

   •   Decree 4.2, MoD, Office of the Assistant Minister of Acquisition, Technology, Logistics,
       “Materiel Accountability Policy and Procedures”, June 2009.
   •   Decree 4.9, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Maintenance Management Policy and Procedures,” August 2010.
   •   DODI 5000.64, “Accountability and Management of DOD Equipment and Other
       Accountable Property,” May 19, 2011.
   •   DOD 4140.1-R, “DOD Supply Chain Materiel Management Regulation,” May 23, 2003.


Discussion
ANA and U.S./CF personnel in all four ANA corps and RCs that the OIG team visited reported
turn-in of destroyed equipment and removal from unit property books as an issue.

ANA units are unable to turn in damaged or destroyed equipment in a timely manner, if at all.
Each location visited had storage yards full of destroyed equipment that should be turned into the
supply system and/or cannibalized for spare/repair parts. In some instances, newly assigned
company commanders did not want to take responsibility for equipment destroyed under
previous commanders. In those instances, no one was actually signed for the destroyed
equipment, but it was still on the property book. Furthermore, a replacement vehicle or piece of




                                               81
equipment could not be requisitioned while the destroyed vehicle/equipment was still on the
property book.

The processes for turning in destroyed
vehicles/equipment and removing them
from the property book is overly
centralized and time consuming.
Regardless of how the damage/loss
occurred, the applicable MoD Decrees
require signatures from the:

   •    Company commander,
   •    Kandak S-4,
   •    Kandak commander,
   •    Brigade maintenance officer,
   •    Brigade commander,
   •    Corps G3,                                         Figure 9. Destroyed ANA Vehicles
   •    Corps G2,
   •    Corps G4, and the
   •    Corps commander.

Acquiring all of these signatures is difficult given the geographic dispersal of the
commanders/staff officers involved and the largely paper-based ANA logistics system.
Additionally, some corps commanders reportedly will not authorize the turn in of the destroyed
equipment and removal from the property books until the MoD/GS G4 staff reviews the
paperwork, further delaying the process.

The same process is required for authorization to cannibalize a repair part off of a destroyed
piece of equipment, although corps commander generally exercises his approval/disapproval
authority. However, U.S./CF trainers report that many of the destroyed vehicles have already
been stripped of parts that were likely sold on the black market.

Additionally, the apparent difference between MoD Decrees 4.2 and 4.9 regarding turning in of
destroyed equipment tends to confuse ANA logisticians and their Coalition trainers.

    •   MoD Decree 4.2, page 8-4.5, states that, once signed for by supporting supply activity,
        the MoD Form 9 is turned-in to the property book officer, who will remove the item
        from the property book records.
    •   MoD Decree 4.9, page 100, directs the use of MoD Form 64 to remove damaged or
        destroyed equipment from the Afghan system and off the unit property book.

U.S./CF trainers also asserted that the MoD/ANA requirement that a vehicle be 80 percent
destroyed before it can be “coded out” for turn in and a replacement requisitioned is too high a
threshold. Given the realities of frequent damage to vehicles in the war zone and combat
requirements, they believed that a 60 percent destroyed requirement would be more realistic.




                                                82
ANA commanders and their U.S./CF trainers reported that, even with approval to turn in and
removal destroyed equipment, they cannot get the destroyed equipment removed from their
motor pools, and it continues to occupy storage space needed for ongoing maintenance
operations.

One ANA brigade the OIG team visited reported that they had recently received approval to turn
in/remove from the property books 90 of the 115 destroyed vehicles they had on hand. They
also noted that it took them four years to accomplish this task—four years when they had a
significantly degraded combat capability associated with destroyed vehicles and could not
requisition replacements.

All of this often tends to convince ANA logisticians and commanders to make no effort to turn in
destroyed equipment because:

    •   It is too hard,
    •   It takes too long,
    •   The paperwork gets lost, and
    •   The request remove it will not be approved anyway.

The loss of combat capability in ANA units associated with this issue is significant, expanding,
and is not sustainable.

Recommendation
17. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, assist the Ministry of Defense and the
General Staff to establish a systematic process for removal of vehicles declared destroyed that
decentralizes and speeds decision-making, while maintaining accountability and enhancing
readiness through an improved ability to requisition replacement equipment.

Management Comments
NTM-A/CST-A concurred with comment for Recommendation 17, noting that CJ44, has
developed a FRAGO, in conjunction with ISAF J4, to direct actions required by Coalition,
NTM-A, Contractors, and ANA to develop a Logistics Common Operating Picture. Focused
actions are on Battle Loss reporting and vehicle code out, identification of Non-Mission Capable
Equipment, and repair parts required to correct faults. Coordination efforts with MoD Advisors
to conduct strategic requirements are under way. The recommended process is the constituent
element of the already validated Decree 4.9. Additionally, the DCOM-Army Commander is
promoting this process across the ANA. Not only has he promised a replacement vehicle for
each vehicle correctly removed from the Property Book, he has also started reducing fuel
allocation each month for the amount of estimated battle-loss vehicles.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 17 were responsive. We will request an
update in six months on the FRAGO implementation and subsequent management of the
Logistics Common Operating.



                                               83
PART VI - ACCOUNTABILITY




           85
86
Observation 18. Fuel Accountability
Internal controls for fuel accountability and management are inadequate at some FSD.

This shortfall exists primarily because there is a lack of enforcement of published MoD
procedures written to ensure transparency and accountability within the fuel storage and
distribution supply chain. Lack of enforcement is further complicated by:

   •   Poor support from logistics leadership within the ANA to provide equipment used to
       track and monitor both the quality and quantity of fuel as it is moved through the supply
       chain, and
   •   A shortage of trained logistics Officers and NCOs that understand the policies and
       procedures.

As a result, the ANA is unable to prevent abuse of the fuel supply system.

Applicable Criteria (See Appendix C, Numbers 7, 16, 24, and 31, for additional details.)

   •   Center for Army Lessons Learned Handbook 10-08, “Partnership: Development of
       Logistics Capabilities,” November 2009.
   •   Decree 4.6, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Afghan National Army - Petroleum, Oil and Lubricant (POL) Section
       Organization, Responsibilities and Procedures,” August 2010.
   •   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October 27, 2010.
   •   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
       Afghanistan” – Annex R: Logistics, October 9, 2010.

Discussion
DOD Instruction 5000.68 and the Center for Army Lessons Learned Handbook 10-08 identifies
the development of a host nation security force logistical system as a key capability necessary for
sustained and effective operations. Collectively, the two documents state that development of
the logistical capability should focus on key infrastructure and support aspects that provide for
the ability of the security forces to “shoot, maneuver and communicate.” The development of
the host nation’s logistics capability must also include prudent management of key enabling
elements of supply. A critical enabler for military operational maneuver is Class III supply
(fuel). Careful planning for proper accountability and control is imperative to maintaining that
capability.

MoD Decree 4.6, “Afghan National Army - Petroleum, Oil and Lubricant (POL) Section
Organization, Responsibilities and Procedures” establishes ANA fuel policy. The policy states
that one of the major support sections of the ANA is POL management, which plays an
important role in the support of combat activities at all levels. The basis of the ANA POL
system is national military policy and defense planning for the country. Appropriate use of
material resources is a high priority objective. An effective system of oversight over the use of



                                                87
POL will enable the ANA to use available POL and facilities more effectively, without waste,
fraud, or abuse of government assets.

During the course of our assessment, most of the U.S./CF ANA logistics trainers reported
                                                          diverted/stolen fuel as the number
                                                          one supply abuse within the ANA.
                                                          One U.S./CF trainer stated, “Fuel is
                                                          synonymous with corruption and
                                                          theft; it is the number one abused
                                                          item.”

                                                            Decree 4.6, further defines the roles
                                                            and responsibilities of Class III
                                                            (fuels) depots at the national level. It
                                                            states that commanders at Class III
                                                            Depots are responsible for all aspects
                                                            of fuel management and
                                                            accountability at their respective
                                                            depot. Specific responsibilities
                                                            include, but are not limited to:
                 Figure 10. ANA Fuel Point


   •   Forecasting mission and reserve POL requirements to ensure an adequate fuel supply is
       available,
   •   Testing fuel received from vendors and other sources upon receipt, ensuring it meets
       quality control specifications,
   •   Establishing organizations authorized to handle/store/use fuel in accordance with
       prescribed procedures,
   •   Training POL personnel in all areas of fuel handling, storage, quality control, and safety,
       and ensuring documentation of that training on a MoD Form 623A,
   •   Maintaining accurate fuel accountability records to account for fuel under depot control,
       retaining these records for the prescribed time in accordance with Decree 4.0 and Decree
       4.2, and
   •   Reporting spills and mishaps to proper higher authorities, ensuring environmental
       compliance.

MoD promulgated these guidelines in August 2010 and reportedly directed ANA units to
implement them nine months prior to the team’s site visits. However, enforcement of the
published decrees and their associated procedural guidelines by ANA officials at the FSD and
corps levels has reportedly been generally problematic.

A significant contributor to ineffective policy enforcement is a shortfall of trained logistics
officers and NCOs to manage fuel supply operations. Their oversight is essential to prevent
fraudulent actions. As explained by one U.S. trainer, theft of fuel often occurs right at the
pumps. ANA personnel leave the pumps unlocked and unattended, failing to maintain control
and oversight of them.



                                               88
As a result, theft of fuel has become a significant logistical system challenge. As an example,
one U.S./CF trainer described a known fuel theft technique involving Afghan contractors
reporting the complete loss of a fuel delivery vehicle. He explained that the contractor
responsible for delivering fuel has a monetary cap on financial liability for the loss of a vehicle,
regardless of the contents, to include fuel. If the Afghan contractor’s liability cap is $15,000 and
the contractor can sell the fuel load plus the truck for much more than $15,000, then the
contractor has a profit-making incentive for reporting the truck stolen.

Another U.S. logistics trainer provided an example of accountability breakdown caused by weak
internal controls. He stated that, “When providing authorized military organizations with fuel, in
accordance with prescribed procedures, the fuel is allocated on a vehicle by vehicle basis. Many
vehicles rarely get operated, yet these idle vehicles regularly show up with empty tanks
requesting more fuel.” The trainer noted that Coalition trainers had proposed implementing
stronger internal controls, requiring that all fuel-consuming equipment have an identification
number. The issuing organization would issue fuel and track consumption against that
identification number, thus preventing fraud. As of May 2011, the MoD/ANA had yet to
implement such a system.

The MoD logistics decrees require testing of fuel prior to receipt from a vendor. This is to
prevent diluting the fuel with water or other substances pursuant to its theft. However, the fuel
test strips necessary for this testing were rarely available at the FSDs, despite repeated MoD 14
supply requests.

Managing fuel requires careful accountability. However, according to Coalition trainers and
mentors, the ANA logistical system resists imposing processes and procedures that would enable
fuel accountability and control because it would provide visibility into the illegal use of Class III
supplies. One corps G-4 U.S./CF trainer described the problem this way:

               Class III fuel is distributed by contractors to the kandaks, but there is no tracking
               system in place. The kandaks submit MoD 14 fuel supply requests, contractors
               then deliver the fuel directly to the units, subverting the Corps visibility over
               fuel distribution. To compound the problem, there are no test kits to ensure
               water is not being added before the fuel gets to the kandaks, and the trucks
               aren’t even certified, so there is no way to determine the real quantities being
               delivered. There is no definitive calibration procedure to support certification.

In summary, a lack enforcement of published MoD procedures that contain many of the
necessary controls, checks, and balances, a shortage of trained ANA logisticians, and ineffective
ANA command supervision have collectively contributed to weak internal accountability and
control of the fuel supply system and resulted in persistent fuel theft.




                                                       89
Recommendations
18. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan:
   a. Coordinate with the Ministry of Defense/General Staff to jointly assess fuel
accountability and management issues at Forward Support Depots and implement effective
internal controls to prevent abuse and theft.
  b. Coordinate with the Ministry of Defense/General Staff to provide necessary fuel testing
equipment/material to the Forward Support Depots.
  c. Mentor the Minister of Defense/Chief of the General Staff to designate fuel
accountability as a Ministry of Defense/General Staff Inspector General special interest item.
   d. Ensure that Coalition logistics support trainers and mentors are supporting appropriate
fuel accountability and control procedures, and reporting through the chain of command
instances of fuel fraud, waste, and abuse.


Management Comments
NTM-A/CSTC-A concurred with comment for Recommendation 18.a, stating the mechanisms
are in place for accountability per Decree 4.6. The main challenges are manpower, leadership
and advisors enforcing Decree 4.6. Leadership at the national level and below is unpredictable,
some do not follow the Decrees, some are indifferent, but there is a good portion of ANA that
want to do the right thing. A compounding factor is that the FSDs and subordinate units are not
fully manned or equipped. As a result, logistics troops are used for guard duty and other details,
taking the experience and knowledge from where it should be. This is a focus area of the
Phoenix Group described in Response 2a.

NTM-A/CSTC-A concurred with comment for Recommendation 18.b, noting the fuel testing
kits for the National Fuel Depot and the Forward Support Depots are either delivered (five
locations) or a Push Letter exists to push the kits (two locations). However, specific training on
proper use the fuel testing kits is necessary for ANA and Coalition Force personnel. Currently,
there are fuel test kits and water separation units available for the ANA in storage at Depot 1.
The challenge is there are no trained ANA members who know how to use these items at the
FSDs nor are their CF trainers available to train the ANA. This issue has been recommended as
a new point of instruction for the CSS training curricula.

NTM-A/CSTC-A concurred with comment for Recommendation 18.c, stating there are several
ongoing investigations into fuel irregularities. When these investigations are complete, the
recommendations should assist in the command developing a way forward from a ministerial
development perspective. In the mean time, Senior Advisors will begin to socialize fuel
accountability as a special interest item to the highest levels of the Ministry of Defense. These
actions should be complete by the end of the first quarter FY12.

NTM-A/CSTC-A concurred with Recommendation 18.d, but did not provide any details on how
they planned to address the intent of the recommendation.




                                                90
Our Response
NTM-A/CSTC-A’s comments to Recommendation 18.a were responsive. We request a copy of
the Phoenix Group meeting minutes for this focus area along with the determined Course of
Action and planned milestones to implement and manage effective internal controls.

NTM-A/CSTC-A’s comments to Recommendation 18.b were responsive. No further action is
required at this time.

NTM-A/CSTC-A’s comments to Recommendation 18.c were responsive. We request a copy of
the NTM-A/CSTC-A’s directive/corrective action stemming from the outcome of the
investigations.

NTM-A/CSTC-A’s comments to Recommendation 18.d were partially responsive. We ask that
NTM-A/CSTC-A provide a synopsis of steps taken or planned that address the intent of the
recommendation.




                                           91
Observation 19. Unusable High Explosive Artillery Shells
Unusable 155mm howitzer shells were stored at the Ammunition Supply Point (ASP) at Forward
Supply Depots 2 and 6, supporting the 205th and 203rd Corps, respectively.

NATO countries or the U.S. reportedly provided these shells, used in the M114 155mm
howitzer. However, the ANA does not have any M114 155mm howitzers. They use the Soviet
D30 howitzer, which fires a 122mm round. As a result, the 155mm shells stored at the FSDs are
excess munitions.

This has led to:

   •   Needless consumption of limited storage space at the ASPs,
   •   Unnecessary explosive safety risk caused by increased net explosive weight from the
       excess rounds,
   •   Increased environmental hazards due to the presence of waste military munitions
       (WMM), and
   •   Increased risk that unusable munitions could become unaccounted for and used against
       Coalition and ANA forces in Improvised Explosive Devices.

Applicable Criteria (See Appendix C, Numbers 15, 25, and 38, for additional details.)

   •   Decree 4.5, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Afghan National Army - Ammunition and Explosive Operations Policy and
       Support Procedures,” August 2010.
   •   DOD 6055.09-M, Volume 7, “DoD Ammunition and Explosives Safety Standards: Criteria
       for Unexploded Ordnance, Munitions Response, Waste Military Munitions, and Material
       Potentially Presenting an Explosive Hazard,” February 28, 2008, administratively reissued
       August 4, 2010.
   • Title 40, Code of Federal Regulations, Environmental Protection.

Discussion
Over the last two decades, the Environmental Protection Agency, developed and promulgated
amendments to several sections within Title 40 Code of Federal Regulations, Environmental
Protection that established standards for the identification, storage, transportation, and
emergency responses for Waste Military Munitions (WMM).

In response to these changes in Title 40, the DOD developed and promulgated policy to
implement the standards, effective 1 July 1998. This policy, commonly referred to as the
Munitions Rule Implementation Policy, established the military Services’ policy for the
implementation and management of WMM. The policy requires identification and proper
disposal of excess, obsolete, and unserviceable munitions that could potentially become
hazardous waste. Although the 155mm rounds are Afghan property and, as such, not subject to
Title 40 and DOD policies, they are unusable for their intended purpose and Title 40 and DOD
policy provides a guide for their disposition.



                                               93
In accordance with Decree 4.5, the Assistant Minister of Defense for Acquisition, Technology,
and Logistics is responsible for establishing a comprehensive ammunition policy to sustain the
Afghan military during peace and wartime. Part of this policy encompasses assigning
responsibility for the management of the storage, issue, safety, and security of ammunition. An
appointed Ammunition Program Manager is required to manage the budgeting, procurement, and
acquisition of ammunition for all ammunition requirements of the Afghan military. In addition,
the Ammunition Program Manager has the responsibility for all aspects of munitions
management, including accountability, safety, and disposal.

ANA officials from FSD 2 and 6 have reportedly requested the authority to turn-in these excess
munitions, which have been stored at the FSDs for over two years. As of May 2001, MoD/GS
had not approved their requests.

In accordance with the MoD Decree 4.5, the Ammunition Program Manager should take control
of the excess 155mm ammunition to ensure its proper safety and disposal. This policy and
management approach would fall in line with current U.S. and DOD policy on excess munitions.

The continued presence of unusable 155mm howitzer artillery rounds at ASPs presents an
opportunity for corrupt transfer to the black market and represents a potential threat to U.S. and
Coalition, as well as ANA forces. They take up storage space at ASPs and present potentially
detrimental safety and environmental concerns.

Recommendation
19. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, request MoD approval to arrange for the transfer
of these shells to U.S./Coalition custody/accountability for appropriate disposal.


Management Comments
NTM-A/CSTC-A concurred with comments for Recommendation 19, verifying the existence of
a plan for the timely expansion of the 5th Forward Support Depot (FSD) Ammunition Supply
Point (ASP) adequate to maintain sufficient resupply for 215th Corps operations. There is in
place, a construction project outlined to construct a quantity of Twenty (20) NATO Standard
Ammo Magazines at Camp Shorabak, Nahraisraj District, Helmand Province that is contracted,
funded and proceeding. NTM-A/CSTC-A will communicate and monitor this project according
to recommendation. The US Army Corps of Engineers/CJ-Engineering has Contract # W5J9JE-
10-D-0016 0004, dated 17 Sept 2011, with a current completion date (BOD) of 3/17/2012.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 19 were partially responsive at addressing
the observation. We ask that NTM-A/CSTC-A request MoD approval to arrange for the transfer
of the excess/unusable 155mm shells to U.S./Coalition custody/accountability for appropriate
disposal.




                                                94
Observation 20. Accountability for Damaged, Destroyed,
Lost, or Stolen Vehicles and Equipment
When negligence results in damage, destruction, loss, or theft of ANA vehicles or other military
equipment, ANA commanders have not uniformly enforced existing MoD/GS policy decrees that
require a determination of accountability.

The concept of individual soldier responsibility for equipment damaged, lost, or stolen is still not
commonly understood or accepted. Although ANA field commanders generally understand that
MoD logistics decrees require accountability, they do not implement the intent of the decrees.

As a result, there exists a general perception among individual ANA soldiers and commanders
that there are no consequences for negligent destruction or loss of ANSF-provided equipment.
This has contributed to vehicle/equipment damage and loss of equipment largely supplied by the
U.S./CF at an unacceptable and unsustainable level. Moreover, the absence of broad acceptance
by ANA leadership of accountability as a critical requirement portends that the ANA may not
maintain its core equipment at the required levels of operational readiness in the future.

Applicable Criteria (See Appendix C, Numbers 3, 5, 14, 28, and 32, for additional
details.)

       •   Army Field Manual 3-07, “Stability Operations,” October 2008.
       •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.
       •   Decree 4.2, MoD, Assistant Minister of Defense for Acquisition, Technology and
           Logistics, “Material Accountability Policy and Procedures,” June 2009.
       •   Government Accountability Office Report (11-66), “Afghanistan Security: Afghan Army
           Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” January
           2011.
       •   Joint Center for International Security Force Assistance, “Afghan National Army (ANA)
           Mentor Guide,” March 25, 2011.

Discussion
By the end of FY 2011, the U.S. will have spent about $38.46 billion providing training and
equipment to the ANSF via the ASFF. Additionally, donor nations have contributed equipment
worth approximately $470 million since 2010, with vehicles, weapons, and aircraft comprising
the majority of the donated value.” 29 Understandably, both the U.S. and the donor nations
expect the ANSF to exercise due diligence in the use and care of provided equipment and
vehicles.

U.S./CF trainers reported that ANA commanders at all levels recognized their responsibility for
stewardship of ANA equipment and vehicles. However, the trainers also reported that they had
not seen evidence that established procedures for individual accountability were routinely
enforced. While almost every trainer reported instances of ANA vehicle/equipment destruction

29
     Government Accountability Office Report No.11-66, “Afghanistan Security,” January 2011, p. 9.


                                                         95
or damage resulting from operator negligence, none of them could recall an ANA soldier or
commander being held accountable. Examples cited by U.S./CF trainers include:

      •    Ninety percent of vehicles delivered from Depot 2 were missing equipment, such as spare
           tires, jacks, and tools,
      •    Thousands of dollars worth of mechanics tools unaccounted for/lost/stolen,
      •    Lack of operator maintenance leading to costly and time-consuming repair,
      •    Tools and other equipment (jacks, tire tools, spare tires) disappearing from vehicles on
           convoys, and
      •    Vehicles wrecked due to operator negligence.

There are legitimate reasons for the damage, destruction, and loss of equipment, including:

      •    Combat,
      •    Difficult environment,
      •    Insufficient training, and
      •    Insufficient experience.

The MoD/GS and the ANA have established policies and procedures in place that provide
commanders the authority to hold their personnel, both uniformed and civilian, accountable.
Decree 4.2, Section 12-5, directs ANA commanders to investigate to determine the
circumstances surrounding the loss, damage, or destruction of equipment. Section 12-3 of the
Decree further directs:

                   Commanders determine whether the cause of loss, damage or destruction
                   warrants adverse administrative or disciplinary action and take appropriate
                   action. These actions include, but are not limited to:

                       •    An oral or written reprimand,
                       •    Appropriate remarks in evaluation reports,
                       •    Removal from position,
                       •    Non-judicial punishment,
                       •    Suspension of privileges, and
                       •    Withholding of wages, up to a month’s basic pay. 30

Given the sufficiency of MoD/GS policy and procedure regarding equipment accountability, the
apparent failure to enforce their use would appear, in part, to be a lack of leadership
understanding of the operational importance of maintaining and sustaining core equipment. This
situation is aggravated by the shortage of well-trained logistics personnel to consistently carry
out these functions.

In addition, according to this and other field assessments the team has conducted, Coalition field
trainers and mentors, who are frequently assigned or one year or less, have tended to
understandably prioritize the ANA’s immediate operational need for equipment, rather than the


30
     Assistant Minister of Defense, Acquisition, Technology, and Logistics Decree 4.2, June 2009, p. 60.


                                                          96
longer-term and more difficult task of instilling an ANA culture of equipment sustainability and
accountability. The fact that the ANA has not had a functioning logistical system capable of
reliably providing equipment and parts has also made the Afghan military reliant upon the
U.S./CF to perform logistical supply roles, rather than developing its own capabilities.

However, the future operational readiness of the ANA will increasingly depend on the
commitment and ability of commanders to account for and maintain unit equipment, sustained by
the ANA logistical system. Therefore, MoD/GS and its ANA field commands must proactively
apply their existing MoD decrees regarding equipment accountability, supported by active
U.S./CF mentoring, consistent with guidance issued to mentors/trainers regarding accountability
of U.S./CF-provided equipment. 31

There is some evidence that the recovery of material/equipment diverted and/or stolen from the
ANA is improving. However, significant challenges remain in promoting responsibility and
accountability for equipment, both at the command and individual soldier level.

The U.S./CF provides almost all of the ANA’s equipment and supplies through NTM-A/CSTC-
A. Consequently, the U.S./CF has the leverage to do more than just encourage the MoD/GS and
ANA leadership to pursue greater stewardship, at both the command and personal levels. When
ANA equipment/material is destroyed or missing, a determination of command and personal
accountability must be made and enforced regarding command and/or personal accountability.

Recommendation
20. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the Ministry of
Defense/General Staff, establish a process for ensuring that a verifiable ANA determination is
made and enforced as to command/personal responsibility/accountability when ANA
equipment and material is destroyed or missing.


Management Comments
NTM-A/CSTC-A concurred with comment for Recommendation 20, noting that transparency on
both the ANA and the Coalition Force side is essential to building a logistics system. Mentors at
all levels are charged with enforcing a sense of ownership through proper accountability. In an
effort to improve accountability across the board, the ANA initiated a 100 percent inventory of
all vehicles, weapons, and Night Vision Devices. At the completion of the weapons inventory,
the ANA will conduct a 100 percent inventory of communication devices. The ANA does not
have a Manual for Courts Martial or the Uniform Code of Military Justice, but they are making
steps forward in enforcement of disciplinary action.




31
     Joint Center for International Security Force Assistance, Afghan National Army Mentor Guide, 25 March 2011,
     p. 3-10.


                                                        97
Our Response
NTM-A/CSTC-A’s comments to Recommendation 20 were responsive. We will request an
update in six months on the status of the ANA inventories conducted along with the correlating
disciplinary actions used to enforce ANA accountability and promote greater stewardship.




                                              98
Observation 21. Class VIII Warehouses at the 2nd and 5th
Forward Support Depots
Unusable medical supplies were on-hand at the Class VIII Medical Supply Warehouses at the 2nd
and 5th FSDs, supporting 205th and 215th Corps, respectively. At the 2nd FSD Class VIII
warehouse, supplies were stacked floor to ceiling and stored outside. At the 2nd FSD, an
inventory to establish accountability had not been conducted.

This has occurred because the Class VIII warehouses at those locations do not have sufficient
trained and literate ANA personnel assigned to conduct a baseline inventory, organize the
warehouse supplies, and identify and dispose of unusable supplies. Coalition personnel were
overwhelmed attempting to address the problems themselves. In addition, a Coalition and MoD
“push” of medical supplies had recently arrived that was not based on an evaluation of what
medical materiel these depots actually required.

This has resulted in the delivery of unneeded types and quantity of certain medical supplies and
shortages in other priority medical requirements. The lack of efficient management of these
warehouses and shortages of required medical supplies impeded the FSDs from effectively
supporting the medical facilities of the ANA 205th and 215th Corps.

Applicable Criteria (See Appendix C, Numbers 5, 12, 19, and 33, for additional details.)

       •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.
       •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, Logistics,
           “Supported and Supporting Unit Logistics Policy and Support Procedures,”
           January 2009.
       •   Decree 5001, “Ministry of Defense Organization and Functions Manual,” Chapter 38:
           Medical Command, March 29, 2011.
       •   Joint Center for International Security Force Assistance, “Afghan National Army Mentor
           Guide,” March 25, 2011.

Discussion
The ANA’s overall management and accountability of Class VIII equipment and material nation-
wide has been problematic, as noted in the recent DODIG “Assessment of the U.S. Department
of Defense Efforts to Develop an Effective Medical Logistics System within the Afghan
National Security Forces,” issued June 14, 2011. 32

Problems have occurred, not withstanding established MoD policy and procedures on how to
manage equipment and supplies. Decree 4.0, Ministry of Defense, Office of the Assistant
Minister of Acquisition, Technology, Logistics, “Supported and Supporting Unit Logistics
Policy and Support Procedures,” January 2009, states:



32
     Report No. SPO-2011-007, “Assessment of the U.S. Department of Defense Efforts to Develop an Effective
     Medical Logistics System within the Afghan National Security Forces,” p. 57, para 1.


                                                        99
   •   Authorization for on-hand material is based on what a unit reasonably needs to
       accomplish its mission.
   •   Any materiel over and above authorization is excess.
   •   Units should not accumulate materiel in excess of total authorization and should turn-in
       any excess quantities on hand.
   •   Stock control includes the process by which officials’ record and account for materiel
       disposal.

Under the MoD, the General Staff, Logistics (GS-G4), via the newly established ASC, has the
responsibility for overseeing military logistical functions and activities. This consists of:

   •   Supply and maintenance oversight,
   •   Transportation management,
   •   Resource management,
   •   Budget execution, and
   •   Oversight and inspection.

Although the OIG team found the Class VIII warehouses at the 1st and 4th FSDs, supporting 209th
and 203rd Corps, respectively, to be well-organized, the Class VIII warehouse at the 2nd FSD,
supporting 205th Corps, was essentially dysfunctional, despite the efforts of the U.S. trainers and
ANA personnel assigned there. The warehouse had pallets of medical supplies stacked wall-to-
wall, all the way to the ceiling in some cases. These pallets came from the United States Army
Material Medical Center - Europe (USAMMCE). Although NTM-A/CSTC-A CJ4 supposedly
halted the “push” of medical supplies, U.S. trainers reported convoys continued to deliver
unordered (pushed) equipment and supplies.

Among discrepancy issues noted at the Class VIII warehouse were:

   •   About 120 pallets of un-inventoried medical supplies stored inside,
   •   Approximately 80 pallets of un-inventoried medical supplies stacked outside,
   •   An additional 12 shipping containers full of un-inventoried medical supplies,
   •   Six new, unrequested and reportedly unneeded, lab refrigerators,
   •   Over 4,000 plastic bed pans, far exceeding the need for on-hand quantities, and
   •   On-hand pharmaceuticals that were reportedly expired.

U.S. trainers opined and the assessment team observed that much of the medical equipment and
supplies at these two FSD Class VIII warehoused may be useless due to age and condition.
Further, the lack of appropriate documentation or labeling on most of the pallets will make
inventory and organization/accounting of the supplies difficult and time consuming. Moreover,
the recent transfer of responsibility for the ANA Class VIII medical supply warehouses from the
Medical Command to the Logistics Command delayed the assignment of ANA personnel. There
were only five ANA soldiers present at the 2nd FSD Class VIII warehouse and only one was
literate. Additionally, there was only one U.S. trainer assigned and working there, strenuously
trying to instill order and accountability.

The OIG team found the Class VIII warehouse at the 5th FSD, supporting 215th Corps, in
relatively better condition. While the warehouse was well organized, they were still understaffed


                                               100
and the facilities were inadequate in that they did not have the capability to store supplies
requiring refrigeration. In fact, the FSD Commander had requested, through his ANA chain of
command, that NTM-A/CSTC-A stop “pushing” supplies until he had this essential storage
capability. Further, the OIG team noted that many of the medicines had expired, and that the
FSD and corps medical facilities were purchasing critically required medicine on the economy.

Recommendations
21. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command, mentor the Ministry of Defense/General Staff to:

  a. Provide assistance to organize and inventory the Class VIII warehouse at the 2nd Forward
Support Depot.

  b. Remove and destroy expired/unusable pharmaceuticals.

   c. Conduct an inventory of the medical supply, equipment, personnel, and space
requirements at all Forward Support Depot Class VIII warehouses and appropriately address
these needs, as identified.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 21.a, commenting that advisors should
provide required assistance in conducting inventories, specifically the provision of literate
personnel, however ANA personnel should be directly involved in conducting inventories. It is
critical ANA manning levels are sufficient in order to enable Afghans to organize and inventory
warehouses. The new mentors assigned at the 2nd FSD in Kandahar are taking an active role in
mentoring, inventorying, managing, and distributing medical equipment and supplies and have
extensive reports and photographs of their progress.

NTM-A/CSTC-A non-concurred with Recommendation 21.b, noting that only the ANA can
choose to destroy their materiel and only through their own decree processes; the ANA has
consistently chosen not to. NTM-A/CSTC-A CJ-SURG/CJ-4 submitted draft verbiage on
recommended expired pharmaceutical disposition instructions for inclusion in the MoD Decree
4.0 rewrite. Upon issuance of ANA guidance, compliance can be monitored by
NTM-A/CSTC-A advisors at affected facilities.

NTM-A/CSTC-A concurred with Recommendation 21.c, but provided no timeline for
completion of the inventory.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 21.a were responsive. We will request an
update in six months on the completed status of Class VIII inventory at 2nd Forward Support
Depot.

NTM-A/CSTC-A’s comments to 21.b were responsive. We request a copy of the proposed
language for disposition of expired/unusable pharmaceuticals. Once published, we request a


                                              101
copy of the revised/updated Decree 4.0 for review to ascertain what changes were made to
correct this shortfall.

NTM-A/CSTC-A’s comments to 21.c were responsive. We will request an update in six months
on the status of the inventories for medical supply, equipment, personnel and space requirements
at all Forward Support Depot Class VIII warehouses.




                                              102
PART VII – MAINTENANCE




          103
Observation 22. Equipment Readiness Reporting
Some ANA commanders and G4/S4 officers at corps level and below were not aware of the state
of maintenance capability and related equipment/vehicle readiness in their subordinate
organizations.

This occurred because they had not complied with the MoD logistics decree designating
maintenance management as a command and staff responsibility. They had not made
maintenance capability/performance and equipment readiness a high priority. Moreover, some
ANA commanders and logistical staff were not accurately reporting their maintenance and
equipment status up the chain of command, thus leaving higher-level commanders and MoD/GS
leadership unaware of problems that existed.

The lack of a clear understanding of unit maintenance posture by ANA commanders and G4/S4
personnel could result in poor command/tactical decisions based on an incomplete, vague, or
inaccurate understanding of the maintenance capability and equipment readiness of their
organization. In addition, for the ANA to achieve logistics sustainability, it must depend on the
commitment of its leadership to maintaining the operational capability of vehicles and other
essential equipment. Until the ANA integrates this understanding and commitment into its
organizational culture, it will not be able to support the operational capability of its combat
forces in a sustainable manner.

Applicable Criteria (See Appendix C, Number 17, for additional details.)

   •   Decree 4.9, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Maintenance Management Policy and Procedures,” dated August 2010.

Discussion
We received comments and observed that ANA G4/S4 personnel at corps and below did not
have clear insight into the state of readiness regarding their units’ organizational equipment
status and, therefore, the state of operational readiness. This lack of awareness included
oversight and accountability of equipment assigned to their organizations. Some ANA
logisticians and commanders did not seem to understand that there is a MoD/GS decree requiring
accurate reporting of unit maintenance status and equipment readiness up the chain of command.

The following excerpts from MoD Decree 4.9, “Maintenance Management Policy and
Procedures” apply:

   •   Paragraph 5-1 “General” of Chapter 5 “Maintenance Management,” states that: “All
       Commanders are responsible for establishing command leadership and guidance to
       ensure all assigned equipment is maintained according to appropriate technical manuals,
       orders, and directives.”

   •   Paragraph 5-7 “Maintenance and Logistics Information Management
       Systems” advises that:



                                               105
               Information Management Systems, such as the Logistics Readiness Assessment
               Tool (LRAT), are valuable to the maintenance commander and staff officer.
               The reports help the commander and his staff to make informed and timely
               decisions regarding the work output of a maintenance organization.

       These types of reports provide information on equipment availability, maintenance
       backlog, estimated repair times, actual repair times, equipment types, equipment
       reliability, and personnel productivity.

   •   Paragraph 5-8. “Management Execution” states:

               The Corps and other higher headquarters provide command orders and
               instructions, supervision, assistance, and perform management and control
               functions to satisfy the maintenance requirements of supported units. The Corps
               Logistics Battalion and Combat Service Support Kandak commanders and their
               staffs manage and control the movement, mission assignment, and operations of
               their units to support Corps headquarters plans, policies, and directives.

Although MoD Decree 4.9 explicitly states that “all Commanders” are responsible for
maintaining organizational equipment, we found no written implementing directives
promulgated by commanders at and below corps establishing maintenance/readiness reporting
requirements for their organizations. Many ANA commanders do not view maintenance as
commander’s business, leaving it to their staff officers.

Decree 4.9 also states that G4/S4 personnel are directly responsible to their respective leadership
for in-depth knowledge and oversight of the maintenance program. It also informs them the
LRAT reporting system is a valuable tool for understanding and communicating the state of
equipment readiness within their respective units/organizations.

However, if the LRAT reporting requirement has not been required in a written order signed by
the commander, it may not be always be submitted. Additionally, U.S./CF advisors report that
LRAT submissions that do occur are often inaccurate.

Recommendations
22.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, coordinate for the Ministry of
Defense/General Staff to issue a cipher directing that Afghan National Army Commanders
establish written requirements for periodic equipment readiness reporting in their
organizations.

22.b. Commander, International Security Assistance Force Joint Command, direct trainers at
Corps and below to verify with their G4/S4 counterparts that these status reports on equipment
status are being submitted and are accurate.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 22.a, noting that coordination with the
MoD/GS resulted in the GS/G4 issuing Cipher #135 on 27 July 2011, which, among other things,
directed development of maintenance policies, procedures, and a readiness performance plan,


                                                    106
with special attention to maintenance units and the CSSKs. Additionally, the MoD GS/G4
Deputy for Maintenance issued a Maintenance Directive (Letter #554) on 3 August 2011 for
CSSKs and logistics support commands to use WebManage (part of the A-TEMP contract) to
report not mission capable (deadlined) equipment.

IJC concurred with Recommendation 22.b. Their response was classified and is available on
request.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 22.a were responsive. We will request an
update in six months on the implementation of GS/G4 Cipher #135 and the Maintenance
Directive Letter #554.

IJC’s comments to Recommendation 22.b were responsive. IJC has taken action to
institutionalize ANA maintenance management at corps and below through regularly scheduled
maintenance meetings with ANA maintenance commanders, staff officers, and their
U.S./coalition advisors/trainers. U.S./CF advisor/trainers are also receiving training on the
LRAT and the Afghan Readiness Reporting System. This should focus attention on the accuracy
of ANA maintenance readiness reporting. We will request an update in six months to determine
if the U.S./CF perception of a gap between ANA maintenance readiness reporting and ground
truth is narrowing.




                                            107
Observation 23. Shortage of Class IX Parts
A shortage of Class IX (spare/repair) parts caused a significant vehicle maintenance backlog that
negatively affected ANA operational readiness and impeded implementation of the new
A-TEMP ANA maintenance contract.

This situation occurred because the MoD-14 request process has not been an effective
mechanism for requesting resupply of parts and the Coalition-driven “push” supply system had
not yet established an ASL for Class IX parts at the FSDs and CSSKs. In addition, a parts
supply gap developed during the transition between the previous and current ANA maintenance
support contracts.

Without a robust and reliable supply system to provide sufficient spare/repair parts, the ANA
cannot maintain acceptable and sustainable levels of vehicles and equipment readiness.

Applicable Criteria (See Appendix C, Numbers 2, 12, and 17, for additional details.)

   •   Afghan National Army Tashkil.
   •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
       January 2009.
   •   Decree 4.9, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics “Maintenance Management Policy and Procedures,” August 2010.


Discussion
According to senior NTM-A/CSTC-A and IJC leadership, there has been an increased emphasis
on development of the ANA logistics/ maintenance capability during the current “Year of the
Enabler.” NTM-A/CSTC-A and IJC senior officers expressed conviction that the ANA would be
able to meet minimum essential logistics/maintenance capabilities by the end of 2014. In
discussions with Coalition and MoD/GS General Officers, they conveyed a priority commitment
to build the ANA logistical system capability consistent with the operational growth and needs of
ANA forces.

During August 2010, MoD Decree 4.9, “Maintenance Management Program Policy and
Procedures”, was released. Paragraph 3-1 “Logistics Support”, of the Decree states:

               Units of the Afghan National Army are provided logistics support for each Class
               of Supply by the Forward Support Depots of the Logistics Command of
               Acquisition, Technology and Logistics. Each Kandak, Combat Service Support
               Kandak and Corps Logistics Battalion has a depot or garrison facility to receive,
               store, issue, and account for materials of each Class of Supply, to include spare
               parts, for units assigned and supported.

The assessment team determined, however, that implementation of key aspects of the MoD/GS
Class IX repair/spare parts policy had not occurred. Reports from both Coalition trainers and
ANA leaders and logisticians at each of the Regional Commands and ANA corps visited by the


                                                     109
team identified lack of vehicle spare parts as a significant equipment readiness problem,
including both tactical (High Mobility Multipurpose Wheeled Vehicle [HMMWV]) and non-
tactical vehicles.




                           Figure 11. ANA Vehicles Waiting Repair Parts

At the time of this assessment, the ANA Class IX supply system was in a nascent stage of
development. Serious vehicle parts supply deficiencies existed that prevented repair of vehicles
and equipment, resulting in a significant number of unserviceable tactical and non-tactical
vehicles, as well as other equipment. This had negatively impacted operational readiness of
ANA units.

The RM-Asia contract that had provided vehicle maintenance and parts support for the ANA
terminated at the end of 2010 and the contractor apparently stopped stocking vehicle parts well
before the contract terminated. NTM-A/CSTC-A, in coordination with the MoD/GS, was just
beginning to put in place the new ASL at the FSDs and CSSKs. Furthermore, implementation of
the new A-TEMP contract depended on having spare parts, which were not yet available, to
enable contractor personnel at the CSSK level to train ANA mechanics and address the
significant backlog of vehicles needing repair.

There was a general lack of clarity and confusion within the ANA command and logistics chain,
and among NTM-A/CSTC-A/IJC/Sustainment Brigade/CF training personnel, regarding the
Coalition and MoD/GS plans for addressing vehicle parts supply deficiencies and when spare
parts would be supplied to support A-TEMP.

NTM-A/CSTC-A representatives informed the team that, in coordination with MoD/GS, they
were working to establish and push forward a functional ASL to each FSD sufficient to support
the immediate needs of CLKs and brigade CSSKs. An initial supply of about 200 of the most




                                               110
heavily demanded vehicle repair parts would lead the fill of the approximate 4,000 items in the
FSD ASLs.

Specific comments from ANA officers and U.S./CF trainers in the field concerning the spare
parts problems included:

   •   The G4 Director of Logistics, Office of the Assistant Minister of Acquisition,
       Technology, and Logistics,, said that part of their mission was to repair/maintain Tashkil-
       authorized vehicles/equipment across the corps, and not just replace unserviceable
       vehicles/equipment with new ones. This mission was difficult because of insufficient
       repair/spare parts. He added that, previously, the RM-Asia contract provided the
       repair/spare parts. He noted that there had been a recent influx of parts into the Central
       Supply Depot, resulting from recent NTM-A/CSTC-A contracting. ANA senior staff was
       working with the Coalition to determine which and how many repair/spare parts to send
       to the FSDs and CSSKs.

   •   Members of a U.S. Sustainment Brigade stated that they had established a mechanic
       school at the 203rd Corps in Gardez. They trained 70 ANA mechanics, but had almost no
       spare parts to repair vehicles.

   •   1st FSD trainers stated that the ANA Class IX repair/spare parts program was still in its
       infancy. They noted that the FSD started receiving some Class IX repair/spare parts in
       April 2011. The FSD currently had on-hand 150 lines of the 4000 repair/spare parts lines
       approved on their ASL to support vehicle/equipment repair.

   •   A 203rd Corps CSSK commander expressed confidence in the capability of his
       mechanics. If his CSSK had the appropriate kinds and numbers of repair parts, he
       believed they could fix anything.

   •   203rd Corps Coalition trainers advised the OIG team that the personnel in the CSSKs
       were very frustrated because Class IX parts were not available for even routine vehicle
       repairs. They reported that they sent a list of all of the parts they need to IJC and
       NTM-A/CSTC-A, but had still not received them. One trainer stated that, under the
       previous maintenance contract with RM-Asia, they could get the parts needed.

   •   An ANA brigade S4 in 205th Corps reported that the operational readiness rate of their
       up-armored HMMWVs on-hand was less than 60 percent. He reported that a MoD 14
       request almost never resulted in receipt of the requested part. (Neither he nor his U.S.
       trainer understood that the MoD 14 system would not function efficiently until the
       NTM-A/CSTC-A push of repair/spare parts resulted in functional ASLs at the FSDs and
       CSSKs. See Recommendations 12b, d, and f.) The brigade CSSKs had received a
       “push” package of parts, but these did not meet the priority vehicle repair parts needs of
       the unit. In one instance, the unit received more air filters then they can use “in a
       lifetime.”

   •   When asked about getting the parts they needed to conduct vehicle repairs, 203rd Corps
       CSSK trainers responded that MoD 14 parts requests did not get them any repair parts.
       They were only getting the parts “pushed” from Kabul, which generally were insufficient



                                               111
       and did not meet the requirements. While addressed at RC-East maintenance meetings,
       the issue was never resolved.

   •   215th Corps line Company Commanders and Executive Officers commented that there
       were many problems in the area of vehicle maintenance. They reported that the
       maintenance workshops at the CSSKs had experienced mechanics, but they did not have
       key parts to repair company vehicles.
Reports from the field indicate that there is technical capability to maintain/repair ANA
equipment. However, the parts are not available. Until NTM-A/CSTC-A/MoD complete the
push of Class IX repair/spare parts to establish the ASLs at the FSDs and the CSSKs, MoD 14
requests for parts will remain unfilled, further degrading confidence in the system. Readiness of
equipment and survivability of the ANA forces will suffer until this matter is resolved.

Recommendations
23. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command and the Ministry of Defense/ General Staff:

  a. Determine the repair parts that are most urgently needed to fix inoperable vehicles in the
Afghan National Army Corps.

  b. Locate and push to the Forward Support Depots and Combat Service Support Kandaks
the parts identified.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 23.a, commenting that CJ44 Maintenance
has identified critical CL IX requirements for NMC vehicles and requested all the required parts
through Security Assistance Office. At this time 58 percent of the required parts are on
requisition through the Security Assistance Office. The CJ44 Class IX section is working with
SAO personnel to confirm requisitions or request the remaining items.

NTM-A/CSTC-A concurred with comment for Recommendation 23.b, stating CJ44 Maintenance
has identified critical Class IX requirements for ASLs. CJ44 Maintenance has pushed over
63,700 parts for PLL, ASL and deadline parts requirements to the FSD from the national level.
At this time, CJ4 confirms that 45 percent of the required sustainment parts are on requisition
through the Security Assistance Office. Identified ASLs of 3,938 lines were requested for direct
shipment from CONUS to FSD locations. CJ4 Maintenance Class IX section is working with
SAO personnel to gain visibility of non-standard vehicle parts status.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 23.a were responsive and no further action
required at this time.




                                               112
NTM-A/CSTC-A’s comments to Recommendation 23.b were responsive. We will request an
update on the management (bench stock, requisition, and delivery status) of the identified critical
Class IX repair/spare parts requirements in six months.




                                               113
Observation 24. Loss of Afghan National Army Skilled
Professionals to the Private Economy
The ANA has difficulty retaining trained ANA mechanics and other skilled logistical
professionals who come to the end of their ANA enlistment contract.

The primary, but not the only, factor in the low retention rate of technical ANA logistical
personnel is reportedly the demand for their services in the private sector, especially among
foreign and local contractors, from whom they can receive higher pay with less personal risk.

The inability to build and maintain a cadre of experienced ANA logisticians, mechanics, and
other skilled professionals during a time of war prevents the ANA from developing the logistical
support necessary to support ANA unit operational readiness, and, therefore, war-fighting
capability. Moreover, ISAF will not achieve its mission to establish an ANA logistical system
capable of independent and sustainable support of the ANA combat forces.

Applicable Criteria (See Appendix C, Numbers 5, 19, and 33, for additional details.)

   •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.
   •   Decree 5001, “Ministry of Defense Organization and Functions Manual,” Chapter 21:
       Chief of Personnel of the General Staff (GS-G1), March 29, 2011.
   •   Joint Center for International Security Force Assistance, “Afghan National Army,”
       March 25, 2011.

Discussion
Currently, about 50 percent of the Tashkil-authorized logistician and mechanic positions are
filled by a trained ANA soldier. Reportedly, many of the ANA’s trained logisticians, mechanics,
and other skilled professionals leave the military at the end of their contracts, necessitating the
need to recruit and train replacements. Moreover, it has been difficult for the ANA to recruit
skilled personnel already employed in the private sector.

During this assessment, we were informed that there are a number of reasons for the attrition of
trained and experienced logisticians, mechanics, technicians and other professionals from the
ANA after they complete their military service including:

    • Better private sector pay,
    • Difficult military living conditions and environment,
    • Availability of adequate and appropriate tools to perform their logistical functions,
    • Lack of advancement and recognition for personnel with their specialized skills,
    • Literacy skills provide opportunities outside of the ANA,
    • Personal safety/danger issues, and
    • Hardship on the families of those in military service.
Among these factors, personnel in the Coalition and within the ANA chain of command
uniformly cited pay as the foremost reason for the inability to retain and attract trained and
experienced ANA logisticians, mechanics, and other skilled professionals.


                                                115
The U.S./CF and GIRoA, including the MoD/GS and ANA, have made a significant investment
in recruiting, training, and equipping these highly skilled soldiers. Specialized training courses
for ANA logistical personnel are increasing at the national level. Coalition units, trainer/mentor
teams, and contractors, are expanding their logistical training programs and impact.

The standards for these skill sets are necessarily high, compared to the average soldier. To be
considered proficient as a mechanic assigned to the MoD Central Workshop in Kabul, ANA
personnel are required to have:

      •   Two years of English training,
      •   One year of formal Test, Measurement & Diagnostic Equipment training, and
      •   Thirty six months of on-the-job-training and experience.

Once ANA personnel reach this level of proficiency, they comprise the cadre essential to
maintaining the operational readiness of vehicles/equipment in ANA combat units.

These trained and experienced personnel are not easy to replace, and it has been a difficult
challenge for the ANA to retain them. They are reportedly leaving the Army in significant
numbers once their initial contracts are completed.

U.S. counterinsurgency doctrine states; “Pay for … technical specialists should be competitive
with that of other host-nation professionals.” 33 The doctrinal requirement is therefore to provide
military personnel a level of pay competitive with what their training and experience would be
worth in the private economy. This should take into consideration that the MoD provides some
level of housing, medical, retirement and other benefits, as most other militaries do, that can
offset the need to match exactly civilian pay. For example, the DOD 10th Quadrennial Defense
Review of Military Compensation recommended that U.S. military pay be set at the 80th
percentile for comparable skills and experience in the private sector. 34

Unfortunately, the current compensation incentives for ANA personnel with logistical and
information technology skills and experience necessary to support logistical functions and
operations was not competitive with comparable private sector opportunities. For example, an
ANA sergeant with over three years of experience earned $215 monthly, while a master sergeant
with over 24 years of experience was paid $415 per month. However, if an ANA soldier at the
end of his first two or three year ANA contract is a skilled logistician or mechanic, he can
reportedly earn $600 - $700 per month in a civilian occupation.

At Depot 0, U.S. trainers had 50 ANA soldiers complete training as computer operators. When
their ANA contracts were completed, 47 of them left for higher paying civilian jobs.

Skilled technicians and professionals might not leave the ANA if their pay and benefits were
close enough to what they could earn in the private sector for comparable training and
experience, a lesson learned by retention planners in the U.S. military.


33
     Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” Table 6-3, December 2006.
34
     Government Executive.com, “Military and civilian pay are competitive, quadrennial review board finds,” March
     13, 2008, para 8.


                                                       116
Any proposals to increase pay for critical ANA skills would require coordination/approval
through NTM-A/CSTC-A to ensure that funding was available.

Recommendation
24. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, coordinate with the Ministry of
Defense and the General Staff to determine the extent of the problem and assist them in
implementing appropriate mitigating actions, to include establishing MoD/GS/ANA personnel
policy and programs for specialized skills that provides recognition, promotion, job security,
and pay incentives, etc.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 24, stating the actions taken and planned
consisted of establishing a merit-based NCO promotion system. On March 7 to 9, 2011, the
GS/G1 SGM conducted training on JNCO/SNCO Promotions, Evaluations, and Records
Management. The ANA SMA conducted his 8th Annual Seminar and NCO/SM of the Year
Competition on July 10 to 13, 2011. Briefers and work groups focused on Soldier Quality of
Life issues, including better Pay, Housing/Barracks, Medical, Retirement System, Leave
Program, Safety, Training, Attrition/Re-Contracting and Dining Facilities/Food.
Recommendations were briefed to the MoD leadership. The ANA SMA 9th Annual Seminar and
NCO/SM of the Year Competition is scheduled for March 12, 2012. Better leadership is the key
to resolving many of these issues.

Furthermore, the implementation, fielding, and training of an improved Afghan Human Resource
Information Management System (AHRIMS) started on 1 Jul 11. This new system will provide
the capability to track, manage and report assigned strength by Unit, Military Occupation
Specialty (MOS), Grade, etc.,to include training required or completed by each Soldier. Work
continues with the A7 Force Management Directorate to finalize the MOS, Additional Skill
Identifier (ASI), and Language Skill Identifier (LSI) list. During Aug-Oct 11, the MOS, ASI,
and LSI list were submitted to MoD for review and approval. The list will be included in
AHRIMS and provide the capability to track, manage, and report school trained Soldiers. The
Re-contracting of soldiers who choose to re-enlist, AWOL/DFR, and Leave policies were
recently updated to improve the practices and procedures used to track and account for soldiers.
The first Re-contracting course starts on October 29, 2011. It is a 6-week course designed to
educate and train leaders on their roles and responsibilities in maintaining a trained and ready
force. Finally, there is was a mock centralized NCO promotion board scheduled from 24-27 Oct
11.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 24 were responsive. We request the
proposed timeline for updating the improved Afghan Human Resource Information Management
System (AHRIMS). Once the AHRIMS is approved, please provide a copy of those sections
applicable to Recommendation 24.




                                              117
Observation 25. Maintenance of Computers, Printers, and
Copiers
The ANA was not maintaining the operability of ANA automated systems, including information
technology (IT) equipment, such as computers, servers, copiers, and printers, most notably at
corps and below.

The ANSF, including the ANA, does not yet have the internal training and experience to
maintain their current organizational IT equipment and systems. Furthermore, there was no
evidence of a functional plan to develop this capability or to contract for this type of support.

Without the execution of an effective plan to develop or provide this IT support, the ANA’s
nascent automation system will quickly atrophy, further complicating the effort to establish an
enduring ANA logistics capability.

Applicable Criteria (See Appendix C, Numbers 5 and 33, for additional details.)

   •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.
   •   Joint Center for International Security Force Assistance, “Afghan National Army (ANA)
       Mentor Guide,” March 25, 2011.

Discussion
The Coalition and MoD/GS have planned for /automation systems and IT equipment to play a
key role in supporting and sustaining logistical operations. However, at corps and below, the
ANA does not yet have enough personnel with the requisite skills to maintain these systems.
Although there was a contract in placer to maintain IT systems at ANA Regional Hospitals, there
was no evidence of an in-place contract to provide this type of support at corps and below.

Nevertheless, the U.S./CF are building and maintaining a limited automated logistics capability
for the ANA, as well as training operators. The two main web-based systems developed to
automate the MoD/GS and the ANA Supply Chain Management includes:

       •   The Core Inventory Management System Enterprise Edition, based in Kabul with
           nodes distributed at major national depots, will eventually interconnect with the
           FSDs. It will continuously update the automated supply distribution system in
           support of material management. The MoD/GS and the NTM-A/CSTC-A CJ-4 also
           use the system as a monitoring and reporting tool. As of May 2011, four of the six
           FSDs had connectivity.

       •   WEB Manage is the equipment maintenance database supporting the ANA designed
           to integrate maintenance, inventory, and material requisitions. It is capable of
           managing warehouse, procurement and logistics operations countrywide in a
           centralized system, down to the CSSKs at brigade level, and is part of the requirement
           in the A-TEMP contract. In May 2011, the system was just beginning to come online
           in the CSSKs.



                                                119
The U.S./CF has also supplied personal computers, laptops, printers, and copiers to ANA corps
and brigade headquarters commanders and staff personnel. However, more often than not, the
assessment team noted that the IT equipment at the corps and brigade headquarters was
inoperable. ANA personnel and U.S./CF trainers reported that, aside from the issue of unreliable
electrical power, there was insufficient maintenance capability at these organizational levels to
maintain these IT systems. In addition, there was no supply process for obtaining necessary IT
items such as toner cartridges for copiers, batteries for laptops, or even copier paper. With no
organic capability to maintain these IT systems, or to procure related supplies, and no contract
support available, the IT systems at corps and below will rapidly become inoperable.

Recommendation
25. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, coordinate with the Ministry of
Defense and the General Staff to develop a sustainable solution to maintain operability of the
automation systems and information technology equipment necessary to support ANA logistics
operations, to include that equipment at corps and below.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 25, noting how NTM-A CJ6 presently is
executing a plan for creating an environment that is supportive to transitioning a sustainable
solution for the maintenance and operability of the IT equipment necessary to support ANA
logistics operations. This plan consists of several contracts providing for the maintenance and
operability of the IT equipment supporting ANA logistics operations. Moreover, the NTM-A
CJ6 team of contract support, advisors, and contractors aim to create an environment to facilitate
the successful transition of the contracts and maintenance function to the ANA in order for the
ANA to have a sustainable IT equipment maintenance concept. They will do this by advising the
ANA on various aspects of contract management and on the creation and management of
training programs for IT maintenance and operations.

   a. Presently, the Communications Equipment Maintenance Advising, Mentoring, and
      Training Program contract is providing a variety of project management, program
      support, quality assurance management, and logistics and contracting management
      deliverables to the ANA. This is in the form of direct advising and training to the ANA
      at Kabul-area depots and assisting the ANA in maintaining their database for actions
      initiated by a MoD Form 14, equipment requisition, or turn-in items for repair or
      disposition. Moreover, the MoD network operations contract provides for the parts to fix,
      repair, or replace IT and computer equipment throughout Afghanistan as well as the
      installation, configuration, and operating of all MoD Network End User Equipment and
      providing end user and on-the-job training related to these actions. In order to develop IT
      skills within the ANA, the Contractor provides on the job training to those personnel
      assigned to work in the MoD NOC. All these actions help create the processes,
      procedures, to develop the ANA personnel to establish an organic ANA solution to
      support the IT necessary for ANA logistics operations.

   b. NTM-A CJ6 also provides Afghanistan-wide basic and advanced computer operating
      training. These training courses help to prepare ANA personnel to successfully operate


                                               120
       the IT equipment required to support ANA logistics systems. The courses include
       preventive maintenance and troubleshooting of IT equipment. Also, the training attempts
       to instill train-the-trainer techniques within the curriculum in order to position the ANA
       to be self-sustaining with ANA teaching ANA regarding computer training.

   c. NTM-A CJ6 is also supporting a network connectivity contract at the ANA ASC (Army
      Support Command). The ASC has been created to support a fully integrated, self-
      sustaining logistics system with doctrine, policies, and procedures within the ANA.

   d. NTM-A CJ6 participates in logistics OPTs and discussions to develop, plan, and
      implement courses of action in order to prepare ANA to assume leadership and
      ownership of their logistics processes.

   e. NTM-A CJ6 is advising ANA on effective contract oversight, creation, requirements, and
      management in order to establish a long-term, sustainable contracting capability for ANA
      and in turn, transitioning training, operations, and maintenance contracts to the ANA. In
      this way, the ANA can establish the logistics support operations that meet their
      requirements.

NTM-A CJ6 will begin transitioning some of these contracts in the Fall and Winter of 2011-
2012, beginning with the training contracts. Presently the ANA can provide a basic level of IT
operations and maintenance for their IT systems. This capability will be further strengthened as
both training, operations and maintenance contracts continue. Moreover, as the ANA continues
to mature as a force, the train-the-trainer concepts will be further established within ANA
processes and procedures, further creating a sustainable solution for their IT support.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 25 were responsive. We will request a status
update on the effectiveness of the planned actions in six months.




                                              121
Observation 26. Technical Manuals
The 215th Corps had no accessible technical maintenance manuals for vehicles repair.
Although the manuals, in Pashtu, have been provided in compact disc form, this has not been a
practical solution for ANA organizations at corps and below because of limited availability of
functional computers, printers, and copiers. Moreover, many maintenance personnel, who may
be barely literate or illiterate, cannot understand the maintenance material.

The lack of useable technical manuals delays development of the ANA capability to take
responsibility for equipment maintenance, slowing development of a sustainable logistics
capacity.

Applicable Criteria (See Appendix C, Numbers 5 and 33, for additional details.)

       •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.
       •   Joint Center for International Security Force Assistance, “Afghan National Army (ANA)
           Mentor Guide,” 25 March 2011.

Discussion
The assessment team observed that the 215th Corps did not have access to technical manuals in
Dari or Pashtu for their HMMWVs, Ford Ranger Light Transport Vehicles, or International
Trucks. They only had one manual, in English, for these vehicles. According to
counterinsurgency doctrine, the ANA must be “capable of managing their own equipment
throughout its lifecycle and performing administrative support.” 35 Further, documentation for
ANA equipment and vehicle maintenance “must be appropriate to Host Nation capabilities and
requirements.” 36

NTM-A/CSTC-A has provided compact discs with the applicable technical manuals. This is not
a practical solution for ANA organizations at corps and below because of limited availability of
functional computers/printers/ copiers. Additionally, when the electronic versions of the
manuals could be printed, they were reportedly often in English, rather than in Pashtu and Dari.

Moreover, even if provided in printed form, not all maintenance personnel are sufficiently
literate to understand them. A picture book format would be more functional for these soldiers.

If the ANA is to develop a self-sustaining ANA maintenance capability by 2014, they must have
sufficient quantities of technical manuals available in languages and formats that they can
understand and use.




35
     Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006, Table 6-2, bullet 3.
36
     Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006, para. 6-31.


                                                      123
Recommendations
26. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command and the Ministry of Defense/General Staff:

  a. Print technical manuals in Dari and widely disseminate them to all Afghan National
Army units at corps and below.

   b. Create a version of these manuals that presents the material in picture book format for
insufficiently literate or illiterate maintenance personnel.

Management Comments
NTM-A/CSTC-A non-concurred with part of the original Recommendation 26.a (print in both
Dari and Pashtu), stating they concur with printing technical manuals in Dari and disseminating
them to all ANA units in the tactical areas. Pashtu version of Decrees and ciphers is not
required; Afghan Ministerial Staff has not requested manuals in Pashtu. TMs should not be
required in Pashtu thus costs of translation would outweigh requirements. The cost limits of the
Afghan information technology structure will likely prevent connectivity at the tactical levels
(combat service support kandaks and kandaks). Thus, CJ4 in coordination with SAO contracted
to have the top three density equipment technical manuals translated in the Dari language. These
manuals include: International medium tactical vehicle 5-ton truck technical manual, Ford
Ranger technical manual(s), and M1151 HMMWV technical manual; they are currently being
printed in sufficient quantities for all Kandaks to have at least one each. There are currently 250
English versions Parts Manual (TM 9-2320-387-24P) for HMMWVs finished being printed.

NTM-A/CSTC-s concurred with Recommendation 26.b, stating CJ4 is in the process of
developing a “picture type book” to overcome the illiteracy rates of the average ANSF member.
These “picture books” are focused on the major end items on the Tashkils of the ANA forces and
the primary items that CJ44 Maintenance are tracking as high demand/high usage repair parts.

Our Response
NTM-A/CSTC-A’s comments, based on the analysis and feasibility of Recommendation 26.a,
were responsive. We rewrote Recommendation 26.a as above, removing “Print technical
manuals in both Dari and Pashtu…”, replacing it with “Print technical manuals in Dari….” We
will request an update in 6 months on the status of printing/dissemination of the Dari technical
manuals.

NTM-A/CSTC-A’s comments to Recommendation 26.b were responsive. We will request a
status update in six months on the effectiveness of the new “picture type book” that is being
created to address illiteracy rates.




                                               124
Observation 27. Power Generation
The ANA lacks the long-term capability to operate and maintain the wide variety of gas and
diesel-powered generators in their inventory that supply power to their operational units,
particularly away from industrialized areas.

Lack of access to the national power grid, especially in remote areas, has led to a reliance on
generators for electrical power. However, the ability to keep the generators functioning is
problematic because of:

     •   Multiple types/models of generators used by the ANA,
     •   Few repair parts,
     •   Few trained ANA generator mechanics,
     •   Accessibility to remote locations where ANA units are deployed, and
     •   Availability of fuel.

Reliance on so many maintenance-intensive, gas or diesel powered generators limits the power
presently available to support ANA field operations, and does not provide a long-term solution to
the ever-growing needs of the ANA forces.

Applicable Criteria (See Appendix C, Number 5, for additional details.)

     •   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,” December 2006.

Discussion
Often geographically deployed in remote locations away from the national power grid, the ANA
lacks the long-term capability to operate and maintain the wide variety of gas-powered
generators that supply power to their operational units at these locations.

The Brookings Afghanistan Index stated, “As of September 2009, it was estimated that only six
percent of Afghan households in rural locations had access to electricity.” 37 The electricity
produced in Afghanistan is comparable to Somalia. 38 This underscores that the power generating
capacity and infrastructure in Afghanistan cannot support the population now or in the near
future.


                                                 Electricity 39
                      Produced                 286 million kWh           2009 est.
                      Imported                 230 million kWh           2007 est.
                      Consumed                 231 million kWh           2009 est.
                                   Table 2. Electrical Power in Afghanistan



37
    Livingston, Messera and O’Hanlon, “Brookings Afghanistan Index,” May 2011, Figure 3.7.
38
   “CIA World Factbook,” 2011, Afghanistan, Country Comparison: Electricity – Production.
39
    “CIA World Factbook,” 2011, Afghanistan, p. 11. The discrepancy between the amount of electricity generated
and/or imported and the amount consumed and/or exported is accounted for as loss in transmission and distribution.


                                                       125
Consequently, the U.S./CF has attempted to meet the power needs of the growing number of
ANA units by using portable gas or diesel-powered generators. The current limited ANA ability
to maintain operational the 14 different types of generators in use, mainly provided by
international donations, creates operational problems for the ANA.

ANA units depending on gas or diesel-powered generators frequently do not receive the requisite
amount of fuel for various reasons, including:

   •   Bureaucracy,
   •   Corruption,
   •   Theft,
   •   Lower generator
       priority vice
       vehicles,
   •   Access to remote
       locations, and
   •   Insurgent actions
       interdicting supply
       lines.

In addition, there is no
reliable supply of
spare/repair parts to
maintain these many
different types of                         Figure 12. ANA Mechanics Repair Generator
generators, a situation
worsened by a lack of adequate operator maintenance.

Both current operations and longer-term logistics sustainability of ANA forces depends on
having a reliable source of power. The current reliance on generators for electric power has not
proven sufficient.

Recommendations
27. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command and the Ministry of Defense/General Staff:

  a. Ensure there are sufficient trained mechanics and spare parts to maintain generators
currently in use by the ANA.

   b. Establish a base of just a few generator types that the ANA supply system will support to
limit the wide range of operator skills and parts necessary to keep so many different types of
generators operational.




                                                126
Management Comments
NTM-A/CSTC-A concurred with Recommendation 27.a, noting how trained mechanics are
essential to maintain power generation equipment. Generator mechanic positions have been
increased in Tashkil documents and training initiatives are already underway through the
Construction and Property Management Department and local vocational schools. Future
sustainment would include a contracted maintenance force in addition to trained ANA personnel.

NTM-A/CSTC-A concurred with Recommendation 27.b, commenting that although fewer
generator types would simplify sustainment, a better solution is to reduce the overall need for
energy. We are building to austere standards due to infrastructure limitations and the
sustainment plan would include replacing failed generators with standardized generator models.
Existing generators are sunk costs and should continue to be used until they become inoperable.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 27.a were responsive. We will request an
update in six months on the status of the revised Tashkil documents and training initiatives for
supporting this recommendation.

NTM-A/CSTC-A’s comments to Recommendation 27.b were responsive and no further action is
required at this time.




                                               127
PART VIII - Personnel and Equipment
      Authorization (Tashkil)




                129
Observation 28. The Logistics Support Operations Center
and the Garrison Support Units
The Tashkils for the Logistics Support Operations Center (LSOC) and the Garrison Support
Units (GSUs) do not support the current mission requirements of those organizations.
The LSOC was stood up in Solar Year 1385 (approximately mid-March 2006 to mid-March
2007) as the national logistics hub for an ANA force of 70K. Currently, the ANA has a 150K-
plus structure, and LSOC manpower on the ANA Tashkil, which establishes its personnel and
equipment authorization, has not kept pace. Likewise, the GSUs, embedded in ANA brigades
with the mission of providing installation and life support operations for the brigade, have not
grown commensurate with their mission responsibilities. Furthermore, the GSUs are not
authorized certain types of equipment necessary to support their mission.

The LSOC’s manning shortfalls have an adverse effect on its ability to provide required support
for the MoD/GS logistics enterprise and ANA supply chain, affecting all classes of supply. At
the brigade level, the GSUs are not capable of planning and executing their core installation
support functions, due to insufficient authorization of personnel and critical equipment.

Applicable Criteria (See Appendix C, Numbers 1 and 12, for additional details.)

   •   Afghan National Army Manual 1-1, “Human Resources Support,” September 2009.
   •   Decree 4.0, MoD, Office of the Assistant Minister of Acquisition, Technology, and
       Logistics, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
       January 2009.

Discussion
The Tashkil is the ANA’s master authorization document that lists both personnel (by position
and rank) and equipment (by unit and equipment type) down to company and platoon level.
Tashkil development is a very deliberate annual process that involves review all the way down to
the Corp level. Under this construct, ANA unit commanders supposedly engage as contributors
to the process, providing input based on resource requirements necessary for accomplishment of
their assigned missions.
Logistics Support Operations Center
The LSOC, which falls under the ANA Logistic Commander, is the Material Management
Center for the MoD AT&L supply chain. The LSOC “logistics hub” provides the ANA with
centralized and integrated material management for all classes of supply, as well as for weapons
systems. Additionally, the LSOC has the mission of executing maintenance/supply priorities and
coordinating/controlling supply functions to meet the operational needs of the ANA.

The LSOC Commander and his staff, along with their associated U.S./CF trainers, questioned the
LSOC’s ability to provide adequate support for the growing ANA forces, given the LSOC’s
current Tashkil personnel authorizations. Since Nov 2009, ANA force structure has increased by
more than 56 percent, from 70K to more than 150K, reportedly without a commensurate




                                               131
adjustment in the LSOC Tashkil personnel strength. Therefore, the LSOC’s personnel structure
does not appear to align proportionally with the growing size of the ANA.

U.S./CF trainers noted that, because of the personnel shortages, the LSOC divisions are not set
up and manned to handle all ammunition, armament, communications, Class 9, and engineering
requirements. Additionally, many of the processes associated with these functions are
fragmented, unclear, and, to some degree, dysfunctional. The LSOC is not presently capable,
therefore, of meeting its intended purpose of providing the ANA with centralized and integrated
material management for all classes of supply.

The LSOC Commander and his staff, along with their U.S./CF trainers, reported that they had
been unsuccessful in their attempts to update the LSOC personnel strength on the Tashkil
through the established MoD/GS Tashkil review process.
Garrison Support Units
Embedded in the brigade, the GSUs are responsible for providing installation and life support
operations for their unit, including dining facilities, installation security, and fuel
storage/distribution. However, the GSU personnel strength on their Tashkil has not adjusted
over time consistent with the growth in the number of units assigned to brigades, or with the
additional requirement to support all non-brigade units now assigned to the installation, such as
corps headquarters. Moreover, the GSU Tashkil reportedly lacks authorization for some critical
equipment. As of May 2011, attempts to modify the Tashkils through MoD/GS channels to
make them consistent with current personnel and equipment needs have been unsuccessful.

During team visits with multiple GSU commanders, their staffs, and U.S./CF trainers, the
primary concerns they raised related to management and equipment shortages. Examples
include:

   •   The addition of a fourth infantry kandak to each brigade,
   •   The addition of a fourth infantry company to each infantry kandak,
   •   Requirement to provide support for all other organizations on the installation, in addition
       to their brigade (area support),
   •   Equipment/infrastructure/personnel problems:

       -- Machineguns for installation guard towers not authorized,
       -- Too few forklifts/other heavy equipment authorized,
       -- Too few fuel/water tankers authorized,
       -- Dining facilities supporting up to twice as many soldiers as they were
          designed/manned to support, and
       -- Lack of facility space and equipment.

GSU manning and equipment shortfalls negatively impact various aspects of their mission,
affecting such areas as:

   •   Plans and Operations,




                                               132
   •   Supply,
   •   Communications,
   •   Medical,
   •   Engineering,
   •   Other areas of life support, and
   •   Morale.

Command authority with respect to GSUs was another matter of concern. The GSU is on the
brigade Tashkil and falls under the brigade commander’s command authority. However, when
the brigade/GSU is based on a corps installation, for example, the more senior ANA officer
perceives that he is the installation commander and can direct GSU operations, sometimes by-
passing the brigade commander.

While GSU Tashkils are generally insufficient across the ANA, the respective GSU mission
requirements can vary. The concept apparently gaining favor in the ANA is that support
functions, in general, should be organized to support fixed geographic areas and/or installations
and not just specific brigades, an idea generally endorsed by NTM-A/CSTC-A. Since GSU
missions are becoming more specific to each GSU’s geographic location and circumstances, a
mission analysis could mandate similarly specific Tashkil adjustments.

Recommendations
28. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan:

  a. Mentor the Ministry of Defense/General Staff to determine if the Logistics Support
Operations Center requires additional personnel and to adjust the Tashkil accordingly.

   b. Coordinate with Ministry of Defense/General Staff to conduct a mission analysis and
appropriately adjust Garrison Support Unit Tashkils to reflect the size of supported ANA
installation populations.

  c. Coordinate with Ministry of Defense/General Staff to add additional equipment to the
Garrison Support Unit Tashkils to support their mission requirements, as required.

   d. Mentor the Ministry of Defense/General Staff to consider removing the Garrison Support
Units from the brigade Tashkil and placing them under a new command structure independent
of brigade/corps commander authority, such as the Regional Logistics Support Command, that
would enable them to remain focused on their installation support responsibilities.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 28.a, stating on 12 September 2011, the
Chief of Staff for CJ4 informed A7 that a working group would be established to analyze the
mission of the Material Management Center (MMC), the Logistics Command (LOGCMD), the
newly activated Army Support Command (ASC) and the Logistics General Staff-G4, in order to
find if any redundancies exist between the above mentioned agencies. At the conclusion of the
CJ4 Working Group and the final recommendations from the ANA senior leadership the ANA


                                               133
General Staff G7 Deputy Force Management office, with support from the A7 Force
Management, will update the Solar Year Tashkil personnel requirement as required per Tashkil.

NTM-A/CSTC-A concurred with comment for Recommendation 28.b, stating how a mission
analysis needs to be conducted in conjunction with the newly activated Army Support
Command, to right-size the Garrison Support Unit (GSU) in comparison to the total supported
installation population. A7 Force Management will recommend that when the CJ4 working
group indicated in previous 28a is formed, an objective should be established to include doing a
mission analysis on the GSU’s and the required Tashkil requirements to facilitate their support
capability to the population supported by the installation. At the conclusion of the CJ4 Working
Group and the final recommendations from the ANA senior leadership the ANA General Staff
G7 Deputy Force Management office, with support from the A7 Force Management, will update
the Solar Year Tashkil, as required.

NTM-A/CSTC-A non-concurred with Recommendation 28.c, commenting that A7 was provided
guidance to have Tashkil reviews continued by all ANA Development Advisors for further
equipment efficiencies. All additions to the current SY1390 Tashkil should be put on hold until
final decision on ANA equipment disposition is approved. Tashkils will then be provided to the
A7 Force Management office for update to the current solar year Tashkil.

NTM-A/CSTC-A non-concurred with Recommendation 28.d, stating the current organizational
structure of the Logistics Support Operations Center has been reviewed and analyzed. The
capabilities were expanded and a new organizational structure was developed and approved. It
was given a name change to reflect the expanded capabilities and a General Officer position was
approved as commander of Material Management Center (MMC). The Minister of Defense
(MINDEF) approved the name change to MMC and appointed a Flag Officer position, Brigadier
General, as commander. The MMC organizational structure is a centralized and integrated
material management organization for all nine classes of supply. The MMC structure includes
Command and Control, automation/information management, commodity management of all
classes of supply, national asset visibility, movement control/coordination and
maintenance/Class IX visibility.

The MMC organizational structure has been documented on the Solar Year 1390 supplemental
Tashkil and has retained the 112 authorized spaces migrated over from the LSOC. A CSTC-A
and ANA working Group will include, GSG4, LOG CMD, MMC, and Army Support Command
(ASC), to address redundancies and validate MMC position descriptions and make adjustments
and/or additions necessary for authorized spaces and equipment required in support of the
approved ANA Force Structure. The CSTC-A and ANA Logistics Senior Leadership will be
actively addressing and finalizing the MMC organization in relationship to supporting an
increased 195K Force Structure end strength.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 28.a were responsive. Once approved and
published, we request a copy of those sections of the updated Solar Year Tashkil applicable to
Observation 28a.




                                              134
NTM-A/CSTC-A’s comments to Recommendation 28.b were responsive. We will request an
update in six months on the mission analysis outcome and manning status for the respective
GSUs.

NTM-A/CSTC-A’s comments to Recommendation 28.c were responsive. Once approved and
published, we request a copy of those sections of the updated Solar Year Tashkil applicable to
Observation 28c.

We request that NTM-A/CSTC-A reconsider the non-concurrence with Recommendation 28.d.
The comments did not address the original recommendation for removing the GSU from under
the brigade Tashkil and placing them under a new command structure independent of
brigade/corps commander authority. We ask that NTM-A/CSTC-A provide a synopsis of steps
taken or planned that address the intent of Recommendation 28d.




                                              135
PART IX - Commander’s Unit Assessment Tool




                    137
Observation 29. Commander’s Unit Assessment Tool
Analysis and Feedback to Regional Commands
ANSF Development Directorates in the IJC Regional Commands were not receiving the results
of CUAT data trend analysis or any resulting recommendations.

Although the Coalition chain of command forwarded CUAT information every six weeks to IJC,
there was no formal procedure in place to send the results of IJC staff analysis, including any
guidance from the IJC and NTM-A/CSTC-A General Officer Steering Committee that reviewed
the analysis, back to the ANSF Development Directorates in the RCs.

As a result, the ANSF Directorates in each RC were not able to take timely and appropriate
operational and resource allocation action in their areas of operation in response to CUAT trends,
or to take advantage of insights gained from CUAT reporting provided by other RCs. This
impeded timely decision-making by RCs to improve operational and logistical performance with
respect to the effectiveness of partnering/mentoring/training of ANA forces.

Applicable Criteria (See Appendix C, Number 32, for additional details.)

   •   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
       Afghanistan” –Annex R: Logistics, October 9, 2010.

Discussion
The CUAT was the primary tool used by IJC for assessing ANA operational effectiveness for
units at corps and below. The CUAT is an assessment by U.S./CF partners/trainers at the unit
level regarding ANA unit capability and progress across several standardized critical indicators.
IJC only receives CUAT input from those ANA organizations that have U.S./CF trainers
assigned.

IJC uses the CUAT to collect both quantitative data and to provide a qualitative assessment of
ANA units’ operations, personnel, leadership, maintenance, partnering, training, equipment
readiness, and accountability. IJC relies upon the CUAT reporting system, with input provided
by Regional Commanders and U.S./CF assessment teams assigned to ANA kandaks/brigades
every six weeks, as the basis for its internal CUAT Brief, Executive Summary, and the ANSF
Effectiveness Brief.

The General Officer IJC/NTM-A/CSTC-A Steering Committee evaluates the IJC portion of this
assessment process, along with NTM-A/CSTC-A input, for incorporation into the ISAF
Quarterly Assessment of OPLAN 38302, “International Security Assistance Force Operations in
Afghanistan.” This quarterly assessment helps to monitor progress in the transition towards
ANA-led security operations.

           …the shifting of responsibility from ISAF to Afghan forces will be conducted at a
           pace determined by conditions on the ground with assessments provided from the
           bottom up so that those at operational command level in Afghanistan can plan the
           resulting “battlefield geometry” adjustments with our Afghan partners. As the



                                                     139
              ambassadors of several ISAF countries emphasized at one recent NATO meeting,
              we’ll get one shot at transition, and we need to get it right. 40.

MoD and GS, on the other hand, use the LRAT from their Readiness Reporting System to track
ANA logistical development.

Significant differences often occur between U.S./CF CUAT input to IJC and ANA Readiness
Reporting System data reported for the same ANA units. The General Officer Steering
Committee reviews these discrepancies before seeking approval of the ANSF Assessment Brief
by the IJC Commander. The Steering Committee also identifies some of the gaps/differences for
reporting to the ANA Chief of the General Staff. However, Steering Committee decisions and
recommendations were reportedly not communicated systematically back down the U.S./CF
operational and tactical chain.

Without consistent and timely feedback on the results of CUAT trend analysis, the ANSF
Development Directorates in the RCs were not benefiting from these results concerning ANSF
development progress. Consequently, the ANSF Development Directorates were not
recommending corrective actions or adjustments that commanders and partnering/training teams
assigned to ANA units needed to make.

Recommendation
29. Commander, International Security Force Joint Command, in coordination with North
Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan, develop a procedure to provide regular reporting feedback and
guidance to the Regional Commands and their Afghan National Security Force Development
Directorates containing results and recommendations from the Commander’s Unit Assessment
Tool process.

Management Comments
IJC concurred with Recommendation 29. Their response was classified and is available on
request.

Our Response
IJC’s comments to Recommendation 29 were responsive. We will request an update in six
months on use of the Integrated Engagement Model and Lines of Effort program as a tool for
providing CUAT trend analysis, results, and recommendation to the ANSF Development
Directorates in the RCs.




40
     Undersecretary of Defense Michelle Flournoy, Statement to the Senate Armed Services Committee, 15 March
     2011.


                                                      140
Observation 30. Capturing ANA Logistics/Maintenance
Capability in the Commander’s Unit Assessment Tool
The CUAT does not capture the actual capability/effectiveness of the ANA
logistics/maintenance system at corps and below. Furthermore, it does not provide a consistent
picture of logistical development from both U.S./CF and MoD/GS perspectives upon which to
take appropriate corrective actions.

This has occurred because there is no standardized set of logistics/maintenance metrics
incorporated into the CUAT that links logistics system performance and progress toward
transition.

As a result, a consistently clear insight into partner/trainer views does not emerge from the
CUAT concerning their counterpart ANA units’ logistical development. Moreover, IJC is unable
to measure with sufficient detail the progress or impediments towards development of an
enduring logistics/maintenance sustainment capability among ANA corps/brigades/kandaks, and
does not have the visibility required to make timely and necessary changes in the logistical
partnering/training programs.

This could delay the transition from ISAF to ANA-led logistics/maintenance operations and
establishment of an independent, sustainable ANA logistical capability.

Applicable Criteria (See Appendix C, Numbers 31 and 32, for additional details.)

   •   Headquarters, ISAF, “Partnering Directive,” (NATO/ISAF UNCLASSIFIED), 29 August
       2009.
   •   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command Operations in
       Afghanistan” – Annex R: Logistics, October 9, 2010.

Discussion
To support the ANA infantry-centric security forces, the U.S./CF have to enable MoD/GS
development of a fully integrated logistics system with the essential functional capabilities
required to support ANA combat operations.

To date, IJC has relied on the CUAT to collect both quantitative data and qualitative assessments
from U.S./CF partnering/training personnel deployed across the ANA areas of operation. The
Coalition uses CUAT inputs to answer three fundamental questions:

    1. Does the ANA have the resources they are supposed to have/need?
    2. Does the ANA function as they are supposed to function?
    3. Are the ANA achieving what they are supposed to be achieving?

However, the lack of a set of metrics that more clearly measures progress in developing essential
ANA logistics capabilities has led to challenges in the accuracy, clarity, and completeness of
CUAT reporting. For example, in the 209th Corps, the CUAT rating from U.S./CF trainers


                                                141
assessed kandaks in 1st, 2nd, and 3rd Brigades as being “average” in their S-4/logistics function,
requiring some assistance to complete their mission. However, narrative comments provided by
the same trainers indicated something different. The trainers reported that the ANA logistics
officers could not accomplish their responsibilities without significant assistance from the
Coalition. This apparent disconnect in internal reporting results, in part, from not having a more
coherent, clearly defined, and manageable set of metrics for trainers to apply.

Recommendation
30. Commander, International Security Assistance Force Joint Command, in coordination with
the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan and the Ministry of Defense/General Staff, develop a set of
logistics/maintenance metrics, tied to transition milestones, to measure progress in developing
essential Afghan National Army logistics capabilities at Corps and below.

Management Comments
IJC concurred with Recommendation 30. Their response was classified and is available on
request.

Our Response
IJC’s comments to Recommendation 30 were responsive. We will request an update in six
months on how well the recently implemented Logistics Capability Assessment Report is
meeting the intent of this recommendation.




                                               142
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from February to August 2011 in accordance with the standards
published in the Quality Standards for Inspections. We planned and performed the assessment
to obtain sufficient and appropriate evidence to provide a reasonable basis for our observations
and conclusions, based on our assessment objectives. Site visits in Afghanistan were conducted
from April 19 to May 6, 2011.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DOD directives and
instructions, and appropriate U.S. Central Command, NATO/ISAF, IJC, USFOR-A,
NTM-A/CSTC-A, and MoD guidance.

The objectives of this assessment were to determine whether:

   •   Planning and operational implementation of efforts by U.S./CF to train, advise, and assist
       in the development of an enduring logistics sustainability capability for the ANA is
       effective. This includes evaluating output/outcome in ANA logistical and operational
       organizations resulting from U.S./Coalition involvement in developing MoD/ANA
       logistics support processes.

   •   Plans, training, preparation, and designated missions of ISAF/U.S. Forces-Afghanistan,
       NATO Training Mission-Afghanistan/Combined Security Transition Command-
       Afghanistan, and ISAF Joint Command to train, advise, and assist in the development of
       an enduring logistics sustainability capability for the ANA are integrated across all levels
       of U.S./Coalition commands/staffs, as well as with the MoD, and address ANA
       operational needs.

We also visited or contacted organizations and individuals in the U.S. and Afghanistan that were
directly responsible for, or advise the commanders responsible for, developing the sustainment
capability of the ANA. We reviewed the programs and processes used in the development and
function of the ANA logistics system and spoke with appropriate U.S./Coalition and Afghan
leaders and managers at all levels, ranging from general officers, to staff officers, to training and
mentor team members in the field.

The ANA logistics assessment chronology was as follows:
February – mid-April 2011                Research and fieldwork in CONUS
April 19 – May 6, 2011                   Fieldwork in Afghanistan
May 5, 2011                              Out Brief to the Afghan Minister of Defense
May 6, 2011                              Out Brief to IJC and NTM-A/CSTC-A
May – September 2011                     Analysis, report writing, and reviews
September 8, 2011                        Draft report issued




                                                143
October – December 2011                    Management comments received, evaluated, and
                                           reviewed
December 9, 2011                           Final report issued

Limitations
We limited our review to DOD-funded programs, NATO-funded programs, and international
donation programs supporting the development of the ANA logistic capability.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.
ABP                   Afghan Border Police
AMoD S&P              Assistant Ministry of Defense for Strategy and Policy
AMoD-F                Assistant Ministry of Defense for Finance
ANA                   Afghan National Army
ANP                   Afghan National Police
ANSF                  Afghan National Security Forces
ANSF                  Afghan National Security Forces
ASC                   Army Support Command
ASL                   Authorized Stockage List
ASP                   Ammunition Supply Point
A-TEMP                Afghanistan-Technical Equipment Maintenance Program
AUP                   Afghan Uniformed Police
BSB                   Brigade Support Battalions
CF                    Coalition Force(s)
CFC                   Consolidated Fielding Center
C-JTSCC               Commander-Joint Theater Support Contracting Command
CJOA-A                Combined Joint Operational Area –Afghanistan
CLK                   Corps Logistics Kandak
COIN                  Counter Insurgency
COR                   Contracting Officer Representative
CSS                   Combat Service Support
CSSK                  Combat Service Support Kandak
CSTC-A                Combined Security Transition Command-Afghanistan
CUAT                  Commander’s Unit Assessment Tool


                                             144
DCG       Deputy Commanding General
DCMA      Defense Contract Management Agency
DCOM      Deputy Commander
DFAR      Defense Federal Acquisition Regulation
ENG       Engineers
FRAGO     Fragmentary Order
FSD       Forward Support Depot
FSG       Forward Support Group
GIRoA     Government of the Islamic Republic of Afghanistan
GS        General Staff
GSU       Garrison Support Units
IJC       ISAF Joint Command
ISAF      International Security Assistance Force
IT        Information Technology
JMD       Joint Manning Document
JSC-A     Joint Sustainment Command-Afghanistan
LRAT      Logistics Readiness Assessment Tool
LSOC      Logistics Support Operations Center
LTT       Logistics Training Team
MoD       Ministry of Defense
MoD-F     Ministry of Defense-Finance
MoI       Ministry of Interior
MTT       Mobile Training Team
NATO      North Atlantic Treaty Organization
NCO       Non-Commissioned Officer
NTM-A     NATO Training Mission-Afghanistan
OMLT      Operational Mentor and Liaison Team
OSD       Office of the Secretary of Defense
PLL       Prescribed Load List
POL       Petroleum, Oil and Lubricant
PPBE      Planning, Programming, Budgeting, and Execution
P&A       Plans & Analysis
RC        Regional Command
RFF       Request for Forces
RSC       Regional Support Command
RLSC      Regional Logistics Support Command
SAO       Security Assistance Office
TBC/CAD   Theater Business Clearance/Contract Administration Delegation
TPSO      Training Program Support Office



                                  145
U.S./CF   U.S./Coalition Forces
USFOR-A   U.S. Forces-Afghanistan
WMM       Waste Military Munitions




                                     146
Appendix B. Summary of Prior Coverage
During the last four years, the DOD, the Government Accountability Office (GAO), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), and the Department of Defense
Inspector General (DODIG) have issued a number of reports and testimony discussing the
accountability and control over munitions and other equipment provided to the ANSF and the
development of ANSF logistical capability.

Unrestricted DOD reports can be accessed over the Internet at http://www.defense.gov/pubs.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
SIGAR reports can be accessed over the Internet at http://www.sigar.mil.
Unrestricted DODIG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports.
Some of the prior coverage we used in preparing this report has included:

Department of Defense
Report to Congress in accordance with sections 1230/1231 of the National Defense
Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress
Toward Security and Stability in Afghanistan” and “United States Plan for Sustaining the
Afghanistan National Security Forces,” April 2011.

Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” November 2010.

Report to Congress in accordance with section 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “Report on Progress Toward Security and Stability
in Afghanistan,” April 2010.

Report to Congress in accordance with section 1231 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “United States Plan for Sustaining the Afghanistan
National Security Forces,” April 2010.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” June
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” January
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2008.




                                              147
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1231, Public Law 110-181), “United States Plan for Sustaining the Afghanistan National
Security Forces,” June 2008.

Government Accountability Office
GAO-11-760, “Iraq and Afghanistan: Actions Needed to Enhance the Ability of Army Brigades
to Support the Advising Mission,” August 2, 2011.

GAO-11-710, “Afghanistan: Actions Needed to Improve Accountability of U.S. Assistance to
Afghanistan Government,” July 2011.

GAO 11-66, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed;
Long Term costs Not Determined,” January 27, 2011.

GAO-10-842T, “Preliminary Observations on DOD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 25, 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 15, 2010.

GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” March 9,
2009.

GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s Border Area with
Afghanistan,” February 23, 2009.

GAO-08-883T, “U.S. Efforts to Develop Capable Afghan Police Forces Face Challenges and
Need a Coordinated, Detailed Plan to Help Ensure Accountability,” June 18, 2008.

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008.

Special Inspector General for Afghanistan Reconstruction
(SIGAR)
SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010.

Department of Defense Inspector General
DOD Report No. D-2011-080/DOS Report No. AUD/CG-11-30, “DOD and DOS Need Better
Procedures to Monitor and Expend DOD Funds for the Afghan National Police Training
Program,” July 7, 2011.

DODIG Report No. D-2010-042, “DOD Obligations and Expenditures of Funds Provided to the
Department of State for the Training and Mentoring of the Afghan National Police,” February 9,
2010.




                                             148
DODIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009.

DODIG Report No. D-2009-100, “Afghanistan Security Forces Fund Phase III – Accountability
for Equipment Purchased for the Afghanistan National Police,” September 22, 2009.

DODIG Report No. SPO-2009-006, “Assessment of the Accountability and Control of Arms,
Ammunition, and Explosives (AA&E) Provided to the Security Forces of Afghanistan,”
September 11, 2009.

DODIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.

DODIG Report No. IE-2007-005/DoS Report No. ISP-I-07-34, “Interagency Assessment Of the
Counternarcotics Program in Afghanistan,” July 2007.

DODIG Report No. IE-2007-001/DoS Report No. ISP-IQO-07-07, “Interagency Assessment of
Afghanistan Police Training and Readiness,” November 2006.

Commission on Wartime Contracting
Interim Report to Congress, “At What Cost? Contingency Contracting in Iraq and Afghanistan,”
June 10, 2009.

Second Interim Report to Congress, “At what risk? Correcting over-reliance on contractors in
contingency operations,” February 24, 2011.

Final Report to Congress, “Transforming Wartime Contracting—Controlling costs, reducing
risks,” August 2011.




                                              149
Appendix C. Criteria—U.S. Law and Ministry of
Defense/Afghan National Army/U.S. Department
Of Defense Policy/Doctrine
1.   Afghan National Army Manual 1-1, “Human Resources Support,”
     September 2009. This manual promotes a common understanding of Human
     Resources Support Fundamentals. HR Support is a critical enabler to successful military
     operations. This document provides fundamental principles to help guide actions, make
     decisions, and establish decrees, policies and regulations in support of the Afghanistan
     MoD national objections. This document is the ANA’s single source doctrine for Human
     Resource Management. The Personnel Readiness management section focuses on
     distributing Soldiers to units based on documented requirements/ authorizations,
     commanders’ priorities and anticipated needs to maximize mission preparedness and
     provide manpower needed to support full spectrum operations. It compares an
     organization’s personnel strength to its requirements, and results in personnel readiness
     assessments and allocation decisions.

2.   Afghan National Army Tashkil. This document establishes the end strength, rank
     and skill structure, and equipment requirements for the ANA and subordinate units.

3.   Army Field Manual 3-07, “Stability Operations,” October 2008. This
     manual addresses military stability operations in the broader context of United States
     Government reconstruction and stabilization efforts. It describes the role of military
     forces in supporting those broader efforts by leveraging the coercive and constructive
     capabilities of the force to establish a safe and secure environment, facilitate
     reconciliation among local or regional adversaries, establish political, legal, social, and
     economic institutions, and help transition responsibility to a legitimate civil authority
     operating under the rule of law. This manual also provides doctrine on how to leverage
     those capabilities to support a partner nation as part of peacetime military engagement.

4.   Army Field Manual 3-07.1, “Security Force Assistance,” May 1, 2009.
     This field manual provides the doctrinal guidance and direction for how U.S. forces
     contribute to security force assistance. It requires that foreign personnel cross-train on all
     types of weapons, communications, and other equipment, and skills particular to their
     unit. Personnel losses must never cause weapons, communications equipment, or
     essential skills to be lost due to a lack of fully trained replacement personnel.

5.   Army Field Manual 3-24/MCWP 3-33.5, “Counterinsurgency,”
     December 2006. This field manual establishes doctrine/fundamental principles for
     military operations in a counterinsurgency environment. Additionally, it establishes that
     the most effective force requirement gauge is troop density, the ratio of security forces
     (including the host nation’s military and police forces, as well as foreign
     counterinsurgents) to inhabitants. This field manual also stipulates that a clear-hold-build
     operation should be executed in a specific, high-priority area experiencing overt insurgent




                                              151
      operations and has the following objectives: (1) create a secure environment, (2) establish
      a firm government control of the populace and area, and (3) gain the populace’s support.

 6.   Army Field Manual 3-24.2, “Tactics in Counterinsurgency,” April 21,
      2009. This field manual establishes doctrine for tactical counterinsurgency operations at
      the company, battalion, and brigade levels. It requires the maximization of the number,
      effectiveness, and use of host nation security forces to secure and control the population
      and to prevent the insurgent’s freedom of movement. Additionally, close coordination
      and affective cooperation between the host nation (civil, police, and military), the U.S.
      counterinsurgency force, and all other Coalition partners allows the full strength of each
      to engage all levels of the insurgency.

 7.   Center for Army Lessons Learned Handbook 10-08, “Partnership:
      Development of Logistics Capabilities,” November 2009. This handbook
      presents partnering considerations in developing a fundamental base for a self-sustaining
      host nation security force. Although based largely on the experiences of units deployed
      in support of Operation Iraqi Freedom from 2007-2009, the sustainment development
      ideas and concepts presented in this book are worth of consideration by any leader
      assigned the challenging task of developing host nation logistics. The information
      contained in this product reflects the actions of units in the field and may not necessarily
      be approved U.S. Army policy or doctrine.

 8.   Coalition Advisory Team Corps G4 Advisor, 205th Corps, Briefing, 1
      May 2011. This brief provides a mission overview of the Coalition Advisory Team
      supporting the 205th Corps G4. The 205th Coalition Advisory Team provides advice,
      assistance, and training to Headquarters, 205th HERO Corps, and promotes a close
      partnership with Headquarters, RC-South, in order to contribute to a self-sufficient, well-
      lead and competent ANA capable of independent operations by 2014.

 9.   Coalition Training Advisory Group-Army, Command Brief, 28 April
      2011 (Slide 9). Slide 9 of this document depicts the fielding of 22 CSSKs.

10.   Combined Security Transition Command – Afghanistan, “Campaign
      Plan for the Development of Afghan National Security Forces,”
      September 20, 2008. This document provides an overarching strategy for the
      development of the Afghan Security Forces, to include the MoD and the MoI. The plan
      aims to synchronize security sector development efforts across the Ministry of Defense,
      Ministry of Interior, CSTC-A, and the wider International Community. The plan lays out
      the guidance and the processes for security ministry and Afghan security forces
      generation and development. It also takes into account the Afghanistan National
      Development Strategy, dated April 2008, and the altered circumstances since conception
      of these agreements and strategies, including changes to the security environment. It is
      complementary to Commander, International Security Assistance Force Operations Plan
      38302 and supports the ISAF security effects.




                                              152
11.   Combat Service Support Kandak – Commando - Common Operating
      Picture Bubble Chart 31, January 2011. This chart tracks the ANA CSSKs’
      maintenance readiness status for common support operations.

12.   Decree 4.0, Ministry of Defense, Office of the Assistant Minister of
      Acquisition, Technology, and Logistics, “Supported and Supporting
      Unit Logistics Policy and Support Procedures,” January 2009. This
      decree describes common procedures, formats, and forms for the communication of
      logistic information between supported activities and the supply and materiel
      management of the MoD.

13.   Decree 4.1, Ministry of Defense, Office of the Assistant Minister of
      Acquisition, Technology, Logistics, “Transportation Management
      Policy and Procedures,” August 2010. This decree establishes transportation
      doctrine, policies, and procedures applicable for transportation and movement for the
      ANA. It recognizes that the NATO system must integrate with the ANA supply system
      in order to provide effective logistics/maintenance support to ANA operational units.

14.   Decree 4.2, Ministry of Defense, Office of the Assistant Minister of
      Acquisition, Technology, Logistics, “Materiel Accountability Policy
      and Procedures”, June 2009. This Decree establishes the accounting policy for
      all materiel (including food, ammunition, vehicles, fuel, and equipment) that ANSF uses
      on a daily basis. Further, it states: “The MoD is merely the custodian of the Afghan
      Government’s hard earned money and trust. Let no member of the ANA betray this trust
      by being a poor steward of its resources.”

15.   Decree 4.5, MoD, Office of the Assistant Minister of Acquisition,
      Technology, and Logistics, “Afghan National Army - Ammunition and
      Explosive Operations Policy and Support Procedures,” August 2010.
      This decree gives guidance and responsibility for the Afghanistan agencies or activities
      that are involved in the management and handling of munitions. Specific roles and
      responsibilities are allocated to attain efficiency and effectiveness in ammunition
      operations throughout the ANA.

16.   Decree 4.6, Ministry of Defense, Office of the Assistant Minister of
      Acquisition, Technology, and Logistics, “Afghan National Army -
      Petroleum, Oil and Lubricant Section Organization, Responsibilities
      and Procedures,” August 2010. This decree describes the organization,
      responsibilities and procedures for POL Sections within the ANA in support of MoD
      Decree 4.0. The Decree provides the ANA leadership with policies and procedures for
      fuel operations and applies to all ANA fuel operations, to include the receipt, storage,
      issue, quality control and accountability for packaged products, wood, coal, propane,
      aviation and ground fuels.




                                             153
17.   Decree 4.9, Ministry of Defense, Office of the Assistant Minister of
      Acquisition, Technology, and Logistics, “Maintenance Management
      Policy and Procedures,” August 2010. This decree describes procedures,
      formats, forms, and time standards for the communication of ANA maintenance
      information.

18.   Decree 467, “Organizational Structure,” October 2010. Directs a MoD/GS
      internal review of roles, responsibilities, authorities and command structures, with
      assistance from A5 and ANA Development, to provide a principles-based phased
      approach for revision and update of Decree 5001.

19.   Decree 5001, “Ministry of Defense Organization and Functions
      Manual,” 29 March 2011. The manual prescribes the command relationships from
      the President of Afghanistan, through the MoD and GS to all elements of the ANA. It
      also prescribes the organization and functions of all approved organizational structures
      (Tashkils) of the offices of the MoD and GS of the ANA. This manual, along with
      existing Ministerial Decrees, policies, standard operating procedures and ANA
      regulations serves as the basis for assigning and coordinating staff actions.

      Chapter 38: Medical Command. This chapter directs the establishment of the
      Afghan National Army Medical Command’s mission, responsibilities, and organizational
      structure. The Commander, Medical Command is the principal advisor to the Chief of
      GS on health care issues for the ANA, provides operational and administrative control
      and oversight on the provision of health care services, provides direction on professional
      skill requirements, standards of care, manpower, administrative and budgetary
      requirements for subordinate units within Medical Command. The Commander, Medical
      Command exercises operational and administrative control over all Medical Command
      and Regional Medical Command assets.

      Chapter 21: Chief of Personnel of the General Staff. This chapter directs
      the establishment of the Chief of Personnel of the GS (GS-G1), including their supporting
      office’s mission, responsibilities, and organizational structure. The Chief of Personnel is
      responsible for the management, evaluation, and execution of manpower and personnel
      policies, plans, and programs of all components of the Army, including active and reserve
      personnel for peacetime, contingency, and wartime operations.

20.   Deputy Assistant Secretary of the Navy – Acquisition and Logistics
      Management, “Coordination of Contracting Activities in the
      USCENTCOM Area of Responsibility (AOR), 14 Dec 2010. This
      memorandum reiterates three previous memorandums, to include Deputy Secretary of
      Defense memorandum "Coordination of Contracting Activities in the USCENTCOM
      Area of Responsibility (AOR)," of 22 November 2010, addressing the need for
      synchronization of contracting resources within the USCENTCOM AOR. The second
      memorandum covered "Theater Business Clearance/Contract Administration Delegation
      (TBC/CAD) Update", 29 June 2010, which outlined the expansion of CENTCOM's
      TBC/CAD processes for service contracts. The third memorandum, "Theater Business


                                             154
      Clearance/Contract Administration Delegation (TBC/CAD) Update", 13 October 2010,
      extended the 1 October 2010 effective date for expanding TBC/CAD coverage within the
      USCENTCOM AOR to 1 November 2010.

21.   Director, Defense Procurement and Acquisition Policy, “Defense
      Contingency Contracting Officer Representative Handbook,” 30 June
      2010. This handbook provides the basic knowledge and tools needed by CORs to
      support contingency operations. It specifically addresses the realities faced by CORs in
      operations outside the continental United States. It provides comprehensive guidance and
      training qualification requirements from the Federal Acquisition Regulation; the Defense
      Federal Acquisition Regulation Supplement; the Joint Ethics Regulation; DOD directives,
      instructions, publications, and policies; and countless CORs and Contingency
      Contracting Officers who have learned hard lessons in deployed environments. This
      document is meant to supplement, not replace, formal COR training given by various
      DOD/OSD.

22.   DOD Directive No. 7045.14, “The Planning, Programming, and
      Budgeting System (PPBS),” November 21, 2003. This U.S. DOD Directive
      establishes policy, procedures, and responsibilities for the Planning, Programming, and
      Budgeting System, the primary resource management process in the Department of
      Defense. The U.S. and its coalition partners’ ministerial development of the Afghan
      MoD Planning, Programming, and Budgeting System process is mirrored in large part
      after this U.S. Department of Defense Directive.

23.   DOD Instruction 3000.05, “Stability Operations”, September 16, 2009.
      This Instruction provides guidance on stability operations and will evolve over time as
      joint operating concepts, missions, and lessons learned aid in the development of DOD
      policy and assignment of responsibility for the identification and development of DOD
      capabilities to support stability operations.


24.   DODI 5000.64, “Accountability and Management of DOD Equipment
      and Other Accountable Property,” May 19, 2011. This Instruction provides
      policy and procedures for DoD-owned equipment and other accountable property and
      establishes policy and procedures to comply with 40 U.S.C., section 524. It also requires
      that accountable property records shall be established for all property purchased, or
      otherwise obtained, that are sensitive as defined in DoD 4100.39-M, “Federal Logistics
      Information System,” Volume 10, Table 61, November 2007.

25.   DOD Instruction 5000.68, “Security Force Assistance (SFA),” October
      27, 2010. This Instruction establishes policy and assigns responsibilities regarding the
      preparation of DOD personnel and operational planning for, as well as the conduct of,
      security force assistance across the DOD. It also establishes that security force assistance
      shall encompass DOD efforts to support the professionalization and the sustainable
      development of the capacity and capability of the foreign security forces and supporting
      institutions of host countries, as well as international and regional security organizations.


                                              155
26.   DOD 6055.09-M, Volume 7, “DoD Ammunition and Explosives Safety
      Standards: Criteria for Unexploded Ordnance, Munitions Response,
      Waste Military Munitions, and Material Potentially Presenting an
      Explosive Hazard,” February 28, 2008, administratively reissued
      August 4, 2010. The manual establishes explosives safety standards for the
      Department of Defense. Volume 7 provides the criteria for the unexploded ordnance,
      munitions response, waste military munitions, and material potentially presenting an
      explosive hazard.

27.   DOD 4140.1-R, “DOD Supply Chain Material Management Regulation,”
      May 23, 2003. This regulation implements DOD Directive 4140.1 and establishes
      requirements and procedures for DOD material managers and others who need to work
      within or with the DOD supply system.

28.   German Armed Forces Technical Advisory Group – Power Point
      Brief, “Combat Service Support School of the Afghan National Army,”
      21 April 2011. This document provides information on the status of the CSS School,
      training and development, infrastructure, training locations, and the way
      ahead/challenges.

29.   Government Accountability Office Report (11-66), “Afghanistan
      Security: Afghan Army Growing, but Additional Trainers Needed;
      Long-term Costs Not Determined,” January 2011. This report examines:

      (1) The extent of progress made and challenges faced in expanding the size of the ANA,
      (2) The extent of progress made and challenges faced in developing ANA capability, and
      (3) Estimated future funding necessary to sustain and further expand the ANA.

      The report also recommends that the Secretary of Defense, in conjunction with
      international partners, take steps to eliminate the shortage of trainers; clarify what ANA
      growth beyond the current end goal, if any, is needed; and develop estimates of the future
      funding needed to further grow and sustain the ANA.

30.   Headquarters, ISAF Joint Command, Kabul, Afghanistan, Standard
      Operating Procedure 430, “ANSF Logistics Development – Corps and
      Below,” March 2011. The purpose of this document is to provide developmental
      guidance for ANSF units at the corps level and below, which include ANA/Commando
      CSSKs, GSUs, CLKs, brigade/corps S4s, unit level support platoons, and Afghan
      National Civil Order Police Special Support Battalions. It further defines roles and
      responsibilities and provides progressive capability objectives for use by partners and
      mentors, and clarifies command and control relationships.

31.   Headquarters, ISAF, “Partnering Directive,” (NATO/ISAF
      UNCLASSIFIED), 29 August 2009. This document provides additional guidance
      and intent for ISAF to conduct embedded partnering with the ANSF and applies to all



                                             156
      U.S. forces operating under the operational control or tactical control of USFOR-A. ISAF
      will partner with the ANSF at all levels-from the Government Ministries down to platoon
      level. An embedded partnership enhances ISAFs capabilities to perform the mission by
      establishing a trust-based relationship between ANSF and ISAF units.

32.   IJC Operation Order OMID 1390 001-2010, “ISAF Joint Command
      Operations in Afghanistan” – Annex R: Logistics, October 9, 2010.
      This document is classified.

33.   Joint Center for International Security Force Assistance “Afghan
      National Army Mentor Guide,” dated 25 March 11. This publication
      provides force structure, organizational culture, and challenges of the Afghan National
      Security Forces as well as insight into lessons learned from ongoing security force
      assistance and counterinsurgency efforts. It is suggested reading for anyone deploying to
      Afghanistan, and is considered a must read for advisors, leaders, and trainers preparing to
      conduct stability operations in Afghanistan.

34.   Joint Publication 3-07.1, “Joint Tactics, Techniques, and Procedures
      for Foreign Internal Defense,” 30 April 2004. This document sets forth
      doctrine and selected Joint tactics, techniques, and procedures to govern the joint
      activities and performance of the Armed forces of the United States in joint operations. It
      provides the doctrinal basis of interagency coordination and U.S. military involvement in
      multinational operations. Page V-27, para 10.d(4) states “Tailor the proper types of
      equipment maintenance and training sustainability packages to the needs of the Host
      Nation.”

35.   Joint Publication 4-10, “Operational Contract Support,” October 17,
      2008. The publication establishes doctrine for planning, conducting, and assessing
      operational contract support integration and contractor management functions in support
      of joint operations. It provides standardized guidance and information related to
      integrating operational contract support and contractor management, defines and
      describes these two different, but directly related functions, and provides a basic
      discussion on contracting command and control organizational options.

36.   NTM-A/CSTC-A’s “Afghan Ministry of Defense Programming &
      Analysis Department Strategic Plan for Self-Sufficiency,” December
      23, 2010. The Programming & Analysis Department’s Strategic Plan for Self-
      Sufficiency provides the frame work for the Directorate to annually develop and
      coordinate the most comprehensive, cost-effective, and executable three-year Final
      Program Position that matches limited resources to the strategic priorities of the Ministry
      of Defense and the GIRoA.

37.   NTM-A/CSTC-A’s “ANA Logistics Deep Dive” briefing for DOD IG
      team, Director CJ4, 28 April 2011. This document is a NTM-A/CSTC-A Brief
      by CJ4 on the CJ4 mission and organization. The briefing provides a status of ANA
      logistics development and the way ahead, from the perspective of NTM-A/


                                              157
      CSTC-A. The briefing also identifies high visibility construction projects and the
      challenges they face.

38.   NTM-A/CSTC-A’s “Ministerial Development Plan for the Assistant
      Ministry of Defense for Strategy and Policy,” Mar 2011. The Ministerial
      Development Plan for the Assistant Ministry of Defense for Strategy and Policy provides
      the framework for AMoD S&P to develop and recommend National Security Strategy,
      Defense Policy, International Military Policy and Intelligence Policy for the MoD. It also
      prescribes the process for program review and analysis to synchronize force management
      and defense system development with budget planning actions and defense budget
      requests.

39.   NTM-A/CSTC-A Training Requirements: Request for Forces Plan Y,
      Titled: “Analysis of Unfilled Requirements”, March 2011. This is a
      classified document.

40.   Title 40, Code of Federal Regulations, Environmental Protection. Title
      40 arranges environmental regulations promulgated by the U.S. Environmental Protection
      Agency, based on the provisions of United States laws (statutes of the U.S. Federal
      Code). Parts of the regulation may be updated annually on July 1.

41.   Updated Afghan National Army Training Command Course Catalogue
      (2010/2011), as of March 9, 2011. This document provides a breakout of the courses
      that offered at the CSS School. It also shows the start and graduation date to include
      class capacity. The courses range from basic transportation to Advanced Individual
      Logistics Training.




                                             158
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

United States
Department of Defense
   •   Deputy Assistant Secretary of Defense for Maintenance, Plans, and Programs, AT&L

Afghanistan
   U.S. Central Command
   •   Commander, ISAF/USFOR-A, and selected staff
   •   Commander and Deputy Commanders, NTM-A/CSTC-A
             (ANA Develop, Programs, Regional Support, Staff Principals—CJ4, CJ7, CJ8,
       SAO, etc.)
   •    Commander, IJC & Selected Staff Principals (CSS)
               (OMLTs, COR Representatives, Security Partner Section, and KRCC)
   •   Commander, JSC-A, and staff involved with ANA Logistics Development
   •   Commander, RC-East, and Chief, ANSF Development
   •   Commander, RSC-East, and Chief, ANSF Development
   •   Commander, RC-South, and Chief, ANSF Development
   •   Commander, RSC-South, and Chief, ANSF Development
   •   Commander, RC-Southwest, and Chief, ANSF Development
   •   Commander, RSC-Southwest, and Chief, ANSF Development
   •    Commander, RC-North, and Chief, ANSF Development
   •   Commander, RSC-North, and Chief, ANSF Development
   •   Selected Staff Principals of Regional Commands
   •   Uniformed Logistics/Maintenance Mentors/Advisors/OMLTs at Ministerial, Operational,
       and Tactical levels (Ministry of Defense down to kandak)
   •   Contract Logistics/Maintenance Mentors/Advisors
   •   Contract Support Logistics/Maintenance personnel




                                               159
Government of the Islamic Republic of Afghanistan
Ministry of Defense
   •   Minister of Defense
   •   Chief of the General Staff, ANA
   •   Assistant Minister of Defense, Acquisitions, Technology and Logistics
   •   MoD Director of Logistics and Maintenance Readiness
   •   MoD Procurement
   •   Acquisition Agency
   •   MoD & GS Inspectors General
   •   GS-G4, ANA
   •   Commander and selected staff ANA Logistics Command
   •   Depot 0
   •   Log Support Operations Center
   •   Central Workshops
   •   Central Issue Facility
   •   Combat Service Support School
   •   Commander, Chief of Staff, and G4, 203rd Corps (East)
   •   Commander, Chief of Staff, and G4, 205th Corps (South)
   •   Commander, Chief of Staff, and G4, 215th Corps (Southwest)
   •   Commander, Chief of Staff, and G4, 209th Corps (North)
   •   Garrison commander, S4 of visited corps
   •   Forward Support Depots in corps visited
   •   Equipment Maintenance Sites in corps visited
   •   One brigade in corps visited (commander, S4)
   •   One CSSK in brigades visited (commander, S4)
   •   Commander, Chief of Staff, and S4 of the CLK in corps visited




                                            160
Appendix E. Management Comments




                   161
This following 15 pages have been reformatted from an excel spreadsheet to
               meet the legibility requirements of the report.




                                   162
163
164
165
166
167
168
169
170
171
172
173
174
175
176
177
178
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
179
180
181
182
183
184
Appendix F. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics (AT&L)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense, Personnel and Readiness
Deputy Assistant Secretary of Defense for Maintenance, Plans, and Programs, AT&L
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia
Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command
Commander, U.S. Army Materiel Command
Chief, National Guard Bureau
Chief, U.S. Army Reserve
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Afghanistan Engineer Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Inspector General of the Air Force



                                                185
Combatant Commands
Commander, U.S. Central Command
     Commander, United States Central Command, Joint Theater Support Contracting
            Command*

Other Defense Organizations
Commander, International Security Assistance Force/U.S. Forces–Afghanistan*
       Commander, International Security Assistance Force Joint Command*
       Commander, NATO Training Mission-Afghanistan/Combined Security Transition
                Command–Afghanistan*
Director, Defense Contract Management Agency
Director, Defense Intelligence Agency
Director, Joint Center for International Security Force Assistance*

Other Non-Defense Federal Organizations
Special Inspector General for Afghanistan Reconstruction

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
       Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
       House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform

*Recipient of the draft report




                                             186
